<html>
<title> - SAFETY AND SECURITY OF SPENT NUCLEAR FUEL TRANSPORTATION</title>
<body><pre>[Senate Hearing 110-1222]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1222
 
                        SAFETY AND SECURITY OF 

                   SPENT NUCLEAR FUEL TRANSPORTATION
=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 24, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
80-371                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         KAY BAILEY HUTCHISON, Texas, 
    Virginia                             Ranking
JOHN F. KERRY, Massachusetts         TED STEVENS, Alaska
BYRON L. DORGAN, North Dakota        JOHN McCAIN, Arizona
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             ROGER F. WICKER, Mississippi
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 24, 2008...............................     1
Statement of Senator Carper......................................    26
Statement of Senator Ensign......................................     2
    Prepared statement...........................................     3
Statement of Senator Inouye......................................     1
Statement of Senator Thune.......................................    86

                               Witnesses

Ballard, Ph.D., James David, Associate Professor, Department of 
  Sociology, California State University, Northridge (CSUN); 
  Director, CSUN Intelligence Community Center Academic 
  Excellence (IC-CAE); Consultant, Nuclear Waste Project Office, 
  State of Nevada................................................    53
    Prepared statement...........................................    55
Crowley, Ph.D., Kevin D., Senior Board Director, Nuclear and 
  Radiation Studies Board, National Research Council, The 
  National Academies.............................................    46
    Prepared statement...........................................    48
Hamberger, Edward R., President and CEO, Association of American 
  Railroads......................................................    77
    Prepared statement...........................................    78
Pritchard, Edward W., Director, Office of Safety Assurance and 
  Compliance, Federal Railroad Administration, U.S. Department of 
  Transportation.................................................    16
Reid, Hon. Harry, U.S. Senator from Nevada.......................     4
    Prepared statement...........................................     6
Schubert, Sandra, Director, Environmental Working Group..........    29
    Prepared statement of Kenneth A. Cook, President, 
      Environmental Working Group................................    32
Sproat III, Hon. Edward F., Director, Office of Civilian 
  Radioactive Waste Management, U.S. Department of Energy........     8
    Prepared statement...........................................    10
Weber, Michael, Director, Nuclear Material Safety and Safeguards, 
  U.S. Nuclear Regulatory Commission.............................    11
    Prepared statement...........................................    13
Willke, Dr. Theodore ``Ted'', Associate Administrator, Hazardous 
  Materials Safety, Pipeline and Hazardous Materials Safety 
  Administration, U.S. Department of Transportation..............    18
    Written Statement of Ted Willke, Associate Administrator for 
      Hazardous Materials Safety, Pipeline and Hazardous 
      Materials Safety Administration, and Edward Pritchard, 
      Director, Office of Safety Assurance and Compliance, 
      Federal Railroad Administration, U.S. Department of 
      Transportation.............................................    19

                                Appendix

Response to written questions submitted to Kevin Crowley by:
    Hon. Daniel K. Inouye........................................   105
    Hon. Harry Reid..............................................   105
Response to written questions submitted to Edward R. Hamberger 
  by:
     Hon. Daniel K. Inouye.......................................   108
    Hon. Harry Reid..............................................   108
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Dr. James David Ballard......................................   107
    Ken Cook.....................................................   104
Response to written questions submitted to Edward Pritchard by:
    Hon. Daniel K. Inouye........................................   100
    Hon. Harry Reid..............................................   100
Response to written questions submitted by Hon. Harry Reid to Ted 
  Willke.........................................................   102
Response to written questions submitted to Hon. Edward F. Sproat 
  III by:
    Hon. Barbara Boxer...........................................    91
    Hon. Daniel K. Inouye........................................    91
    Hon. Harry Reid..............................................    93
Response to written questions submitted to Michael Weber by:
    Hon. Barbara Boxer...........................................    96
    Hon. Daniel K. Inouye........................................    95
    Hon. Harry Reid..............................................    97


                        SAFETY AND SECURITY OF 
                   SPENT NUCLEAR FUEL TRANSPORTATION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 2008

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:03 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Daniel K. 
Inouye, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Accomplishing the safe and secure 
transportation of nuclear waste is one of the more complex 
challenges facing our government. Spent nuclear fuel is the 
byproduct of the nuclear power industry that supplies electric 
energy to millions across the country and also is created by 
our armed forces. This fuel retains its radioactive qualities 
for thousands of years and is currently stored at 77 commercial 
and government sites across the country.
    We are not here to discuss the merits of the Department of 
Energy's selection of Yucca Mountain, Nevada as a site for a 
permanent underground geological repository to store nuclear 
waste or its current license application. Rather, we must 
ensure that all shipments of spent nuclear fuel and high-level 
waste are held to the highest safety and security standards.
    Today nuclear waste is transported by rail, truck, and 
barge, all of which are under the jurisdiction of this 
Committee, and the risks of transporting nuclear waste must be 
fully understood and evaluated and a system of transportation 
must be designed to fully address these risks.
    In this hearing, we will examine the current regulatory 
regime for nuclear waste transportation and hear from 
researchers and a representative of the rail industry in order 
to more fully understand the challenges of transporting nuclear 
waste. It is this Committee's obligation to evaluate these 
challenges and to ensure that spent nuclear fuel and high-level 
radioactive waste is transported in ways that minimize the 
safety and security risks to the general public.
    With that, may I first welcome the delegation from Nevada, 
but I will call upon Senator Ensign. Afterwards he will come up 
here. Senator Ensign?

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Mr. Chairman, thank you very much for 
holding this hearing. As you know, the Nevada delegation has 
been unified as Nevadans, as most Nevadans are in opposition to 
the Yucca Mountain project, and part of that project is the 
whole idea of transporting nuclear waste. I realize that that 
is what this hearing is about today, but we also need to 
educate Americans what this means--where is this nuclear waste 
going to be transported, and what are the parameters in 
studying how safe this nuclear waste is to transport.
    But we also have to look at the costs associated. I 
remember a few years ago, Senator Reid and I saying when the 
cost estimates, about 5 years ago, for Yucca Mountain were 
about the mid-$50 million range, and Senator Reid and I 
testified that the cost is going to go at least to $100 
billion, and probably north of $100 billion would be the cost 
of Yucca Mountain. People kind of said, no, that is not right. 
Those are way over estimate. Well, now the most recent cost 
estimate for Yucca Mountain is $96 billion.
    What a lot of people do not realize, especially those who 
want to get the nuclear waste out of their state, which then 
leads to the transportation, is Yucca Mountain, the way it is 
currently being constructed, will only handle the nuclear waste 
that has been produced by this country up to this point. It 
does not handle any nuclear waste that this country will be 
producing into the future.
    And so I think that while we are studying transportation 
issues and talking about the transportation issues, we should 
also look at whether we need to transport it at this point. We 
need to look at other technologies that other countries are 
doing, like France, and the amount and how they transport their 
waste, but also what they do with their waste. Basically they 
recycle their waste, and they have a lot smaller volume.
    But we also have to tell the American people, who have 
nuclear powerplants in their state that think that they are 
getting rid of all of their nuclear waste, that that in fact is 
not the case. I remember when Spence Abraham was the Secretary 
of Energy and he came and he was talking about--this was right 
after 9/11--and the safety, that we need one repository. So we 
bring all the nuclear waste to one repository.
    Well, the fact is that when you have a spent nuclear fuel 
rod, it needs to cool for several years in cooling pools before 
you can actually transport it, before you could take it to a 
repository, if that is, indeed, what you wanted to do. So there 
is going to be nuclear waste or partially spent nuclear fuel 
rods all over the country.
    Those are just some of the issues I believe that are 
important to talk to the American people and to be honest with 
the American people. Is this a policy that we should continue? 
I do not believe it is. I believe that we should catch up with 
the rest of the world on some of the modern recycling 
technologies, and in doing so, we can address the 
transportation issues. But we should be honest with the 
American people what the transportation issues are, where those 
transportation routes are and be honest with them and look at 
other countries and what they have done with it.
    But we also, in light of that, need to look at whether or 
not Yucca Mountain is the place that we want to take very 
valuable fuel, whether we want to look at onsite dry cask 
storage, which is good for 100 to 200 years, which, by the way, 
would obviate the need for transporting nuclear waste, and then 
we should look at the recycling efforts as well.
    So I have a formal statement and would ask that that be 
made part of the record.
    But, Mr. Chairman, I appreciate you holding this hearing 
today and listening to two concerned Nevadans who happen to 
represent a lot of other Nevadans on this important issue to 
our state.
    [The prepared statement of Senator Ensign follows:]

    Prepared Statement of Hon. John Ensign, U.S. Senator from Nevada
    Mr. Chairman, I would like to thank you for the opportunity to 
testify today on behalf of the people of Nevada.
    Mr. Chairman, I would like to be clear: Yucca Mountain is not an 
issue that affects just the residents of Nevada--it is an issue that 
affects every American. I am here today to explain that the plan to 
store spent nuclear fuel at Yucca Mountain is not a solution. The 
storage of spent nuclear fuel at Yucca Mountain is a plan plagued by 
unrealistic assumptions about cost, poor transportation and waste 
management planning, and insufficient scientific testing to ensure the 
safety of our communities. I believe that we can do better.
    I have bad news for those of you with working nuclear reactors in 
your states who think that the opening of Yucca will rid your state of 
nuclear waste--you're wrong. You see, even if it were possible to 
immediately and magically remove all of the existing spent fuel from 
commercial nuclear power plant locations, there would still continue to 
be spent fuel stored at each and every operating reactor in the 
country. That's because nuclear waste is highly radioactive and 
thermally hot and must be kept at the reactor sites in water-filled 
cooling pools for at least 5 years. The only way spent fuel storage can 
be eliminated from a reactor location is to shut down the reactor. And 
that isn't an option.
    Mr. Chairman, let's also consider the long-range cost of Yucca 
Mountain. The most recent estimates of the cost of Yucca Mountain are 
nearing $100 billion--and I am pretty certain it will go higher. What 
do we get for our money? The same problem we have today. We will have 
65,000 metric tons of commercial nuclear waste by the time Yucca 
Mountain is scheduled to open. We produce 2,000 metric tons of nuclear 
waste a year. The DOE plans to transport 3,000 metric tons a year. Just 
do the math. We won't get rid of the nuclear waste backlog for nearly a 
century and Yucca Mountain will be filled long before then.
    And under the Department of Energy's plan, there is no requirement 
for the oldest and most thermally cool, spent fuel to be shipped first. 
Without this sort of requirement, nuclear facilities will have the 
incentive to ship out more recently spent fuel that is hotter and more 
dangerous to transport. Unfortunately, this is just another hole in 
DOE's plan for Yucca Mountain.
    And Mr. Chairman, the NRC hasn't even conducted full-scale physical 
tests on actual spent fuel casks. I wouldn't put my children in a car 
that hadn't been crash tested, but I'm supposed to put them on a 
highway next to a truck with casks of nuclear waste that haven't been 
adequately tested. In fact, experts from the National Research Council 
have examined this issue and strongly endorse the use of full-scale 
testing to determine how packages will respond to real-world 
conditions.
    These casks are going to be traveling by homes, schools, and 
churches. And at this time we can't be sure they will survive real-
world conditions. For example, the casks have not been tested in fully 
engulfing long-duration fires. The testing is for 30 minutes at 1475 
degrees Fahrenheit. The temperature in the Baltimore tunnel fire 
reached 1500 degrees Fahrenheit, and the fire burned for hours.
    It doesn't seem to me that the proponents of the Yucca Mountain 
have done enough to prove that the plan is safe, and the entire Nevada 
delegation has concerns. To address this, the Nevada Congressional 
delegation will be sending a letter to the Surface Transportation Board 
outlining our concerns regarding the construction and operation of a 
rail line from eastern Nevada to the proposed nuclear waste repository 
at Yucca Mountain.
    So if Yucca Mountain isn't the answer, what is?
    Mr. Chairman, we should keep that waste right where it is, safely 
stored for the time being. The Federal Government should offer to take 
title and liability to the waste stored on site, just as it did in 
Pennsylvania under the PECO settlement. The NRC has stated fuel can be 
stored safely on site for at least 100 years in dry cask storage. That 
leaves plenty of time to continue to develop new technologies at our 
National Labs to recycle the waste without producing weapons-grade 
plutonium as a byproduct.
    I believe that we need to do what this country does best: innovate 
and lead the world in cutting edge technologies. Unfortunately, with 
Yucca Mountain, we have been way behind the curve on how we manage our 
spent nuclear fuel. For instance, the French store their spent fuel 
byproducts in above-ground repositories--this model seems to make more 
sense for a country as large as ours. It seems to me that we should be 
using $100 billion in Yucca funding to develop new recycling 
technologies and make a dent in the challenge of managing spent fuel.
    And managing spent nuclear fuel is a serious challenge we face. As 
a legislator, like all of you, I need to be fully informed about the 
effects of legislation on my constituents before I vote. I know that 
Yucca Mountain will be bad for both the people of Nevada and the United 
States. It comes down to this: you are being asked to risk the health 
and safety of your constituents for a scheme that will leave this 
country looking for another nuclear waste storage site 24 years after 
Yucca Mountain opens. It's just not worth it.

    The Chairman. I thank you very much, Senator, and your 
statement will be made part of the record. If you will join me.
    Now it is my pleasure to present a most distinguished 
American, the Leader of the Democratic majority in the U.S. 
Senate, the Honorable Harry Reid.

                 STATEMENT OF HON. HARRY REID, 
                    U.S. SENATOR FROM NEVADA

    Senator Reid. Mr. Chairman, thank you very, very much. I 
very much appreciate you chairing this meeting. Your service to 
the country is well known and being Chairman of this most 
important Committee is also part of your legacy.
    Senator Ensign and I are speaking for Nevadans, but we are 
also speaking for people all over this country. And there will 
be testimony today by those on Panel II that will talk about 
the dangers to the American people outside Nevada of 
transporting the most poisonous substance known to man.
    We have not looked at this for some time, the issue of 
nuclear waste. I have said and I believe without any question 
that Yucca Mountain is dead. The money being spent on it is a 
big waste of taxpayers' dollars.
    Now, this is a busy week, but this hearing is necessary 
because the Nuclear Regulatory Commission has just docketed the 
Department of Energy's application to be in construction at 
Yucca Mountain.
    Like its application, the Department of Energy's nuclear 
waste shipping plans are grossly--grossly--incomplete. Yet, the 
Department wants to spend over $3 billion to start building a 
300-mile radioactive railway through Nevada. They want to do 
this before they even have permission to build the dump. 
Anything to divert attention from the dump is what they are 
involved in.
    It amazes me and people who have watched this Yucca 
Mountain project since the early 1980s how long the Department 
of Energy has pushed this Yucca project with having no 
transportation plan in place. They have not made public its 
proposed shipping routes. They have not finalized the national 
transportation plan. Their draft transportation plan is barely 
a crude sketch of the comprehensive planning that should 
actually be done for a massive nuclear waste shipping program.
    Equally shocking is that the transportation of aging 
disposal casks the Department of Energy plans to use have not 
been designed yet. The Department says that 90 percent of the 
nuclear waste will be shipped using these transportation 
storage canisters, but they have absolutely no reason to 
believe that this is true. There is no guarantee that nuclear 
utilities are actually willing to pay for these canisters, 
especially those that already use dry cask storage to securely 
store their waste.
    Not from here is the Calvert Hills nuclear generating 
facility. They have for years stored the stuff onsite, saving 
millions and millions of dollars, and certainly it is safe.
    After 9/11, the thought of shipping this poisonous 
substance on highways and railways across the country is at the 
very least very scary. But these untested, yet-to-be-designed 
canisters are part of the foundation of the Yucca plan. The key 
defense against a transportation disaster--one of the 
Department of Energy's primary barriers against radioactive 
leakage from the nuclear waste dump. But that is not important 
to the Department now because the Nuclear Regulatory Commission 
has made the decision that the Department of Energy's license 
application for Yucca was complete.
    In order to get all the nation's nuclear waste at Yucca, 
the Energy Department is proposing between 3,000 and 11,000 
rail shipments and as many as 10,000 truck shipments twice a 
week for the next 24 years. Trains loaded with this substance 
would traverse the country traveling to Nevada. Some of the 
distances would be as much as 3,000 miles. Many of these 
shipments would go right by the world's destination resort, Las 
Vegas, the Strip. Trains would pass within a half mile of 
hundreds of thousands of visitors on any given day to Las Vegas 
that hosts tens of thousands of workers.
    Texas could host up to 308 nuclear waste shipments alone. 
All these shipments would go through Arizona communities just 
from Texas, collecting even more waste perhaps even in Arizona.
    The Department of Energy and nuclear industry lobbyists 
will tell you that the risk of accident is low. What they do 
not tell you is the risk is a relative risk. Let us say it is 
98 percent successful, even 99 percent. That means there would 
be 5,000 botched surgeries each year. 99 percent gets us to 
200,000 wrong drug prescriptions each year. 99 percent gets us 
to 20,000 lost pieces of mail each hour. The point is simple. 
More nuclear waste on the road will certainly involve more 
accidents. Accidents will happen. It is only a question of 
where and when. It will put the lives of millions of Americans 
at risk. So I would ask the Department not to be throwing 
around the 99 percent number because that is not valid in light 
of what could happen with that 1 percent.
    One of the things I fear is that the Department of Energy 
is not going for 100 percent success. They are not even trying 
to eliminate the risk. One of the most glaring examples is 
their refusal to consider shipping the oldest, less radioactive 
nuclear waste first, a basic measure that could reduce 
radiological hazards by 85 percent.
    The Members of the Committee should ask the Department of 
Energy and Nuclear Regulatory Commission and the Academy of 
Sciences about this issue. Both the Academy and the Government 
Accountability Office told the Energy Department that they 
should ship older nuclear waste first. The state of Nevada, 
which understands the risks, has urged the Department to 
consider shipping the oldest first. But the Department of 
Energy has made up its mind. The answer is no. It is not 
logical, but the answer is no.
    The nuclear power industry wants to get rid of its more 
expensive and most radioactive waste first. The question is why 
has the Department of Energy not even considered shipping the 
oldest first. They do not mention it in their environmental 
analysis for transporting waste to Yucca. They do not consider 
it in their draft national transportation plan. It is 
unfortunate that the Department of Energy once again is 
refusing to let logic get in the way of building its waste dump 
at Yucca.
    We all know that nuclear waste cannot be stored at Yucca 
safely, but it can be stored safely for a very long time in 
secure dry cask storage containers. If allowing nuclear waste 
to cool for 50 to 100 years improves the safety of shipping in 
the future, the Department should be seriously considering 
onsite storage, which they are not, even though scientists say 
it is the way to go. I say a majority of the scientists.
    Storing waste at nuclear reactors not in the earthquake-
prone Yucca Mountain would give us the time needed to develop 
secure, scientifically sound, long-term solutions for nuclear 
waste. Senator Ensign and I have been saying this from the 
beginning.
    As Senator Ensign said, Yucca's price tag is now 
approaching $100 billion. This is $49 billion more than the 
Department of Energy's 2001 estimate. The cost of Yucca 
increases at a rate of $7 billion a year. The annual payments 
to the nuclear waste fund are only a fraction of how much 
Yucca's cost is increasing. The $22 billion nuclear waste fund 
will never ever come close to covering the price of Yucca. The 
taxpayer will be on the limb for that.
    Terrible risks of transporting nuclear waste is yet another 
reason that this project is going to be stopped. That is why I 
appreciate very much the Appropriations Committee cutting back 
the money this year. It will be cut back at least $70 million 
from last year.
    Mr. Chairman, let me finally say that there has been a lot 
of cheerleading recently because this matter has been sent to 
the Nuclear Regulatory Commission. Their information they sent 
is incomplete. They have nothing dealing with transportation. 
This is a hoax and it will never happen. Yucca Mountain will 
never come to be.
    Could I be excused, Mr. Chairman?
    [The prepared statement of Senator Reid follows:]

    Prepared Statement of Hon. Harry Reid, U.S. Senator from Nevada
    I want to thank Chairman Inouye, Senator Hutchison, and the Members 
of the Committee for scheduling this important hearing. It has been a 
long time since the Senate has looked closely at plans to ship nuclear 
waste to Nevada.
    This is a very busy week. But this hearing is necessary now because 
the Nuclear Regulatory Commission has just docketed the Department of 
Energy's application to begin construction at Yucca Mountain.
    Like its application, the Department of Energy's nuclear waste 
shipping plans are grossly incomplete. Yet, the Department really wants 
to spend over $3 billion to start building a 300-mile radioactive 
railway through Nevada. They want to do this before they even have 
permission to build the dump.
    It amazes me how long the Department of Energy has pushed the Yucca 
project without having a real transportation plan in place. The 
Department has not made public its proposed shipping routes, and they 
still haven't finalized their National Transportation Plan. Their draft 
transportation plan is barely a crude sketch of the comprehensive 
planning that should actually be done for a massive nuclear waste 
shipping campaign.
    Equally shocking is that the Transportation Aging and Disposal 
casks the Department of Energy plans to use have not even been designed 
yet. The Department says that 90 percent of nuclear waste will be 
shipped using these transportation-storage canisters, but they have 
absolutely no reason to believe that this is true. There is no 
guarantee that nuclear utilities are actually willing to pay for these 
canisters, especially those that already use dry cask storage to 
securely store their waste.
    Yet these untested, yet-to-be designed canisters are part of the 
foundation of the Yucca plan. They're the key defense against a 
transportation disaster, and they're one of the Department of Energy's 
primary barriers against radioactive leakage from the nuclear waste 
dump. But that's not important to the Department now, because the 
Nuclear Regulatory Commission has made the unexplainable decision that 
the Department of Energy's license application for Yucca was complete.
    In order to get all of the nation's nuclear waste to Yucca, the 
Energy Department is proposing between 3,000 and 11,000 rail shipments, 
and as many as 10,000 truck shipments through Nevada. Twice a week for 
the next 24 years, trains loaded with the most dangerous substance 
known to man would traverse the country to Nevada.
    Some of these shipments would go right by the Las Vegas Strip. 
Radioactive trains would pass within one-half mile of 95,000 residents 
and 34 hotels that employ and host 40,000 workers and visitors. Texas 
could host up to 300 nuclear waste shipments. All of these shipments 
will go through Arizona communities too, collecting even more waste at 
the Palo Verde nuclear plant.
    The Department of Energy and nuclear industry lobbyists will tell 
you that the risk of an accident is low.
    What they don't tell you is that risk is relative--99 percent 
success gets us 5,000 botched surgeries each week. 99 percent gets us 
200,000 wrong drug prescriptions each year. 99 percent gets us 20,000 
lost pieces of mail each hour. My point is simple--more nuclear waste 
on the road will involve more accidents that will put the lives of 
millions of Americans at risk. I don't want to see what 99 percent gets 
us when nuclear waste is involved.
    What I fear most is that the Department of Energy is not going for 
100 percent success. They are not even trying to eliminate all the 
risk. One of the most glaring examples is their refusal to consider 
shipping the oldest, less radioactive nuclear waste first--a very basic 
measure that could reduce radiological hazards by 85 percent or more.
    I urge the Members of the Committee to ask the Department of 
Energy, the Nuclear Regulatory Commission, and the Academy of Sciences 
about this issue. Both the Academy and the Government Accountability 
Office have told the Energy Department they should ship older nuclear 
waste first. The state of Nevada--which understands the terrible 
risks--has urged the Department to consider shipping the oldest waste 
first.
    But the Department of Energy made up its mind. The answer was no.
    No, because the nuclear power industry wants to get rid of its more 
expensive and most radioactive waste first.
    My question is why hasn't the Department of Energy even considered 
shipping the oldest waste first? They don't mention it in their 
environmental analyses for transporting waste to Yucca and they don't 
consider it in their draft National Transportation Plan.
    It's unfortunate that the Energy Department once again is refusing 
to let logic get in the way of building its nuclear waste dump at Yucca 
Mountain.
    We all know that nuclear waste cannot be stored at nuclear reactors 
for eternity. But it can be safely stored for a very long time in 
secure dry storage casks. If allowing nuclear waste to cool for 50 to 
100 years improves the safety of shipping it in the future, the 
Department of Energy should be seriously considering on-site dry cask 
storage.
    Storing waste at nuclear reactors, not in the earthquake-prone 
Yucca Mountain, would give us the time needed to develop secure, 
scientifically sound long-term solutions for nuclear waste. Senator 
Ensign and I have been saying this all along.
    Yucca's price tag is now $96 billion, almost $49 billion MORE than 
the Department of Energy's 2001 estimate. As the cost of Yucca 
increases at a rate of $7 billion a year, the annual payments to the 
Nuclear Waste Fund are only a fraction of how much Yucca's cost is 
increasing. The $22 billion Nuclear Waste Fund will never come close to 
covering the price of Yucca.
    The terrible risks of transporting nuclear waste is yet another 
reason that we need to stop the government from hemorrhaging any more 
money on this failed project. It's time to keep Americans safe by 
keeping nuclear waste where it is.
    Again, thank you Mr. Chairman, Senator Hutchison and Members of the 
Committee for this opportunity.

    The Chairman. And I thank you very much for your testimony, 
sir.
    Now may I call the first panel, which consists of the 
following: the Director of the Office of Civilian Radioactive 
Waste Management, U.S. Department of Energy, the Honorable 
Edward Sproat; the Director of the Office of Nuclear Material 
Safety and Safeguards, U.S. Nuclear Regulatory Commission, Mr. 
Michael Weber; the Director of the Office of Safety Assurance 
and Compliance, Federal Railroad Administration, U.S. 
Department of Transportation, Mr. Ed Pritchard; and the 
Associate Administrator for Hazardous Material Safety of the 
U.S. Department of Transportation, Mr. Ted Willke.
    Gentlemen, welcome, and may I begin with Director Sproat?

       STATEMENT OF HON. EDWARD F. SPROAT III, DIRECTOR, 
     OFFICE OF CIVILIAN RADIOACTIVE WASTE MANAGEMENT, U.S. 
                      DEPARTMENT OF ENERGY

    Mr. Sproat. Well, good afternoon, Mr. Chairman, and thank 
you very much for the invitation to appear and represent the 
Department in front of the Committee to talk about the 
transportation of spent nuclear fuel.
    I ask that my formal testimony be entered into the record.
    The Chairman. Your statement will be made part of the 
record.
    Mr. Sproat. Thank you very much.
    I am going to keep my verbal comments very brief because we 
have a number of folks to speak this afternoon.
    First of all, I would like to say that, obviously, there is 
a lot of misinformation about this whole issue of 
transportation of spent nuclear fuel and high-level waste. And 
I hope that in my comments I try and help the Committee 
understand some of those misconceptions and try and straighten 
out some of the information.
    First of all, the concept of--as you pointed out in your 
opening statement, the transportation of spent nuclear fuel and 
high-level waste in this country is not something new. We have 
been shipping that hazardous material across the country by 
both rail and truck for over 40 years. And to be specific, just 
in the U.S. alone in the last 40 years, there have been over 
3,000 shipments of spent nuclear fuel and over 6,000 shipments 
of transuranic waste by truck to the Waste Isolation Pilot 
Project in New Mexico since it opened. So there is a huge 
experience base in this country on how to transport radioactive 
materials safely and effectively. And in all those shipments, 
there has never once been any release of any radioactivity in 
the public environment.
    There have been accidents, but none of those accidents have 
ever resulted in any releases because of the very robust 
containers and the very robust regulations that the Department 
of Transportation and the Nuclear Regulatory Commission places 
on that transportation. And I will let the representatives of 
those organizations talk a little bit more about that in their 
presentations.
    For Yucca Mountain, which obviously is one of the issues at 
the heart of this discussion in this hearing, I just want to 
make a comparison that compared to the 3,000 spent nuclear fuel 
shipments made so far in this country, at its peak of operation 
at Yucca, we are expecting that approximately 320 rail cars, 
which is two to three trains per week of shipments, will go 
from other places in the country to Yucca, and over 25 years, 
it would be 320 rail cars, or about two to three trains per 
week is what the total number of shipments would be to Yucca 
via rail and approximately 90 truck shipments per year. That 
compares to the existing transportation today in the U.S. of 
all hazardous materials of approximately 1 million rail cars of 
shipments in this country of hazardous materials, as classified 
by the Department of Transportation. So when you take a look at 
the total environment of hazardous waste transport in this 
country, radioactive materials is a very, very small 
percentage, and Yucca Mountain would be an even smaller 
percentage of that. So that is just to give you some kind of a 
context relative to the other hazardous material transportation 
this country already does and already accepts on a daily basis.
    Dr. Crowley will talk later this afternoon about the 
National Academy of Sciences study which really addressed this 
whole issue, I think, very, very well. And it concluded that 
the risks to the public from shipping spent nuclear fuel are 
orders of magnitude less than the risks associated with a 
number of other hazardous materials like chlorine and like some 
of the other gases and chemicals that are shipped across the 
country, whose risks we routinely accept. And so I think the 
National Academy study, when you hear from Dr. Crowley, will 
put this in a little more perspective in terms of comparative 
risks of nuclear material shipment versus other hazardous waste 
shipment.
    We at the Department of Energy have been working since 1992 
with states, county, tribal, and local governments in what we 
call our Transportation External Coordination Working Group to 
start to work together with these various entities about the 
transportation issues associated with Yucca Mountain, both by 
rail and by truck. We have a very good working relationship 
with them, and we are committed to continuing that working 
relationship with them. We know that any successful 
transportation campaign in the future will require a very 
strong working relationship with those local communities.
    So in summary, as we have the opportunity to talk about 
this a little bit more this afternoon, I would like to leave 
the Committee with the sense that, number one, this has been 
going on for a long time, the transportation of spent nuclear 
fuel and high-level radioactive waste.
    The risks, as assessed by the National Academy of Sciences, 
are significantly lower than the risks associated with the 
existing transportation of hazardous materials in the U.S.
    There are significantly more shipments of hazardous 
materials in the U.S. than nuclear materials, and we believe we 
have a very strong and successful regime of regulation, both 
from the NRC and the Department of Transportation, which DOE is 
committed to adhering to as we go forward with the Yucca 
Mountain transportation campaign.
    Thank you.
    [The prepared statement of Mr. Sproat follows:]

 Prepared Statement of Hon. Edward F. Sproat III, Director, Office of 
    Civilian Radioactive Waste Management, U.S. Department of Energy
    Mr. Chairman and Members of the Committee, I am Edward F. Sproat 
III, Director of the Department of Energy's (DOE) Office of Civilian 
Radioactive Waste Management (OCRWM). I appreciate the invitation to 
appear before the Committee to discuss the safety and security of 
transporting spent nuclear fuel.
    Since the early 1960s, more than 3,000 shipments of spent nuclear 
fuel have been conducted safely and securely in the United States, 
having traveled more than 1.7 million miles. There has never been a 
spent nuclear fuel transportation accident that has resulted in any 
release of radioactive material harmful to the public or the 
environment. The use of robust casks certified by the Nuclear 
Regulatory Commission (NRC), and strict regulatory standards for every 
aspect of logistics, including material characterization, packaging, 
loading, marking, equipment inspections, routing, training, security, 
and shipment monitoring, have all contributed to this outstanding 
safety record.
    In 2006, the National Academy of Sciences published a study on the 
safety of spent nuclear fuel shipments titled: Going the Distance? The 
Safe Transport of Spent Nuclear Fuel and High-Level Radioactive Waste 
in the United States. In that report, the Academy concluded that from a 
technical viewpoint, these shipments present ``. . . a low-
radiological-risk activity with manageable safety, health and 
environmental consequences when conducted in strict adherence with 
existing regulations.'' The plans to ship spent nuclear fuel to the 
Yucca Mountain repository in the 2020 time-frame are building on this 
successful experience base.
Roles and Relationships
    The Department of Transportation (DOT) and the NRC have established 
safety and security regulations for transport of spent nuclear fuel. 
DOE has committed to meet or exceed these regulations for shipments to 
Yucca Mountain. The Nuclear Waste Policy Act of 1982, as amended (NWPA) 
explicitly requires the Department to ship spent nuclear fuel and high-
level radioactive waste to a repository in transportation casks 
certified by the NRC. Under the NWPA, the Department must also comply 
with NRC notification requirements prior to conducting such shipments. 
In addition, the NWPA requires the Department to provide states and 
tribes technical assistance and funds for training local public safety 
officials in safe routine transportation and emergency response 
procedures. The Department has selected mostly rail as the preferred 
mode of transport both nationally and in the state of Nevada for 
shipments to Yucca Mountain. The Department also has made the policy 
decision to use dedicated trains as the usual mode of rail service to 
enhance operational efficiency.
    As the planning process for the Yucca Mountain transportation 
system evolves, we are continually looking for opportunities to further 
enhance the safety and security of these shipments. Post 9/11, the NRC 
has also imposed additional security measures for its licensees 
transporting spent nuclear fuel and other materials, many of which were 
measures DOE had put in place for its shipments years before. We are 
and will continue to coordinate our planning closely with NRC, DOT, and 
the Department of Homeland Security.
    Once routes and shipment schedules are established, advance 
notification will be provided to individuals that have appropriate 
security clearance in each Governor's office in compliance with NRC 
regulations. All shipments will be accompanied by armed escorts and 
will be continuously monitored and tracked via satellite. We anticipate 
that most rail shipments will be conducted on dedicated trains, meaning 
no other materials will be transported on the same train, allowing for 
greater operational control of such shipments. Highway and rail 
shipments will be thoroughly inspected in accordance with standards of 
the Commercial Vehicle Safety Alliance or the Federal Railroad 
Administration, as appropriate, prior to departing from their points of 
origin.
Challenges and Issues
    In their report on the safety of spent nuclear fuel shipments 
referenced above, the National Academy of Sciences addressed the 
relative risks of these shipments compared to other hazardous materials 
commonly transported in this country. Their findings demonstrate that 
each spent nuclear fuel shipment is thousands of times less risky than 
shipments of other commonly transported hazardous materials. This level 
of safety is the direct result of the stringent regulatory standards 
and robust packages used for such shipments.\1\
---------------------------------------------------------------------------
    \1\ National Research Council of the National Academies, Going the 
Distance? The Safe Transport of Spent Nuclear Fuel and High-Level 
Radioactive Waste in the United States (Washington, D.C.: The National 
Academies Press, 2006), pp. 174-182.
---------------------------------------------------------------------------
    In addition to the lower risks for each shipment of spent nuclear 
fuel, there are far fewer of these shipments per year than shipments of 
other hazardous materials. In 2006, American railroads transported 
hazardous materials 111 billion ton-miles in over 1,000,000 rail cars. 
Of this total, less than 0.025 percent were spent nuclear fuel 
shipments.
    The National Academy of Sciences, the transportation industry, the 
state of Nevada, and a broad spectrum of other stakeholders advocated 
strongly for a transportation system based on mostly rail shipments. 
Over the life of the repository, fewer than 3,000 trains can transport 
the same amount of spent nuclear fuel that would require more than 
48,000 truck shipments. In addition, the use of Transportation, Aging, 
and Disposal canisters, which weigh up to 180 tons in their 
transportation configuration, requires the use of rail transport.
    A significant fleet of transportation casks has to be developed to 
support shipments to Yucca Mountain. That process has started with 
funding for the design and certification of the Transportation, Aging 
and Disposal canisters and their transportation overpacks. Funding to 
support development of a fleet of approximately 150 transport casks 
that meet the stringent safety requirements of the NRC is needed as 
part of the transportation system. In addition, the Department needs to 
develop a fleet of rail cars with the best available safety technology. 
These rail cars will meet the new requirements established by the 
Association of American Railroads. The Department is collaborating with 
the Naval Nuclear Propulsion Program on development of the next 
generation of security escort rail cars designed to this new standard.
Current Status and Steps Moving Forward
    In a 2004 Record of Decision, the Department selected mostly rail 
as its mode of transport, both nationally and in the state of Nevada. 
In June 2008, the Department completed the ``Final Environmental Impact 
Statement for a Rail Alignment for the Construction and Operation of a 
Railroad in Nevada to a Geologic Repository at Yucca Mountain, Nye 
County, Nevada'' (Rail Alignment EIS). The Rail Alignment EIS analyzes 
the environmental impacts associated with a range of potential 
alignments for constructing and operating a railroad in Nevada to Yucca 
Mountain. There was considerable public involvement in the development 
of the EIS and a Record of Decision is anticipated this fall.
    As we move forward the Department will continue its ongoing 
collaborations with States, Tribes and stakeholders as we fulfill our 
commitment to establish a safe and secure transportation system for 
shipments to Yucca Mountain. I appreciate the Committee's interest on 
this important aspect of the Department's Yucca Mountain Program.

    The Chairman. I thank you very much, sir.
    Our next witness is Director Weber.

              STATEMENT OF MICHAEL WEBER, DIRECTOR

             NUCLEAR MATERIAL SAFETY AND SAFEGUARDS

               U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Weber. Good afternoon, Mr. Chairman and Senator Ensign. 
It is my pleasure to appear before you today to represent the 
staff of the U.S. Nuclear Regulatory Commission concerning the 
Nuclear Regulatory Commission's role in ensuring the safety and 
the security of potential transportation of spent fuel, 
including the potential transport of that spent fuel to the 
proposed repository at Yucca Mountain.
    As you know, the NRC staff has accepted for technical 
licensing review the application from the Department of Energy 
to construct a geologic repository for high-level waste at 
Yucca Mountain.
    Spent nuclear fuel can be safely and securely transported. 
This conclusion is based on over 35 years of experience with 
spent fuel transportation both here in the United States and 
around the world. It is also based on the application of a 
comprehensive regulatory framework and effective oversight by 
the NRC working in partnership with other agencies such as the 
Department of Transportation.
    Within the United States, there have been over 1,500 
commercial shipments of spent fuel since 1979. All of these 
shipments have occurred without a single package failure or a 
radiological release, thus protecting workers and members of 
the public that live and work along the shipment routes.
    The safety and security of spent nuclear fuel shipments are 
guided by a comprehensive regulatory framework. NRC's primary 
role is in the review and certification of transportation 
package designs. NRC would maintain this role for spent fuel 
transport to the proposed repository. Spent fuel is required to 
be shipped in extremely robust transportation packages that are 
designed and fabricated to withstand both normal transportation 
and hypothetical accident conditions.
    Now, rather than become complacent with the existing safety 
record, the NRC continually examines the transportation program 
to ensure that our standards provide a high level of safety and 
security. The Commission published transportation risk studies 
in 1977, 1987, and again in 2000. These studies indicate that 
the risk of shipping spent nuclear fuel is very low. We are 
currently reexamining the spent nuclear fuel transportation 
risks that are likely to be encountered in potential shipments 
to the proposed repository.
    In 2002, the NRC cosponsored an independent safety 
assessment of spent fuel transport by the National Academy of 
Sciences entitled Going the Distance. The NRC takes this 
study's recommendations very seriously and has addressed them 
in the program.
    NAS recommended that full-scale testing of transport 
packages be used as part of an integrated approach along with 
technical analysis, computer simulation, scale-model, and 
package component testing. The study's recommendations are 
consistent with NRC's plans to perform a full-scale 
demonstration test involving realistic rail transport and fire 
scenarios.
    NAS recommended that the NRC undertake additional analyses 
of transportation accidents involving long-duration, fully 
engulfing fires. The NRC has completed two such studies on the 
performance of representative spent fuel packages in severe 
rail and highway tunnel fires since the NAS made its 
recommendations and these studies confirmed that the spent 
nuclear fuel packages would not be expected to release any 
radioactive materials during the fire even under severe 
accident conditions.
    More studies are underway and will be completed next year 
in 2009.
    Finally, the NAS recommended an independent examination of 
the security of spent fuel and high-level waste transportation. 
In light of the elevated threat that followed the terrorist 
attacks on September 11, 2001, the NRC conducted security 
assessments of transportation which were completed after the 
publication of the NAS report. These assessments evaluated 
transportation package designs against a variety of credible 
land-based and air threats. The results of the security 
assessments demonstrate that the current requirements, combined 
with security enhancements put in place after September 11, 
provide adequate safety and security.
    In late 2009, the NRC intends to issue a proposed rule for 
public comment that would revise the requirements for secure 
transport of spent nuclear fuel, including additional security 
measures found necessary.
    In addition, we believe that security measures for future 
shipments must defend against the threat that exists at the 
time of that shipment and take advantage of enhancements in 
technology which are constantly evolving. If the Yucca Mountain 
repository is approved, any shipments of spent fuel to this 
site would not begin until 2020 at the earliest based on 
current DOE estimates. Therefore, it may be more appropriate to 
conduct such an independent examination closer to the time of 
the actual shipments.
    Although the NRC is responsible for overseeing the security 
of commercial spent fuel shipments to an interim storage 
facility, the Department would be responsible for implementing 
and overseeing the security of Yucca Mountain shipments because 
the Department plans to take title to the commercial spent fuel 
at the nuclear reactor sites. Therefore, any comprehensive 
security assessment would require participation of both the 
Department and the NRC, as well as the resources necessary to 
support such a study.
    In conclusion, spent fuel can be safely and securely 
transported, including potential transportation under the 
existing regulatory framework. This conclusion is supported by 
the outstanding safety and security record for spent fuel 
shipments and numerous safety and security assessments 
conducted by the NRC and others such as the National Academy. 
Nevertheless, NRC staff remains committed in continually 
examining our transportation program to ensure safety and 
security are achieved and that the program remains effective in 
protecting people and the environment.
    I want to thank you for the opportunity to testify before 
you today, and I look forward to answering any questions that 
you may have.
    [The prepared statement of Mr. Weber follows:]

Prepared Statement of Michael Weber, Director, Nuclear Material Safety 
           and Safeguards, U.S. Nuclear Regulatory Commission
Introduction
    Mr. Chairman and Members of the Committee, I am honored to appear 
before you today to testify on behalf of the U.S. Nuclear Regulatory 
Commission (NRC) staff concerning the NRC's role in ensuring the safety 
and security of the potential transportation of spent nuclear fuel, 
including the potential transport to the proposed geological repository 
at Yucca Mountain, Nevada. As you know, the NRC staff has accepted for 
technical review the application from the Department of Energy (DOE) to 
construct a geologic repository for high-level waste at this site.
    Spent nuclear fuel can be safely and securely transported, 
including from its current location at operating and decommissioned 
nuclear power plants to a permanent geologic repository. This 
conclusion is based on over 35 years of experience with spent nuclear 
fuel transportation both here in the U.S. and around the world. It is 
also based on the application of a comprehensive regulatory framework 
and effective oversight by the NRC, the U.S. Department of 
Transportation (DOT), the Department of Energy (DOE), States, and 
Tribal governments. Within the U.S., there have been over 1,500 
commercial shipments of spent fuel from nuclear power reactors since 
1979. All of these shipments have occurred without a single package 
failure or radiological release. This means that there have been no 
radiological releases or injuries to workers or the public who live and 
work along these shipment routes. It is our understanding that the 
transportation safety record also extends to the approximately 30,000 
international spent fuel shipments made primarily by Japanese and 
European companies engaged in the reprocessing of spent fuel.
Regulatory Framework
    The safety and security of spent nuclear fuel shipments are guided 
by a comprehensive regulatory framework that includes the NRC, DOE, 
DOT, the States, and Tribal governments. This regulatory framework is 
informed and closely aligned with the International Atomic Energy 
Agency (IAEA) Transportation Safety Standard to ensure international 
alignment of transportation package performance standards and 
requirements. The NRC's primary role in ensuring the safety and 
security of spent nuclear fuel and high-level waste shipments is the 
review and certification of the package designs that are to be used for 
shipment. NRC would maintain this role for the proposed high-level 
waste repository. Spent fuel is required to be shipped in extremely 
robust transportation packages that are designed and fabricated to 
withstand normal transportation and hypothetical accident conditions. 
The certification process requires a comprehensive technical review by 
the NRC staff of the package's expected performance under hypothetical 
accident conditions. The specific conditions have been derived from and 
are intended to envelope the impact forces and thermal environments 
experienced in severe, ``real world'' accidents. To be certified by the 
NRC, a vendor must demonstrate that a transportation package design 
will prevent the release of radioactive material and the loss of 
radiation shielding when subjected to the hypothetical accident 
conditions.
    For commercial shipments of spent nuclear fuel by NRC licensees, 
the NRC also approves the Quality Assurance (QA) programs that apply to 
the design, fabrication, use and maintenance of transportation packages 
and requires that shipments comply with NRC regulations for the 
physical security of spent fuel in transit (10 CFR Part 73). NRC's QA 
and security regulations do not apply to DOE's shipments to the 
proposed high-level waste repository.
    In general, DOT regulates the transport of all hazardous materials, 
including spent nuclear fuel, and has established regulations for 
shippers and carriers regarding radiological controls, hazard 
communication, training, emergency response, and criteria to determine 
preferred routes for hazardous material shipment. The states and tribal 
governments bear primary responsibility for responding to accidents and 
incidents within their jurisdictions and in many cases the states have 
enacted additional requirements for carrier inspections and escorts. 
For potential shipments to the proposed high-level waste repository at 
Yucca Mountain, the DOE would be responsible for ensuring the security 
of the shipments, because DOE plans to take title to commercial spent 
fuel at nuclear reactor sites. Congress has also directed DOE to abide 
by NRC requirements for providing advance notifications of shipments to 
State and local governments.
NRC's Efforts to Maintain Safety and Security of Spent Nuclear Fuel 
        Transportation
    Rather than be complacent with existing safety performance of 
transportation packages, the NRC continually examines the 
transportation program to ensure that our standards provide a high 
level of safety and security. The Commission published transportation 
risk studies in 1977, 1987, and 2000. These studies indicate that the 
risk of shipping spent nuclear fuel is very low. To supplement previous 
efforts, we are currently re-examining spent nuclear fuel 
transportation risks to account for the spent nuclear fuel, shipping 
cask and shipment characteristics likely to be encountered in potential 
shipments to the proposed geologic repository.
    In 2002, the NRC co-sponsored an independent safety assessment by 
the National Academy of Science's (NAS's) Board on Radioactive Waste 
Management of spent nuclear fuel (SNF) and high-level waste (HLW) 
transportation, entitled Going the Distance which was published in 
February 2006. The NRC takes this study's recommendations very 
seriously and addressed them in our program.
    The principal finding of the NAS study was:

        The Committee could identify no fundamental technical barriers 
        to the safe transport of SNF and HLW in the United States. 
        Transport by highway (for small-quantity shipments), and by 
        rail (for large-quantity shipments) is, from a technical 
        viewpoint, a low-radiological-risk activity, with manageable 
        safety, health, and environmental consequences, when conducted 
        with strict adherence to existing regulations.

    The NAS study recommended that full-scale testing continue to be 
used as part of an integrated approach, along with technical analysis, 
computer simulation, scale-model, and package component testing 
programs, to confirm that transportation packages perform acceptably 
under both regulatory and credible conditions that exceed regulatory 
requirements. The study also concluded that ``deliberate full-scale 
testing of packages to destruction through the application of forces 
that substantially exceed credible accident conditions would be 
marginally informative and is not justified given the considerable cost 
for package acquisitions that such testing would require.'' The study's 
recommendations are consistent with NRC's current plans in the Package 
Performance Study (PPS) to perform a demonstration test involving a 
realistic rail impact and fire scenarios. We believe that the NAS study 
also supports NRC's decision not to test a full-scale transportation 
package to destruction in the PPS. Work on the PPS has been deferred by 
the NRC and DOE until the final transportation cask designs, including 
the transport, aging, and disposal (TAD) canisters, are deployed. We 
are currently working with international counterparts in Japan and 
Germany to learn from their full-scale and model testing to prepare for 
full-scale testing in the U.S.
    NAS recommended that NRC undertake additional analyses of 
transportation accidents involving very long-duration, fully engulfing 
fires to determine whether there is a need for regulatory change or 
additional operational controls during spent nuclear fuel shipments. 
The NRC has completed two studies on the performance of representative 
spent nuclear fuel packages in severe rail and highway tunnel fires: 
``Spent Fuel Transportation Package Response to the Baltimore Tunnel 
Fire Scenario,'' NUREG/CR-6886 (published December 2006), and ``Spent 
Fuel Transportation Package Response to the Caldecott Tunnel Fire 
Scenario,'' NUREG/CR-6894 (published February 2007). These studies 
confirmed that the spent nuclear fuel packages would not be expected to 
release any radioactive material from the spent fuel, even under these 
severe accident conditions.
    Through this work, the NRC identified an additional operating 
control for rail shipments that could be implemented to prevent or 
mitigate the consequences of long-duration fires: to prohibit a train 
carrying flammable gases or liquids from being in a tunnel at the same 
time as a train carrying spent nuclear fuel. Because the NRC does not 
have regulatory authority over rail carriers, we requested in March 
2006, that the Association of American Railroads (AAR) consider 
revising AAR Circular No. OT-55, Recommended Railroad Operating 
Practices For Transportation of Hazardous Materials. As a result, the 
AAR did issue a revision in July 2006 (AAR Circular No. OT-55, Revision 
I) which states ``. . . when a train carrying SNF or HLW meets another 
train carrying loaded tank cars of flammable gas, flammable liquids or 
combustible liquids in a single bore double track tunnel, one train 
shall stop outside the tunnel until the other train is completely 
through the tunnel.''
    Finally, the NAS study also recommended that, ``. . . an 
independent examination of the security of spent fuel and high-level 
waste transportation should be carried out prior to the commencement of 
large-quantity shipments to a Federal repository or to interim 
storage.'' In light of the elevated threat that the U.S. experienced 
following the terrorist attacks on September 11, 2001, the NRC issued 
safeguards advisories and orders to enhance transportation security of 
spent nuclear fuel and other large quantities of radioactive material. 
The NRC issued these security enhancements in coordination with DOT, 
the Department of Homeland Security, State agencies, and other Federal 
agencies. The NRC security assessments of transportation, which were 
completed after the publication of the NAS report, evaluated a number 
of representative transportation package designs against a variety of 
credible land-based threats and a deliberate plane crash. The results 
of these security assessments, which we have shared with DOT, DOE, and 
other organizations that have a ``need to know,'' demonstrate that the 
current requirements, combined with the security enhancements put in 
place after September 11th, provide adequate protection of public 
health and safety, and the environment, and common defense and 
security. These safeguards advisories and orders are only an interim 
solution and will not be relied on indefinitely. In late 2009, the NRC 
intends to issue a proposed rule for public comment that would revise 
the requirements for secure transport of spent nuclear fuel. The 
proposed rule would include additional measures to address the current 
threat environment.
    In addition, we believe that the security measures for future 
shipments must defend against the threat that exists at the time of 
shipment and take advantage of enhancements in technology, such as 
shipment tracking and monitoring techniques, which are constantly 
evolving. If the Yucca Mountain repository is approved, any shipments 
of spent nuclear fuel to this site would not begin until 2020 at the 
earliest, based on current DOE estimates. Therefore, it may be more 
appropriate to conduct an independent examination of shipment security 
closer to the time of actual shipments, if needed.
    While the NRC is responsible for overseeing the security 
requirements for commercial shipments to an interim storage facility, 
DOE would be responsible for implementing and overseeing the security 
requirements for Yucca Mountain shipments. Therefore, a comprehensive 
independent security assessment that encompasses both potential 
shipments to Yucca Mountain or to an interim storage site would require 
the participation of both NRC and DOE as well as resources to support 
such a study.
    In an effort to further inform our program, the NRC is also 
examining two recent transportation accidents involving severe highway 
fires. One is the MacArthur Maze (Interstate I-880) accident in 
Oakland, California that occurred on April 29, 2007, in which a 
gasoline tanker truck with a capacity of 32,500 liters (8,600 gallons) 
of gasoline crashed and overturned on an interstate highway. The 
resulting fire was intense enough to cause the collapse of a highway 
overpass located above the overturned tanker truck. The second accident 
being studied occurred on October 12, 2007, within the southbound 
``truck only'' bypass tunnel at the I-5/14 interchange in northern Los 
Angeles County (Newhall Pass). In this accident, multiple commercial 
trucks were involved in a severe fire occurring in a short, well-
ventilated tunnel. We expect the results of these studies to be 
published in early 2009.
Summary
    In conclusion, spent nuclear fuel can be safely and securely 
transported from its current location at operating and decommissioned 
nuclear power plants, including potentially to a permanent geologic 
repository, under the existing regulatory framework. This conclusion is 
supported by the outstanding safety record for spent nuclear fuel 
shipments to date and numerous safety and security assessments 
conducted by the NRC, the NAS, and other agencies. Nevertheless, the 
NRC staff is committed to continually examining our transportation 
safety and security program to ensure that it remains effective in 
protecting people and the environment.
    Thank you for the opportunity to discuss NRC's transportation 
safety and security program for spent nuclear fuel. I look forward to 
answering any questions you may have.

    The Chairman. I thank you very much, Director Weber.
    And now may I call upon Director Pritchard?

          STATEMENT OF EDWARD W. PRITCHARD, DIRECTOR,

           OFFICE OF SAFETY ASSURANCE AND COMPLIANCE,

                FEDERAL RAILROAD ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Pritchard. Good afternoon, Mr. Chairman and Senator 
Ensign and Members of the Committee. Thank you for the 
opportunity to appear today on behalf of the Secretary of 
Transportation, Mary Peters, and the Administrator of the 
Federal Railroad Administration, Joseph Boardman. I am Edward 
Pritchard, Director of FRA's Office of Safety Assurance and 
Compliance.
    Part of FRA's role in protecting the American public from 
the risk inherent in rail transportation includes promoting the 
safe and secure transportation of spent nuclear fuel. With the 
Department of Energy's decision that 80 percent or more of the 
nuclear materials to be stored at Yucca Mountain should be 
transported there by rail, it is important to consider the 
safety and security of these new shipments during rail 
transportation. FRA's role is important in this regard and we 
are up to the challenge.
    FRA has been hard at work to assure the safe transportation 
of radioactive materials since the formation of the U.S. 
Department of Transportation. We formalized our program for 
these shipments in the late 1980s and we are taking steps to 
ensure the continued safety of such shipments as they move 
through the Nation's rail transportation system. We do this in 
two main ways, giving technical assistance to other agencies 
and carrying out our comprehensive safety enforcement and 
rulemaking program.
    First, we provide technical expertise and assistance to 
other agencies. We actively work with our partner agencies, 
including the Department of Energy, the Nuclear Regulatory 
Commission, and the Pipeline and Hazardous Materials Safety 
Administration, and the Transportation Security Administration. 
Our cooperative efforts with DOE include all rail-related 
aspects before the plan moves to Yucca Mountain. This 
cooperation includes vigorously participating in their external 
stakeholder working groups and contributing technical and 
operational expertise regarding the rail operating environment, 
mechanical equipment requirements, and track construction and 
maintenance.
    I am proud to say that the same degree of coordination 
exists throughout the various modal administrations within the 
DOT, as well as with the NRC and TSA, in regard to issues, 
concerns involving the security of rail movements and routing, 
package integrity and securement in the rail operating 
environment. These relationships are strong, and together our 
work is progressing to ensure that any shipment of spent 
nuclear fuel transported to the Yucca Mountain repository by 
rail is conducted in a way that assures not only the safety and 
security of these tasks with transporting the shipment, but 
also the safety and security of the American public as a whole.
    Second, FRA provides technical and regulatory oversight to 
ensure that the rolling equipment and railroad infrastructure 
used for the movements are safe. FRA's efforts are focused on 
ensuring the rail cars that will move the casks of spent 
nuclear fuel are the safest possible and utilize the most 
advanced technology. We have developed and instituted a 
comprehensive safety enforcement program that ensures that the 
tracks and other rail infrastructures conform with the 
extensive body of Federal railroad safety regulations.
    We are working with our sister agency, PHMSA, to implement 
PHMSA's new routing regulations that require rail carriers to 
analyze potential routes for transporting these shipments and 
to select the most safe and secure routes.
    But these efforts are not the only ways in which FRA works 
to advance rail safety. FRA and the administration are strong 
supporters of positive train control technology, are active 
advocates for the continued development of positive train 
control, and we share the desire of the National Transportation 
Safety Board and Congress to see that the positive train 
control becomes a reality on more railroads.
    I appreciate the opportunity to discuss FRA's program to 
assure the safe and secure transportation of spent nuclear fuel 
by rail. Thank you. I will be pleased to answer any questions 
you may have.
    The Chairman. Thank you very much, Director Pritchard.
    And may now I call upon Associate Administrator, Mr. 
Willke?

      STATEMENT OF DR. THEODORE ``TED'' WILLKE, ASSOCIATE

           ADMINISTRATOR, HAZARDOUS MATERIALS SAFETY,

            PIPELINE AND HAZARDOUS MATERIALS SAFETY

       ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Dr. Willke. Good afternoon, Mr. Chairman and Senator 
Ensign. I am Ted Willke, Associate Administrator for Hazardous 
Materials Safety, Pipeline and Hazardous Materials Safety 
Administration, PHMSA, the U.S. Department of Transportation. 
Thank you for the opportunity to appear today to briefly 
discuss PHMSA's role in the safe and secure transportation of 
spent nuclear fuel and high-level radioactive waste to the 
proposed geological repository at Yucca Mountain, Nevada.
    For some 50 years, some 1,500 domestic shipments of spent 
nuclear fuel have been transported within the United States 
with a solid safety record. It is our firm belief that this 
fuel can be safely and securely transported from its current 
location at operating and decommissioned nuclear power reactors 
to a permanent repository. Our confidence is based on the 
application of a comprehensive regulatory framework that 
includes DOT, the Nuclear Regulatory Commission, the Department 
of Energy, the Department of Homeland Security, and State and 
tribal governments. We have a commitment to continually 
reexamine the transportation program to ensure that the current 
level of safety and security is maintained.
    Under the Nuclear Waste Policy Act of 1982, the Department 
of Energy has primary responsibility to plan for and arrange 
the transportation for spent nuclear fuel to a geological 
repository. The act requires all transportation to be conducted 
in accordance with the transportation regulations issued by DOT 
in transport casks approved by the Nuclear Regulatory 
Commission.
    Within the Department of Transportation, several agencies 
are involved in regulating the transportation of spent nuclear 
fuel. PHMSA maintains a national program designed to protect 
life, property, and the environment from risks inherent in the 
transportation of hazardous materials in commerce, including 
spent nuclear fuel and high-level radioactive waste. To carry 
out this role, PHMSA identifies and evaluates safety risks, 
develops and enforces standards for transporting hazardous 
materials, educates shippers and carriers, investigates 
transport and packaging incidents and failures, conducts 
research, and awards grants to improve emergency response to 
incidents.
    PHMSA's regulations, issued under the Federal hazardous 
materials transportation safety laws, establish commodity-
specific standards for the classification, packaging, marking, 
labeling, and documentation of hazardous material shipments by 
rail, highway, vessel, and air. PHMSA's hazardous regulations 
also prescribe standards for the loading and unloading of 
transport conveyances, training of transportation employees, 
and the security of hazardous materials in transportation.
    While PHMSA is proud of its contributions to the safe 
transportation of spent nuclear fuel, the true strength of this 
program lies in the shared responsibility and cooperation 
between our Federal, State, and local partners. Within the 
Department of Transportation, responsibility for enforcement of 
the hazardous material regulations is shared with the Federal 
Railroad Administration and the Federal Motor Carrier Safety 
Administration. We also share enforcement responsibilities with 
the United States Coast Guard and State law enforcement 
officials. For all radioactive shipments, particularly spent 
nuclear fuel, PHMSA works closely with the Nuclear Regulatory 
Commission to ensure consistent and uniform packaging and 
transport regulations.
    Because our State partners have the primary responsibility 
for responding to accidents and incidents within their 
jurisdiction, PHMSA will continue to support effective training 
to prepare first responders for a possible transportation 
accident or incident involving spent nuclear fuel through their 
jurisdictions and that will include financial assistance to 
states and localities for emergency response, planning and 
training. PHMSA will continue to coordinate with local 
responders and ensure that they receive the advance shipment 
notifications and general hazard communications they need to 
respond to transport incidents.
    As planning for the repository progresses, PHMSA will 
continue to work with the Congress, the nuclear industry, the 
transport community, and appropriate Federal, State, tribal 
governments, and local agencies to review and improve existing 
safety standards, promote the development of risk-reducing 
technologies, strengthen the preparation of emergency 
responders and otherwise enhance the system of safety controls 
for spent nuclear fuel transportation. With continued 
vigilance, PHMSA is committed to maintaining the strong record 
of safety and security.
    I appreciate the opportunity to discuss PHMSA's 
transportation safety and security program. I would be pleased 
to answer any questions.
    [The prepared statement of Mr. Pritchard and Dr. Willke 
follow:]

  Written Statement of Ted Willke, Associate Administrator, Hazardous 
       Materials Safety, Pipeline and Hazardous Materials Safety 
   Administration; and Edward Pritchard, Director, Office of Safety 
      Assurance and Compliance, Federal Railroad Administration, 
                   U.S. Department of Transportation
Introduction
    Chairman Inouye, Ranking Member Hutchison, and Members of the 
Committee, we want to thank you for the opportunity to appear today on 
behalf of the Department of Transportation (DOT). We are pleased to 
discuss DOT's role in the safe and secure transportation of spent 
nuclear fuel (SNF) and high-level radioactive waste (HLRW) to the 
proposed geological repository at Yucca Mountain, Nevada.
The Safety Record
    SNF and HLRW have been transported within the United States for 
more than 50 years, with a solid record of safety and security. More 
than 1,500 shipments of commercial SNF from nuclear power reactors have 
moved by road and rail without a single incident resulting in an 
injury, death, or release of the material from the packaging. Likewise, 
numerous military shipments of SNF; thousands of non-commercial spent 
fuel and HLRW shipments by the Department of Energy (DOE); and 
approximately 30,000 international shipments of SNF have occurred 
without serious incident.
Regulatory Roles
    Under the Nuclear Waste Policy Act of 1982, DOE has primary 
responsibility to plan for and arrange the transportation of SNF to a 
geological repository. The Nuclear Regulatory Commission (NRC) is 
responsible for licensing the geological repository and whatever 
interim facilities may be needed. Transportation will be conducted, in 
accordance with hazardous materials transport regulations issued by 
DOT, in transport casks approved by the NRC. States will bear primary 
responsibility for responding to accidents and incidents within their 
jurisdictions and in many cases have enacted additional requirements 
for carrier inspections and escorts. DOE, DOT, and the Federal 
Emergency Management Agency have provided grants, courses, and course 
materials for emergency responder training and preparedness related to 
this transportation. Because DOE plans to take title to the SNF at 
nuclear reactor sites, that department will be responsible for ensuring 
the security of the shipments.
DOT Role in Promoting Transportation Safety
    Within DOT, several agencies are involved in overseeing the 
transportation of SNF. The Pipeline and Hazardous Materials Safety 
Administration (PHMSA) administers a national program designed to 
protect life, property, and the environment from risks inherent in the 
transportation of hazardous materials, including SNF, in intrastate and 
interstate commerce. To these ends, PHMSA identifies and evaluates 
safety risks; develops and enforces standards for transporting 
hazardous materials; educates shippers and carriers; investigates 
transport and packaging incidents and failures; conducts research; and 
awards grants to improve emergency response to incidents. PHMSA 
regulations, issued under the Federal hazardous materials 
transportation safety laws (49 U.S.C. ch. 51), establish commodity-
specific standards for the classification, packaging, marking, 
labeling, and documentation of hazardous materials shipments by rail, 
highway, vessel, and air. PHMSA's Hazardous Materials Regulations (HMR) 
also prescribe standards for the loading and unloading of transport 
conveyances; training of transportation employees; and security of 
hazardous materials in transportation.
    PHMSA shares responsibility for enforcement of the HMR with the 
Federal Railroad Administration (FRA), the Federal Motor Carrier Safety 
Administration (FMCSA), the United States Coast Guard, the Federal 
Aviation Administration, and state law enforcement officials.
    For shipments of SNF, PHMSA also works closely with the NRC. 
PHMSA's regulations incorporate rigorous packaging standards that are 
developed and overseen by the NRC. Pursuant to a 1979 Memorandum of 
Understanding, with PHMSA, the NRC has lead regulatory responsibility 
for the review and certification of the shipping casks used to 
transport SNF. These casks are performance-tested to assure they can 
survive ``hypothetical'' accident scenarios. The tests, which include 
impact, puncture, thermal and immersion testing, also assure that the 
casks provide excellent radiation protection to transportation workers 
who load, unload, or carry SNF and to any member of the general public 
who may come into proximity with a shipment of nuclear material during 
its movement in transportation. Because the time that it takes to move 
a shipment from origin to destination directly affects radiation 
exposure, the NRC requires that shipments of SNF be planned to avoid 
intermediate stops to the extent practicable. PHMSA's regulations also 
prohibit unnecessary delay in the transportation of hazardous 
materials.
    FRA enforces the HMR applicable to rail shipments as part of a 
national safety program covering all aspects of railroad operations. 
FRA regulations issued under the Federal railroad safety laws (49 
U.S.C. ch. 201-213) govern the design, maintenance, and inspection of 
track, equipment, signals, and train control systems and prescribe 
standards for employee qualifications, training, and operating 
practices. FRA also advises PHMSA on rulemakings involving the rail 
transportation of hazardous material and enforces the HMR in the rail 
mode. Railroads are required to conduct their own inspections to ensure 
that these safety standards are being met. Approximately 500 Federal 
and State safety inspectors monitor the railroad companies' own 
inspection forces to verify compliance with applicable Federal safety 
standards. FRA and State inspectors accomplish this task by conducting 
routine inspections and programmed focused inspections of railroad 
properties and comparing their findings to a railroad's own inspection 
records, as well as conducting compliance investigations. Thus, while 
primary responsibility for inspecting the railroad property and 
operations rests with the railroads themselves, FRA's inspection 
strategy is to ensure the integrity and effectiveness of the railroads' 
own inspection programs in complying with applicable Federal safety 
regulations and standards. In the case of SNF shipments, as set forth 
in the following section, FRA and rail carriers have taken a number of 
actions to further strengthen safety and security controls.
    Although rail will be the primary mode of transportation for SNF 
shipments to the repository, some motor carrier movements also will be 
necessary. In addition to the HMR, these movements will in accordance 
with FMCSA regulations governing vehicle condition, driver safety, and 
security. Under FMCSA's regulations, a motor carrier transporting SNF 
must hold a safety permit issued by FMCSA, and a pre-trip inspection of 
the shipment must be performed by an authorized State or Federal law 
enforcement official. In addition, states may designate preferred 
routes for highway shipments of SNF, in accordance with FMCSA's 
regulations. Preferred routes are interstate highways and alternate 
routes designated by a State routing agency. An interstate bypass or 
beltway around a city, when available, must be used rather than an 
interstate route through a city. Under these regulations, a State or 
locality may not designate (or restrict the use of) routes that 
``export'' transportation risks to a neighboring jurisdiction or 
unnecessarily delay the transportation of hazardous materials.
Emergency Response
    Effective response to a transportation accident or incident 
involving SNF is enhanced through Federal requirements and resources, 
including financial assistance to states and localities for emergency 
response planning and training. DOE maintains regional emergency 
management field offices that can dispatch qualified response teams to 
an incident involving nuclear material, but first responders are 
primarily local fire departments and law enforcement agencies. (In the 
event of a radiation emergency, emergency response is typically handled 
by the appropriate state radiation control agency and first responders 
are trained to stay clear and call the state radiation control 
officer.) PHMSA's hazard communication requirements (shipping papers, 
package marking and labeling, and vehicle placarding) inform these 
responders of the hazards involved. For shipments of SNF, coordination 
with local responders is also enhanced by the NRC's physical protection 
requirements that provide for advance notification to the State 
Governor (or his representative) of each shipment to or through the 
state and advance arrangements with local law enforcement agencies for 
response to an emergency or a call by escorts for assistance. Local 
emergency response capabilities are strengthened by PHMSA's planning 
and training grants to States, who in turn pass at least 75 percent of 
the grants through to local communities.
Rail Transportation of Radioactive Materials
    With regard to rail transportation of SNF and HLRW in particular, 
FRA conducts inspections to verify that shipments are properly prepared 
for rail transportation and in compliance with all applicable 
provisions of the HMR. FRA also helps to ensure that the track, signal 
systems, grade crossings, bridges, and rail vehicles used for these 
shipments are in safe condition and that responsible railroad employees 
involved in these movements are trained, briefed, and properly 
performing their jobs. In these activities, FRA works very closely with 
the railroads, their employees, and the affected communities. 
Ultimately, the safe movement of SNF and HLRW depends on the 
application of sound safety regulations, policies, and procedures. This 
requires extensive planning and coordination among Federal agencies, 
State and local governments, and commercial transportation companies.
    Since the mid-1980s, FRA has implemented a basic focused inspection 
policy for all known rail shipments of SNF and HLRW. In 1998, with the 
advent of a significant potential for increased SNF and HLRW by rail, 
FRA recognized the need to enhance the existing policy to ensure that 
the railroad industry's outstanding safety record for nuclear material 
shipments could continue unabated. This updated policy, the Safety 
Compliance Oversight Plan for Rail Transportation of High-Level 
Radioactive Waste and Spent Nuclear Fuel, known as SCOP, set forth an 
enhanced FRA policy to address the safety of rail shipments of SNF and 
HLRW. FRA applies this enhanced policy to ensure the safety of all 
known rail shipments of SNF and HLRW. The SCOP is a ``living document'' 
periodically requiring modification and update as needed based on new 
regulations, technologies, and procedures.
    The development of the SCOP involved a coordinated effort among 
FRA, DOE, the Association of American Railroads (AAR), railroad labor 
organizations, and representatives of affected states and Native 
American groups, and FRA acknowledges the invaluable contribution of 
each of them. Key elements of the SCOP include the following: (1) 
coordinated planning for selecting the most appropriate and viable 
routes, (2) ensuring appropriate training of railroad employees and 
emergency responders, and (3) enhancing and focusing FRA's safety 
inspections and monitoring activities on all facets of the rail 
shipments of SNF and HLRW.
    Under current route-selection requirements, FRA works with DOE, 
utility companies, or other shippers, and the involved railroad 
companies in planning and selecting the routes, emphasizing the 
selection of the highest classes of track. (Under FRA's regulations, 
each higher class of track has a greater permissible operating speed 
and more stringent safety standards.) Additional requirements for 
selecting the safest and most secure routes for transporting SNF and 
other high-hazards materials were also adopted in PHMSA's interim final 
rule, ``Enhancing Rail Transportation Safety and Security for Hazardous 
Materials Shipments,'' published on April 16, 2008. Under these 
requirements, a rail carrier must analyze the routes over which these 
materials may be transported and, based on that analysis, select the 
safest and most secure route to be used. The Transportation Security 
Administration (TSA) is also engaged in a rulemaking that includes 
proposals to enhance the security of rail shipments of certain 
hazardous materials, including SNF, by requiring carriers to designate 
a security coordinator, report security concerns to TSA, establish a 
chain of custody for shipments, and advise TSA of the location and 
other specific information regarding shipments within 1 hour of a 
request from TSA.
    FRA also coordinates with Operation Lifesaver, Inc., a private 
safety organization, to increase grade crossing safety awareness and 
education in communities along routes. FRA works with appropriate 
agencies of the Department of Homeland Security, the NRC, and DOT's 
Office of Intelligence and Security in identifying security issues and 
measures. FRA assists with coordination among the shipper, Federal and 
local law enforcement representatives, and intelligence communities on 
security matters. Finally, FRA reviews the security and emergency 
response plans of the shipper and the rail carrier to ensure that they 
adequately address the transportation security risks and the actions to 
be taken along the route in the unlikely event of an accident or 
incident.
    Another important element of the SCOP is training. It is FRA's 
policy to assist DOE and other shippers in the development of emergency 
response training and safety briefings and to monitor the rail carrier 
and the shipper to verify that requisite training and briefings have 
been performed. FRA also conducts reviews to ensure that train crews 
who operate the trains in which nuclear materials are transported are 
properly certified, trained, and experienced in running over the 
routes. Finally, FRA checks to see that these crews have received 
specific training concerning the nature of the shipments.
    Federal regulations for shipment of nuclear material by rail are 
augmented by a series of safety and security protocols and special 
operating restrictions that have been agreed upon by DOE and the 
railroads. These protocols and operating restrictions, AAR Circular OT-
55-I, Recommended Railroad Operating Practices for Transportation of 
Hazardous Materials and AAR Standard S-2043, Performance Specification 
for Trains Used to Carry High-Level Radioactive Material, for example, 
have evolved over the years and are often tailored to the particular 
needs of these types of shipments. Under these protocols, a train 
carrying SNF or HLRW would typically include the cask cars, at least 
two buffer cars, and an escort car. One buffer car is before and one is 
after the cask cars; the buffer cars are required by regulation and not 
only provide separation from the occupied locomotive and from the 
escort car but also act as a cushion against direct impacts on the cask 
cars in the event of a collision. The escort car would be staffed with 
appropriate nuclear safety and security personnel. Special operating 
restrictions have included limitations on the maximum speed of trains 
carrying nuclear materials, requirements to stop opposing trains on 
adjacent tracks when they meet a train carrying nuclear materials, and 
requirements that cars carrying nuclear material be switched only with 
an attached locomotive rather than allowing them to roll to a stop on 
their own during switching.
    Another convention involving the shipment of SNF and HLRW by rail 
concerns the use of dedicated trains. Until the mid-1970s, most rail 
shipments of these radioactive materials were handled in regular 
service trains that carried a wide variety of other freight in addition 
to radioactive materials. However, in 1974, the railroad industry 
adopted a strong position that radioactive materials shipments should 
move in dedicated trains that transport only the radioactive material. 
Under a congressional mandate, FRA engaged the services of the John A. 
Volpe National Transportation Systems Center to conduct a thorough 
study of the safety implications surrounding the transportation of SNF 
and HLRW in dedicated trains versus regular service trains. In 
September 2005, FRA transmitted its March 2005 report containing the 
study's results to the Congress, ``Use of Dedicated Trains for 
Transportation of High-Level Radioactive Waste and Spent Nuclear 
Fuel.'' The report concluded that dedicated train service offers the 
lowest accident probability and can reduce radiation exposure in the 
event of an accident by mitigating the consequences and simplifying 
wreck clearance. The report also stated that additional research is 
needed to fully assess the costs and risks of transporting SNF. The 
Department is conducting additional research to assess conditions for 
the transportation of SNF and expects to issue a responsive notice of 
proposed rulemaking in Fiscal Year 2009.
    The security of rail shipments of radioactive materials has long 
been a priority even before the tragic events of September 11. Some of 
the protocols described above contain stringent security measures to 
protect against terrorist threats, including the accompaniment of these 
shipments by armed security forces, direct liaison with State and local 
law enforcement and first responders, and requirements to protect the 
cars when sitting in rail yards or sidings.
Conclusion
    Through its comprehensive safety programs, and key partnerships 
with other Federal, State, and local authorities, DOT is prepared for 
the additional shipments of high-level radioactive materials associated 
with the opening of a proposed new geological repository for SNF. As 
planning for the repository progresses, DOT will continue to work with 
the Congress, the nuclear industry, the transport community, and 
appropriate Federal, State, and local agencies to review and improve 
existing safety standards; promote the development of new risk-reducing 
technologies; strengthen the preparation of emergency responders; and 
otherwise enhance the system of safety controls for SNF and HLRW 
transportation. With continued vigilance, DOT is committed to 
maintaining the strong record of safety and security established over 
the last 50 years.
    We appreciate the opportunity to discuss DOT's transportation 
safety and security program for SNF. Thank you. We would be pleased to 
answer any questions you may have.

    The Chairman. I thank you very much, Secretary Willke.
    Circumstances require my absence here. I have another 
assignment, and the chair will be relinquished to Senator 
Ensign. But before I go, I would like to thank all of you for 
participating in this hearing.
    I would like to just note something. I know that all of you 
have testified that the transport of hazardous material, 
especially spent fuel, is safe under the present technology. 
But yet, you have noted that there have been accidents but no 
leakage. And one of the witnesses compared spent fuel with 
chlorine. But I recall that chlorine is poisonous, but I do not 
think it lasts for a thousand years. On the other hand, spent 
radioactive fuel as a dangerous element in that would live for 
thousands of years. And if you can get into an accident, some 
day it may leak. So I just want to make that notation.
    Mr. Chairman?
    Senator Ensign [presiding]. Thank you, Mr. Chairman. I just 
have a few questions for the panel.
    Mr. Sproat, if you could answer the question on 
transportation timing. When is the earliest that DOE could--not 
when you expect when they will but when is the earliest that 
you actually could start shipping waste to Yucca Mountain?
    Mr. Sproat. Senator, in order for us to be able to accept 
the nuclear waste and begin shipment, we would need a license 
from the Nuclear Regulatory Commission to receive and possess 
that nuclear fuel whether it is at Yucca Mountain or some other 
interim storage site. The earliest, if everything went right 
and the funding was not an issue, which we both know is an 
issue with Yucca, that could be would be 2020. How long the 
licensing proceeding is going to last, what the outcome of the 
licensing proceeding is going to be remains to be seen, but the 
earliest would be 2020. So really it is 12 years in the future.
    Senator Ensign. You could not ship it earlier?
    Mr. Sproat. No, Senator, we cannot because we need that 
license to receive and possess, to be able to take it. And not 
only the license from the Nuclear Regulatory Commission, but by 
the Nuclear Waste Policy Act, the repository needs to have a 
license to operate in order for us to accept the fuel and take 
title to it by the Nuclear Waste Policy Act.
    Senator Ensign. I thought that DOE was going to accept 
title to the waste beforehand while it was still at the sites.
    Mr. Sproat. As of right now, we are not able to do that.
    Senator Ensign. Does there have to be a change in the law 
for you to do that?
    Mr. Sproat. Yes, sir.
    Senator Ensign. It was mentioned 9/11, and Mr. Weber, I 
think you were the one who kind of mentioned 9/11. That day 
when we were watching those buildings go down and a lot of 
engineers around the country were watching those buildings go 
down and certainly people who had designed those buildings 
never--you know, they thought about earthquakes. They thought 
about a lot of things, but when people were watching those 
things, very few people I think understood that those buildings 
could actually collapse.
    Have those types of extreme circumstances--you know, the 
fire was much more intense where it melted the metal. Have 
those kind of extreme circumstances been taken into account? 
For instance, you mentioned air attacks. Have those kind of 
really extreme circumstances, however unlikely, still possible, 
been taken into account studying the potential casks and being 
able to transport these containers?
    Mr. Weber. Yes, sir, they have. 9/11--that night I spent in 
our emergency operations center. So I watched the replay of the 
video over and over and over again.
    But it is important to point out that security is not 
something that we discovered after 9/11. We have been putting 
these packages through their paces well before 9/11. When NRC 
was created, safeguards and security was a big deal with the 
American public, and that is why my office, in part, was 
created. So well before 9/11, we have been conducting 
destructive experiments. We have been doing computer 
simulations. We have been doing modeling.
    Senator Ensign. Have you done actually--instead of just 
computer modeling, have you done actual to where you have 
gotten the temperatures up for potential--what we just talked 
about, a plane crash coming in, jet fuel burning, train crashes 
where you can have some different types of fuels burning at 
extreme temperatures for long periods of time? Have you 
actually done that not just with computer models, but with 
life-sized models of what the transportation containers would 
be?
    Mr. Weber. Not for the spent fuel containers, the packages 
that are currently being planned for use. We have done it for 
other type B packages and it has been tested overseas by other 
countries. Germany, for example, has done full-scale testing.
    One of our standard tests that the packages have to 
withstand a test involving a pool of aviation fuel that is 
burned for a prolonged period of time, and the package has to 
withstand that kind of extreme test in order to meet our 
requirements.
    Senator Ensign. If you could give me just a documentation 
on what those temperatures reach, the type of materials, and 
how long they were required to do that for the record, I would 
very much appreciate that.
    Mr. Weber. If I could, Senator, this requirement that is in 
our regulations is for 1475 degrees Fahrenheit for at least 30 
minutes. That is our standard fire test that the package has to 
withstand.
    Now, since then we have been proactive----
    Senator Ensign. I was going go to say some of these fires 
are going to last a lot longer than 30 minutes.
    Mr. Weber. Oh, yes. And since then we have been proactive 
in reaching out around the country, as we see additional 
extreme accidents not involving radioactive material, but we 
use those incidents to understand the physics, the mechanics, 
what actually occurs because our objective is to reconfirm the 
safety of the transportation packages.
    Senator Ensign. You mentioned Germany. Has Germany done 
those--you said they have done those studies. Have theirs just 
been for 30-minute fires? You said they have done full-scale. 
Can you get the information on what Germany's studies have 
shown so that we can see the parameters?
    Mr. Weber. Certainly.
    Senator Ensign. OK. I appreciate that and we will do that 
for the record as well.
    [The information referred to is retained in Committee 
files.]
    Senator Ensign. Mr. Willke, if you could answer, how 
prepared are states today to deal with the thousands of rail 
and truck shipments of nuclear waste? How prepared are the 
states today? And what additional steps must be taken to make 
sure that their first responders, their emergency responders, 
are prepared to deal with a potential accident involving a 
radioactive release?
    Dr. Willke. Senator, that is a difficult question because 
of the 1.2 million fire fighters in this country who do the 
primary response to accidents for hazardous materials, about 
800,000 are volunteers, and many of these folks will go through 
their entire career without ever seeing a hazardous material 
accident.
    We do our best to provide training for emergency 
responders, to fire fighters. We provide grants to states and 
tribal governments to allow for community planning for 
hazardous material accidents and to do training of their local 
fire fighters. We also work with every fire service 
organization, national organization, to provide training for 
fire fighters. We work closely with our multiple partners.
    But it is also true it is very difficult to plan for the 
full range of hazardous material incidents that could occur, 
and we are lucky that we have not seen an incident that 
required that kind of response in the transportation of spent 
nuclear fuel.
    Senator Ensign. As part of the transportation to a 
facility, are we requiring states to have certain types--at 
least certain teams trained to be able to respond? And if so, 
where is that training?
    Dr. Willke. I cannot speak for the training that might be 
required.
    Senator Ensign. I guess, should it be? In your opinion, 
should it be required?
    Dr. Willke. There should be planning for hazardous 
materials incidents. We believe that all fire fighters should 
receive that kind of training. We are doing everything that we 
can to get----
    Senator Ensign. Should it be specific to nuclear materials?
    Dr. Willke. To the extent that materials are flowing 
through those communities, yes, Senator, I believe that there 
should be training.
    Mr. Sproat. Senator, if I can just add.
    Senator Ensign. Yes.
    Mr. Sproat. Under the Nuclear Waste Policy Act, there is a 
section called 180(c) which requires the Federal Government to 
provide grants to State, local, county governments and first 
responders, including Indian tribes, specifically to provide 
the training for responding to radiological accidents during 
the transportation campaign.
    Senator Ensign. Do you know when that is going to happen?
    Mr. Sproat. Well, as a matter of fact, we just recently put 
out--yes, we are about revise and put out a Federal Register 
notice on the process for applying for the 180(c) grants. And 
we have laid out a schedule of when that is to start based on 
the 2020 start of shipment date, and that training would start 
a minimum of, I believe, 6 years--5 years prior to the start of 
the first shipment. So that is in our overall game plan, but we 
are talking about----
    Senator Ensign. Is there going to be some kind of 
certification process? In other words, OK, you provide a grant, 
you provide some training, how do we know that they are 
adequately trained? Is there some kind of a measuring process? 
I think that most police forces, most fire fighters are trained 
to meet a certain standard and they are certified at the end of 
it. Is there going to be a certification process that, yes, 
this fire fighter has been certified, this first responder has 
been certified to be able to respond to a potential nuclear 
accident like this?
    Mr. Sproat. I am not sure whether or not there will be a--
--
    Senator Ensign. Can you get that answer for me for the 
record?
    Mr. Sproat. Can I take that question for the record, 
please?
    [The information referred to follows:]

    The local emergency response employer is the entity that will 
determine the appropriate level of training for their local responders 
and will determine the certifying process. While the Department of 
Energy will provide funding for training, State and Tribal governments 
will have flexibility to decide those activities for which they will 
request financial assistance under Section 180(c) of the Nuclear Waste 
Policy Act.

    Senator Ensign. Please do.
    I want to ask my colleague if he has any questions for this 
panel.

              STATEMENT OF HON. THOMAS R. CARPER, 
                   U.S. SENATOR FROM DELAWARE

    Senator Carper. Thank you, sir. Is it Mr. Chairman?
    Senator Ensign. It is right now.
    [Laughter.]
    Senator Carper. I know you are Mr. Chairman in one regard. 
I was not sure if you had taken over fiefdoms or not.
    Senator Ensign. You can have that other Mr. Chairman job if 
you want it.
    [Laughter.]
    Senator Carper. I think the people in your caucus would 
think it is strange for me to become their Chairman. Well, I am 
a bipartisan guy, but that is probably stretching it a little 
bit.
    To our panel, thank you for joining us today. I just have 
one or two short questions, if I could.
    The safe transportation of spent nuclear fuel depends on 
the interaction between a number of folks, but particularly the 
three agencies that we have here today, DOE, and the Department 
of Transportation, and the Nuclear Regulatory Commission. You 
may have already discussed this before I got here, but just 
give me an idea how your agencies are interacting with one 
another.
    Mr. Sproat. If I can take a first cut at that, Senator, the 
relationship between the Department of Energy and DOT and NRC 
in the transportation realm--essentially the Department of 
Transportation has responsibility for setting the regulations 
for the safe transport on the rails and highways of hazardous 
waste. The Nuclear Regulatory Commission has the responsibility 
to set the regulations for the containers, the radioactive 
material containers, that we will use, design, certify, and buy 
to ship spent nuclear fuel and radioactive waste. So in that 
sense, they are our regulators in terms of setting the 
regulations that we have to meet for rail shipments, truck 
shipments, and the NRC sets the regulations that we need to 
meet for the containers in which we will ship the radioactive 
materials. That is probably a very quick, simple answer.
    Senator Carper. OK, thanks.
    Mr. Weber. I would add on NRC's behalf that certainly we 
are in a regulator mode with the Department of Energy now that 
we have accepted the Yucca Mountain license application. So it 
is an arm's length relationship, but I think it is a 
constructive relationship and we will see, as we enter into the 
licensing review and begin sending our requests for additional 
information to the Department of Energy as part of our 
licensing review.
    With respect to our co-regulators, the Department of 
Transportation, I have never seen such close coordination 
between an agency and a Department. When my staff have 
questions, they are frequently on the phone with the Department 
of Transportation staff. These people represent the United 
States of America on international standards committees. They 
are respected around the world for their expertise in 
transportation safety and security. So I cannot describe for 
you how positive the relationship is between the agencies.
    Dr. Willke. Mr. Chairman, PHMSA and the Department of 
Transportation work very, very closely with other agencies. 
PHMSA sets the packaging standards for shipments of all 
hazardous materials. In this case, we depend upon the Nuclear 
Regulatory Commission to set the design standards and the 
performance qualifications for those shipping containers.
    We also work within the Department of Transportation. While 
we set the rules within PHMSA for all hazardous material 
transportation, enforcement responsibilities are shared with 
the Federal Railroad Administration, the Federal Motor Carrier 
Safety Administration, the United States Coast Guard, and the 
Nuclear Regulatory Commission.
    We have a national program to ensure the protection from 
all hazardous materials. We also coordinate internationally. We 
work closely with the International Atomic Energy Agency on the 
establishment of standards across the world.
    Senator Carper. Mr. Pritchard, I am not sure what the deal 
is, if you are just to be here for looks or if you respond to 
questions or what. But I noticed they skipped right over you. I 
do not know if you are offended by that.
    Mr. Pritchard. Well, we are joined at the hip, sir. We are 
both with the Department of Transportation and just to show you 
the cooperativeness that we have together.
    Senator Carper. When he spoke, I could barely see your lips 
move.
    [Laughter.]
    Senator Carper. It was pretty impressive.
    That was a pretty positive response, but are there any ways 
that you all think the cooperation could be facilitated or 
enhanced?
    Mr. Pritchard. I think I will answer that, sir. No. We are 
really joined at the hip, all three of us, and we continue to 
work very close together.
    Mr. Sproat. I would say, Senator, as a proof of that, one 
of the points I tried to make in my oral testimony was that we, 
the country, have had over 3,000 successful spent nuclear fuel 
shipments already in the last 40 years with no release of 
radioactive material. And I think that demonstrated safety 
record we have is a testament to the regulatory structure that 
these agencies have put together and the way that the 
Department of Energy and the private transportation sector 
works with them and within those regulatory structures to 
assure the safety of the transportation of hazardous waste--
hazardous materials on the roadways and railways.
    Senator Carper. Anybody else? Is it Mr. Willke? Are you 
trying to say Willke or Willke?
    Dr. Willke. Willke.
    Senator Carper. Mr. Willke, do you want to add anything to 
this?
    Dr. Willke. We have very close cooperation. We work weekly, 
daily, monthly in coordination with all of the various 
agencies, including the Transportation Security Administration 
on security issues.
    Senator Carper. Do you all work on weekends?
    Mr. Pritchard. Yes, sir.
    Mr. Sproat. Yes, we do.
    Senator Carper. I was just checking.
    Can I have one more minute, Mr. Chairman?
    Is it Mr. Sproat?
    Mr. Sproat. Yes.
    Senator Carper. Would you take your name tag in front of 
you and raise it and turn it around so the audience can see it 
just for a second? You see, it says, H-o-n. Sproat. Right?
    Mr. Sproat. Yes.
    Senator Carper. I had a phone call. You know, we are 
supposed to have these do-not-call kinds of things. We are on 
this Do Not Call List. But I was at home one night not long 
ago, and the phone rings. And I looked at the number. We have 
caller ID, and I looked at the number and did not recognize it. 
It was out of state, and I thought, well, maybe I should just 
ignore it, but I went ahead and answered it. And the person at 
the other end of the phone said, I am calling Mr. Carper. I 
said this is Mr. Carper. And they said, Hon? Like H-o-n.
    [Laughter.]
    Senator Carper. They were calling from some organization, a 
good charity that we had supported before. They said, Hon, we 
are calling to thank you for your support. And we were just 
calling. It is the end of the year. We are doing our annual 
fund drive and wanted to ask you to help more. They said, this 
is Hon, isn't it? And I waited for a moment and I said, this is 
Hon.
    [Laughter.]
    Senator Carper. Anyway, it became clear that they were 
interested in more money. This person gave their pitch, and I 
said, Hon have no money.
    [Laughter.]
    Senator Carper. Not to be deterred, they came right back, 
same pitch, even harder. I said, Hon have no money. Not to be 
deterred, one more time, the third time, they came back to me 
again with their request. And I said, Hon have no money. Call 
Hon. Castle.
    [Laughter.]
    Senator Carper. Congressman Mike Castle. I said, Hon. 
Castle have much money.
    [Laughter.]
    Senator Carper. I gave them his number and said good night.
    [Laughter.]
    Senator Carper. Hon. Sproat, welcome. To all of you, thank 
you.
    Senator Ensign. Thank you for that story. I am not sure 
what it has to do with transporting nuclear waste, but I liked 
the story.
    [Laughter.]
    Senator Ensign. I want to thank the witnesses of this 
panel. We have to get going to the next panel. So I want to 
thank all these witnesses and call the next panel.
    Sandra Schubert will testify for the Environmental Working 
Group, to substitute in for Ken Cook. I understand he is sick. 
Dr. Kevin Crowley, Senior Board Member, Nuclear and Radiation 
Studies Board, National Academy of Sciences. Dr. James D. 
Ballard, Associate Professor, Department of Sociology, 
California State University, Northridge. And Mr. Ed Hamberger, 
President, Association of American Railroads.
    Since we have no Hons on the panel, we will start with Ms. 
Schubert and just go right down the line. And all of your full 
testimonies will be made part of the record.

 STATEMENT OF SANDRA SCHUBERT, DIRECTOR, ENVIRONMENTAL WORKING 
                             GROUP

    Ms. Schubert. Thank you, Chairman Ensign, for the 
opportunity to testify today on the safety and security of 
nuclear waste transportation. As you mentioned, Ken Cook, the 
President of the Environmental Working Group had been asked to 
testify. He is very sick today and has laryngitis, so he asked 
me to express his regrets and step in for him.
    My name is Sandra Schubert. I am the Director of Government 
Affairs for EWG, which is a nonprofit research organization 
that uses the power of information to protect public health and 
the environment. We have offices in Washington, D.C.; Oakland, 
California; and Ames, Iowa.
    Since 2002, EWG has produced analyses to help educate the 
public about the implications of transporting radioactive waste 
from nuclear powerplants around the United States to Yucca 
Mountain, should the proposed waste repository there become 
operational or nuclear plants continue to be relicensed or 
expand and to inform Congress, as it debates energy and climate 
change legislation.
    Today we would like to make three points.
    First, the American public's fundamental right to 
understand the full implications of shipping thousands of tons 
of extremely deadly hazardous nuclear waste across this country 
should be central to the Government's process for licensing 
Yucca Mountain, for operating any other repository for this 
material, and for all decisions to relicense existing nuclear 
reactors or build new ones. The Federal Government has not 
respected that right to know.
    It makes no sense to generate more nuclear waste when we 
have not figured out what to do with the tens of thousands of 
tons already on hand. Our Government has ignored that common 
sense precaution.
    The Government is rushing to approve the license 
application for Yucca Mountain before rudimentary, life and 
death questions have been resolved about transportation, 
storage, and a truly protective radiation public safety 
standard. We should not burden our children and their children 
with unacceptable risks.
    I would like to start with one vivid illustration that we 
prepared that reflects Ranking Member Hutchison's home state of 
Texas. And it reflects clearly our point on right to know. 
There is a map on page 3 of the testimony. We have it 
reproduced up here. We have a smaller map up here of Dallas, 
Texas, but what you will see on the map, page 3, is the 
official nuclear waste transportation map buried in the 
Department of Energy's Environmental Impact Statement.
    As you will notice, this is more cartoon than cartography. 
This illustration depicts only one major city in Texas, the 
capital, Austin, as well as facilities from which lethal 
radioactive waste could be shipped and a few highway 
designations and unnamed rail lines. Unlike on the map we have 
up here and which is reproduced in the testimony, you will not 
find Houston, Dallas, San Antonio, or any other major Texas 
cities on the map. However, DOE's prospective routes for 
shipping nuclear waste go through or near every one of these 
cities or suburbs or around them and countless other 
communities in Texas.
    If folks did somehow find their way to the EIS and the 
proper appendix, they would not find any helpful details about 
how the potential routes might wind their way through towns and 
cities or their communities. For instance, Texans probably do 
not realize that 2.336 million Texans live within 1 mile of 
DOE's proposed Yucca Mountain routes or that there are more 
than 599 schools and 76 hospitals within a mile of those very 
same routes or that everyone agrees that there will be 
accidents if nuclear waste is transported as proposed.
    And, I would like to shift my statement here a little bit 
to cite a report that talks about nuclear waste shipment 
accidents around the United States over the last 40 years.
    According to the CRS and others, there have been 72 
reported incidents involving radioactive waste shipments. This 
contradicts Mr. Sproat's figures where he asserted no 
radioactive waste accidents have occurred. According to them, 
in four cases, radioactive contamination has gone beyond the 
vehicle. In four cases, it stayed within the vehicle. In 13 
incidents, there was absolutely no release, and in 49 
incidents, actual surface contamination of radiation that 
required cleanup. Now, mind you, this was 9,000 shipments over 
40 years versus a possible 2,700 per year truck shipments to 
Yucca Mountain under DOE's scenario. So those are the accidents 
we see over 40 years under a much lighter travel load on our 
roadways.
    What would a crash mean for a city like Houston? A 
moderately serious crash that would crack the casks and cause 
cesium leaks but not puncture or penetrate the cask could 
expose tens of thousands of people to radiation, dangerous 
levels, in less than 10 minutes. Contamination plumes would 
range from 300 to 750 chest X-rays equivalence and would extend 
up to 1 mile from the wreck. Closer in, people would be exposed 
to the equivalent of thousands of chest X-rays in the first 
hour after the accident. Based on Government data and models, 
we estimate that in Houston 525 people would ultimately suffer 
and die from latent cancers associated with this exposure. In 
addition, the economic costs would be enormous with the cleanup 
costs alone are estimated to range from $10 billion to $150 
billion, depending on the accident. And this is just one 
scenario.
    As you will notice on the charts we have put up, we tried 
to focus on transportation routes in major cities for members 
of the Commerce Committee. We can also provide, if you guys are 
interested, estimates of the risk for death for many of these 
cities, not all of them, but many of them.
    Prior to recent license extensions, DOE has estimated that 
it would take about 10,000 rail shipments or 50,000 truck 
shipments of nuclear waste through our communities to fill 
Yucca Mountain's capacity. Yet, if all reactors receive 10- to 
20-year license extensions, DOE's estimate of the total amount 
of waste generated in the U.S. would go up significantly, 
meaning additional nuclear waste shipments through our 
neighborhoods. If rail were the primary means of transporting 
the waste, which DOE is leaning toward, the 10-year license 
extension scenario would require more than 22,000 cross-country 
shipments, or about 580 per year.
    Now, maybe constituents, knowing all of this, would still 
decide that it makes sense to put radioactive waste on their 
highways or they would make the decision knowing that there 
would still be much radioactive waste left onsite, as Senator 
Ensign pointed out. Or maybe residents of your states would 
conclude that reactors in the states or reactors in states 
surrounding you that might be shipping the waste through your 
state should operate for an additional 20 more years. Or maybe 
they would approve of new reactors and new license extensions. 
Or maybe if they really understood the ramifications of these 
decisions, they would not.
    Our point is that the people of every state have the right 
to know and fully understand the implications for them of the 
transportation of nuclear waste in their communities, of the 
Yucca Mountain nuclear waste repository, the construction of 
new reactors before licenses go forward, the permits are 
granted, or the plans are approved. Decisions made hundreds of 
miles away will have profound implications for the shipment of 
high-level, deadly nuclear waste through neighborhoods for 
decades to come.
    Thank you.
    [The prepared statement of Mr. Cook follows:]

           Prepared Statement of Kenneth A. Cook, President, 
                      Environmental Working Group
    Chairman Inouye, Ranking Member Hutchison, distinguished Members of 
the Committee: Thank you for the opportunity to testify today on 
crucial issues surrounding the safety and security of the 
transportation of lethal, long-lived nuclear waste across the United 
States. My name is Kenneth Cook and I am President of Environmental 
Working Group (EWG), a non-profit environmental research and advocacy 
organization that uses the power of information to protect public 
health and the environment. EWG has offices in Washington, D.C.; 
Oakland, California; and Ames, Iowa.
    Since 2002, EWG has produced analyses to help educate the public 
about the implications of transporting deadly radioactive wastes from 
nuclear power plants around the United States to Yucca Mountain, should 
the proposed nuclear waste repository there become operational.
    Today I want to emphasize three points:

        1. The American public's fundamental right to understand the 
        full implications of shipping thousands of tons of extremely 
        hazardous nuclear waste across this country should be central 
        to the government's process for licensing Yucca Mountain, for 
        operating any other repository for this material, and for all 
        decisions to relicense existing reactors or build new ones. The 
        Federal Government has not respected that right to know.

        2. It makes no sense to generate tons more nuclear waste when 
        we have not figured out what to do with the tens of thousands 
        of tons already on hand. Our government has ignored that common 
        sense precaution.

        3. The government is rushing to approve the license application 
        for Yucca Mountain before rudimentary, life and death questions 
        have been resolved about transportation, storage, and a truly 
        protective radiation safety standard. We should not burden our 
        children and their children with unacceptable risks.

    Let me start with a vivid illustration of my first point.
Right to Know Ignored
Government's Nuclear Waste Route Maps
Texas
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

EWG Nuclear Waste Route Map
Houston, Texas
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Inouye, you are lucky, nuclear waste transportation is not 
an issue in Hawaii. However it is for nearly every other state and its 
citizens. Let's take a look at this map depicting Ranking Member 
Hutchison's home state of Texas.
    This map of Texas is the official transportation map, buried in 
Appendix J of the Department of Energy's (DOE) Environmental Impact 
Statement (EIS) for the proposed Yucca Mountain nuclear waste 
repository.\1\ It is a nuclear waste transportation route map for 
Texas. More cartoon than cartography, this illustration depicts only 
one major city in your state--the capitol, Austin. It also shows the 
location of facilities from which lethal radioactive waste would be 
shipped to Yucca Mountain if it is ever made operational, along with a 
few highway designations and some unnamed rail lines.
---------------------------------------------------------------------------
    \1\ The maps reproduced herein appear identical to those used in 
the Draft Supplemental Environmental Impact Statement for a Geologic 
Repository for the Disposal of Spent Nuclear Fuel and High-Level 
Radioactive Waste at Yucca Mountain, Nye County, Nevada Volume I Impact 
Analyses, Chapters 1 through 13, U.S. Department of Energy, Office of 
Civilian Radioactive Waste Management, DOE/EIS-0250F-S1D, October 2007, 
Section G-11.
---------------------------------------------------------------------------
    You will not find Houston, Dallas, San Antonio, Amarillo, Houston, 
or any other major Texas cities on this map of nuclear waste routes to 
Yucca Mountain. But the Department of Energy's prospective routes for 
shipping deadly nuclear reactor waste go through or near every one of 
those cities, or the suburbs around them, and countless other 
communities in Texas.
    If Ranking Member Hutchison's constituents did somehow find their 
way to Appendix J of the EIS for Yucca Mountain, they would not find 
any telling details about how the potential highway or rail routes 
might wend their way through the towns and cities and communities of 
their state.
    The people of Texas probably do not realize that 2,336,290 Texans 
live within a mile of those routes, or that there are more than 599 
schools and 76 hospitals within a mile of those routes.
    A nuclear transportation accident is not unlikely or unheard of. 
From January through June 2008, there were 1,203 train accidents. 
Thirteen, or 1.08 percent, of these resulted in the release of a 
hazardous material and the evacuation of 3,959 people. Nearly 34 
percent of these were attributable to human error, more than 13.5 
percent to equipment defects. Notably, these numbers do not include 
train-highway collisions.\2\
---------------------------------------------------------------------------
    \2\ Federal Transportation Safety Board, Federal Railroad 
Administration, Office of Safety Analysis, ``1.01--Accident/Incident 
Overview,'' January to June, 2008.
---------------------------------------------------------------------------
    Everyone agrees that there will be accidents if nuclear waste is 
transported by train and truck through 45 states for 38 years to the 
repository at Yucca Mountain in Nevada. DOE predicts that there will be 
about 100 accidents over the life of the project. The state of Nevada 
predicts about 400 accidents during the same time period.
    What would a crash mean for a city like Houston, TX? A moderately 
serious crash that would crack the cask and cause cesium leaks, but not 
puncture or penetrate the cask, could expose tens of thousands of 
people to dangerous levels of radiation. EPA's acceptable dose of 
radiation is 15 millirem, equal to about 1.5 chest x-rays per year. In 
less than 10 minutes, contamination plumes ranging from 300 to 750 
chest x-rays would extend up to 1 mile from the wreck. Closer in, 
people would be exposed to the equivalent of thousands of chest x-rays 
in the first hour after the accident. Based on government data and 
models, we estimate that in Houston 525 people would ultimately suffer 
and die from latent cancers associated with this exposure. In addition, 
the economic costs would be enormous, with the cleanup costs alone 
estimated to range from $10 to $150 billion.\3\
---------------------------------------------------------------------------
    \3\ Wiles, Richard and James R. Cox, Environmental Working Group, 
Nuclear Waste Route Maps: What If A Nuclear Waste Accident Scenario in 
Houston, TX, June 2002.
---------------------------------------------------------------------------
    Now, maybe, Texas constituents, knowing all that, would still 
decide that it makes sense to put lethal radioactive waste on Texas's 
highways and rail lines, right near their homes and through their 
communities, en route to Yucca Mountain. Maybe Texans would come to 
that decision knowing that plenty of waste would still remain to be 
dealt with at reactors in the state once Yucca Mountain is filled to 
its current statutory limit. Maybe residents of Texas would still 
conclude that reactors in the state, or in states to the north and east 
that might route waste through your state, should operate for an 
additional twenty years, generating more nuclear waste and more 
shipments for decades. Maybe the people of Texas would approve of new 
reactors being built, creating yet more waste at reactor sites, and on 
highways and railways, for generations to come.
    Or maybe they would not approve at all if they really knew what 
approval meant. Texans and all other citizens have a right to know the 
implications of shipping waste to Yucca Mountain, or of expanding 
nuclear power and waste production, before decisions are made for them.
Government's Nuclear Waste Route Maps
Missouri
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

EWG Nuclear Waste Route Map
Kansas City, MO
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Government's Nuclear Waste Route Maps

Washington, D.C.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

EWG Nuclear Waste Route Map

Washington, D.C.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Government's Nuclear Waste Route Maps
California
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

EWG Nuclear Waste Route Map
Los Angeles, CA
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There is only one operating nuclear power reactor in Missouri, yet 
under DOE's nuclear waste transportation plan Missouri would become a 
major thoroughfare for the transportation of nuclear waste from around 
the country heading to the proposed Yucca Mountain nuclear waste dump. 
EWG estimates that 933,724 people live within 1 mile of the DOE's 
proposed routes for the shipment of high-level nuclear waste across 
Missouri from out of state; some 2,780,602 people live within 5 miles. 
Our geographic information system analysis also finds an estimated 368 
schools within 1 mile of the DOE's proposed high-level nuclear waste 
transportation routes and 1,004 schools within 5 miles. We also 
estimate that 28 hospitals are within 1 mile and 55 hospitals are 
within 5 miles.
    Again, localized, community-specific information of this sort might 
or might not affect the opinions of Missourians regarding the shipment 
through their cities and their communities of nuclear waste from other 
states. The only way we will know if this information is important is 
if we entrust it to the people of Missouri before decisions that affect 
them are made.
    There are many examples of how government is violating people's 
right to know how the transportation of nuclear waste will affect them. 
The Department of Energy and the Nuclear Regulatory Commission have 
not:

  <bullet> Implemented the safety recommendations of the National 
        Academies of Sciences February 2006 report Going the Distance? 
        The Safe Transport of Spent Nuclear Fuel and High-Level 
        Radioactive Waste in the United States;

  <bullet> Addressed the security threats posed by the transportation 
        of spent nuclear fuel; or

  <bullet> Planned for full scale physical testing of spent fuel 
        transportation casks to determine basic safety issues, such as 
        crash failure thresholds.

    We have seen the damage that terrorists, natural disasters and 
failing infrastructure can wreak. Imagine the catastrophic nature of 
those events if nuclear waste were involved. We must address the 
public's questions about the safety and security of nuclear waste and 
its transportation through our neighborhoods.
    People in every state have a right to know and fully understand the 
implications for them of the transportation of nuclear waste in their 
communities, the Yucca Mountain nuclear waste repository, and the 
construction of new reactors before the licenses go forward, the 
permits are granted, or the plans approved. Decisions made hundreds of 
miles away will have profound implications for the shipment of high-
level, deadly nuclear waste through their neighborhoods for decades to 
come.
Nuclear Relicensing and Increased Transportation Risks
    A little-noticed surge in relicensing of nuclear reactors will put 
thousands of metric tons of high-level nuclear waste on our railways 
and roadways. The relicensing through 2007 alone will add about 16,500 
metric tons to the Nation's inventory of spent nuclear fuel, increasing 
transportation of radioactive waste through our neighborhoods and 
prolonging storage problems through the middle of the century at 
reactor sites across the country, effectively transforming over a dozen 
power plants into long term nuclear waste dumps.
    Yet, nuclear power plant licenses are being extended, largely in 
response to the congressional approval to move forward on the proposed 
nuclear waste dump at Yucca Mountain, Nevada, and the administration 
and Congressional leaders' push for a nuclear ``renaissance,'' and 
these licenses are being extended for longer than DOE has ever 
predicted in any of their analyses of Yucca's overall capacity.
    An EWG Action Fund analysis of relicensing of nuclear facilities 
found that the 48 reactors at 26 nuclear power plants relicensed from 
2000 to 2007 (see attached table) would generate a projected 16,500 
metric tons of high-level nuclear waste over the 20-year period of 
their license extensions. Eighteen more reactors at 13 power plants 
with license extensions pending (no application to date has been 
denied) would add another 6,000 metric tons of waste to this, for a 
total of 22,500 additional metric tons of nuclear waste traveling 
through our communities.
    Prior to recent license extensions, DOE estimated that it would 
take about 10,000 rail shipments or 50,000 truck shipments of nuclear 
waste to fill the nuclear power industry's share of Yucca Mountain, or 
about 90 percent of its federally limited capacity of 70,000 metric 
tons. Relicensing through September 2004 alone has added about 5,700 
more truck shipments, or 1,050 rail shipments to that total. It would 
require a formal expansion of the Yucca repository to dump this nuclear 
waste in Nevada.
    Further, if all reactors receive 20-year as opposed to 10-year 
extensions, DOE's estimate of the total amount of waste generated in 
the U.S. would increase to approximately 135,000 metric tons.
    Those 20,000 metric tons would mean even more cross-country 
shipments of nuclear waste than are projected for DOE's worst-case 
scenario. In that worst-case scenario, based on 10-year license 
extensions, transporting our Nation's nuclear waste mostly by truck 
would require about 108,900 shipments over 38 years, or about 2,870 per 
year. If rail were the primary means of transporting the waste, the 10-
year license extension scenario would require more than 22,000 cross-
country shipments, or about 580 per year.\4\
---------------------------------------------------------------------------
    \4\ Halstead, Robert, Transportation Advisor, Nevada Agency for 
Nuclear Projects, Testimony Before U.S. Senate Committee on Energy and 
Natural Resources, May 22, 2002 (hereafter Halstead 2002).
---------------------------------------------------------------------------
    The rail transport scenario does not include barge and heavy haul 
truck shipments from 24 nuclear reactors that lack rail access. 
Thousands of such shipments would be required. This analysis also does 
not include the proposed Nevada rail extension, the Caliente Corridor, 
which would be the largest rail project in decades. In addition, DOE's 
analysis does not include the heavy haul truck shipments required 
within Nevada if there is no rail spur to connect to Yucca Mountain. 
Ten to nineteen thousand additional shipments would be required.\5\
---------------------------------------------------------------------------
    \5\ Halstead 2002.
---------------------------------------------------------------------------
    This result of the government's push to license the proposed Yucca 
Mountain nuclear waste dump and its subsidization of the nuclear 
industry while ignoring the public health, environmental and economic 
costs of these activities virtually guarantees that:

  <bullet> Nuclear power plants would be transformed into long-term 
        nuclear waste dumps. The recent surge in reactor relicensing 
        ensures that hundreds of metric tons of extremely hazardous, 
        high-level nuclear waste would remain in place at reactors 
        around the country, as more waste is produced long after the 
        proposed Yucca Mountain nuclear waste dump would be full.

  <bullet> The proposed Yucca Mountain nuclear waste dump would have to 
        be expanded or a second repository opened to accommodate the 
        additional waste. By law, Yucca Mountain is limited to 70,000 
        metric tons of nuclear waste, which is almost equal to the 
        amount of nuclear waste that will be stored on-site at reactors 
        around the country in 2010, well before any repository could be 
        opened.

  <bullet> If rail were the primary means of transporting the waste, 
        the security and health risks inherent in these shipments are 
        enormous, and preparedness is minimal.

  <bullet> The public would be unaware of, and unprepared for, the 
        implications of policy decisions regarding nuclear power and 
        nuclear waste and its transportation through its neighborhoods.

    People of every state have a right to know and fully understand the 
implications for them of shipping nuclear waste to the Yucca Mountain 
nuclear waste repository before shipping begins or the license for the 
facility goes forward. And they have the same right to know what 
expansion of nuclear waste generation will mean for transportation 
through their state if reactors around the country are relicensed for 
10 to 20 additional years of operation, or new reactors are 
constructed. They may or may not know that decisions made hundreds of 
miles away will have profound implications for the shipment of high-
level, deadly nuclear waste through their neighborhoods for decades to 
come.
Concluding Observations
    I think we are all aware that the U.S. nuclear industry would not 
split an atom without a subsidy. They never have, and they never will.
    Nuclear energy companies never hesitate to lean on American 
taxpayers for money to conduct nuclear research, for indemnification in 
the event of horrific nuclear accidents, for money to clean up 
industry's lethal waste and cost overruns, or for the collateral of the 
public's purse--loan guarantees--something the companies are seeking 
today to coax investors out of their sober reluctance to put money into 
new nuclear reactors.
    But the ultimate subsidy for the nuclear industry may well be our 
government's scandalous failure to fully inform our own people about 
the potential consequence of the transportation of nuclear waste 
through their communities until it is too late for the people to do 
anything about it but accept the risk, the expense, or the unthinkable.
    I thank you, Chairman Inouye, Ranking Member Hutchison, and Members 
of the Committee for this opportunity to testify, and I look forward to 
answering any questions or providing additional information at the 
pleasure of the Committee.

                            Nuclear Plants Where Reactor Licenses Have Been Extended
----------------------------------------------------------------------------------------------------------------
                                                                                               Additional Waste
                                                            Number  of    Projected Waste       During 20-year
                      Plant                         State     Reactors   Per Year 1996-2011    Relicense Period
                                                                           (Metric Tons)        (Metric Tons)
----------------------------------------------------------------------------------------------------------------
Browns Ferry                                           AL           3                   68              1,365
Joseph M. Farley                                       AL           2                   33                  663
Arkansas Nuclear One                                   AR           2                   29                  583
Millstone                                                CT         2                   47                  936
St. Lucie                                              FL           2                   26                  524
Turkey Point                                           FL           2                   29                  573
Edwin I. Hatch                                         GA           2                   43                  865
Dresden                                                IL           2                   37                  738
Quad Cities                                            IL           2                   29                  580
Calvert Cliffs                                         MD           2                   31                  626
D.C. Cook                                              MI           2                   41                  820
Pallisades                                             MI           1                   15                  309
Monticello                                             MN           1                   18                  350
McGuire                                                 NC          2                   45                  906
Brunswick                                               NC          2                   28                  560
Fort Calhoun                                           NE           1                   10                  196
Ginna                                                  NY           1                   11                  225
Nine Mile Point                                        NY           2                   39                  519
Peach Bottom                                           PA           2                   40                  806
Catawba                                                 SC          2                   43                  854
H.B. Robinson                                           SC          1                   15                  299
Oconee                                                  SC          3                   48                  959
Summer                                                  SC          1                   19                  376
North Anna                                             VA           2                   38                  766
Surry                                                  VA           2                   33                  668
Point Beach                                            WI           2                   22                  434
----------------------------------------------------------------------------------------------------------------
    Total                                                         48                  838              16,498
----------------------------------------------------------------------------------------------------------------
U.S. Department of Energy (DOE Yucca EIS Table A-7). 2002. Final Environmental Impact Statement for a Geologic
  Repository for the Disposal of Spent Nuclear Fuel and High-Level Radioactive Waste at Yucca Mountain, Nye
  County, Nevada, Appendix A, Table A-7. February 2002.


                             Nuclear Plants With Reactor License Extensions Pending
----------------------------------------------------------------------------------------------------------------
                                                                                               Additional Waste
                                                            Number  of    Projected Waste       During 20-year
                      Plant                         State     Reactors   Per Year 1996-2011    Relicense Period
                                                                           (Metric Tons)        (Metric Tons)
----------------------------------------------------------------------------------------------------------------
Vogtle                                                 GA           2                   47                  931
Wolf Creek                                             KS           1                   25                  505
Pilgrim                                                MA           1                   13                  251
Prairie Island                                         MN           2                   22                  435
Harris                                                  NC          1                   16                  315
Oyster Creek                                           NJ           1                   20                  406
James A. FitzPatrick                                   NY           1                   19                  384
Indian Point                                           NY           2                   30                  608
Susquehanna                                            PA           2                   41                  810
Beaver Valley                                          PA           2                   36                  726
Three Mile Island                                      PA           1                   15                  295
Vermont Yankee                                         VT           1                   14                  278
Kewaunee Power Station                                 WI           1                   11                  211
----------------------------------------------------------------------------------------------------------------
    Total                                                         18                  308               6,155
----------------------------------------------------------------------------------------------------------------
U.S. Department of Energy (DOE Yucca EIS Table A-7). 2002. Final Environmental Impact Statement for a Geologic
  Repository for the Disposal of Spent Nuclear Fuel and High-Level Radioactive Waste at Yucca Mountain, Nye
  County, Nevada, Appendix A, Table A-7. February 2002.

    I wish to thank colleagues at the Environmental Working Group for 
the research and analysis underlying my testimony today: Richard Wiles, 
Sandra Schubert, Sean Gray, and Chris Campbell; and former colleagues 
John Coequyt, Jon Balivieso, and Tim Greenleaf. We are also grateful 
for technical assistance provided over the years by experts at the 
Nuclear Information And Resource Service and in particular by Kevin 
Kamps, now on the staff of Beyond Nuclear. EWG is responsible for the 
contents of this testimony.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Ensign. Thank you.
    Dr. Crowley?

      STATEMENT OF KEVIN D. CROWLEY, Ph.D., SENIOR BOARD 
        DIRECTOR, NUCLEAR AND RADIATION STUDIES BOARD, 
       NATIONAL RESEARCH COUNCIL, THE NATIONAL ACADEMIES

    Dr. Crowley. Good afternoon, Chairman Ensign and Senator 
Thune. My name is Kevin Crowley. I am the Director of the 
National Research Council's Nuclear and Radiation Studies 
Board, and I also directed two National Research Council 
studies that are directly relevant to the subject of this 
hearing. I would like to talk a little bit about some of the 
principal findings and recommendations from those. The reports 
were entitled ``Going the Distance? The Safe Transport of Spent 
Nuclear Fuel and High-Level Radioactive Waste in the United 
States'' and ``Safety and Security of Commercial Spent Nuclear 
Fuel Storage.''
    I will focus my oral summary on the key findings that 
relate to transportation safety, transportation security, and 
Yucca Mountain challenges.
    With respect to key transportation safety challenges, the 
Committee that authored the Going the Distance report found 
that it could identify no fundamental technical barriers to the 
safe transport of spent fuel and high-level waste in the United 
States. From a technical standpoint, transport is a low 
radiological risk activity with manageable safety, health, and 
environmental consequences when conducted in strict adherence 
to existing regulations.
    The packages that are used to transport spent fuel play a 
crucial role in transportation safety by providing a robust 
barrier to the release of radiation and radioactive material. 
The Going the Distance report noted that current international 
standards and U.S. regulations are adequate to ensure 
containment effectiveness of transport packages even in severe 
accidents.
    However, there may be extreme accident conditions involving 
very long duration fires that could compromise package 
containment. The report recommended that the Nuclear Regulatory 
Commission undertake additional analyses of such accident 
conditions and implement operational controls and restrictions 
as necessary to reduce the chances that such conditions might 
be encountered during transport.
    With respect to key transportation security challenges, the 
National Research Council study on Safety and Security of 
Commercial Spent Nuclear Fuel Storage examined the consequences 
of sabotage and terrorist attacks on spent fuel in storage at 
civilian nuclear plants. This work is relevant to spent fuel 
transport security because some storage packages can also be 
used for transportation. The unclassified report from the study 
notes that all storage package designs are vulnerable to some 
types of terrorist attacks for which releases of radioactive 
material would be possible, although the magnitudes of such 
releases are predicted to be small. However, it is important to 
recognize that storage packages at fixed sites, such as nuclear 
plants, are easier to protect from certain kinds of terrorist 
attacks than spent fuel packages in transport on the Nation's 
highways and railways.
    The Going the Distance report recommended that ``an 
independent examination of the security of spent fuel and high-
level waste transportation should be carried out prior to the 
commencement of large-quantity shipments to a Federal 
repository or to interim storage. This examination should 
provide an integrated evaluation of the threat environment, the 
response of packages to credible malevolent acts, and 
operational security requirements for protecting spent fuel and 
high-level waste while in transport.''
    I have a longer write-up in my written testimony about the 
Yucca Mountain challenges. Let me close by just highlighting a 
few findings and recommendations from my longer testimony.
    The Going the Distance report strongly endorsed DOE's 
decisions to ship spent fuel and high-level waste to a Federal 
repository by mostly rail using dedicated trains. The report 
recommended that DOE fully implement these decisions before 
commencing large-quantity shipments to the repository.
    The report also recommended that DOE should identify and 
make public its suite of preferred highway and rail routes for 
transporting spent fuel and high-level waste to a Federal 
repository as soon as practicable to support State, tribal, and 
local planning.
    DOE should negotiate with commercial spent fuel owners to 
ship older fuel first to a Federal repository or to interim 
storage. Should these negotiations prove to be ineffective, 
Congress should consider legislative remedies.
    DOE should initiate transport to the Federal repository 
through a pilot program involving relatively short, 
logistically simple movements of older fuel from closed 
reactors to demonstrate its ability to carry out its 
responsibilities in a safe and operationally effective manner.
    And finally, the Secretary of Energy and the U.S. Congress 
should examine options for changing the organizational 
structure of DOE's program for transporting spent fuel and 
high-level waste to a Federal repository to increase its 
chances for success.
    I will stop there. I will be happy to elaborate on any of 
my comments during the Q&A. Thank you.
    [The prepared statement of Dr. Crowley follows:]

 Prepared Statement of Kevin D. Crowley, Ph.D., Senior Board Director, 
    Nuclear and Radiation Studies Board, National Research Council, 
                         The National Academies
    Good afternoon, Chairman Inouye and Members of the Committee. My 
name is Kevin Crowley, and I am the Director of the National Research 
Council's Nuclear and Radiation Studies Board.\1\ I also directed two 
National Research Council studies that are relevant to this hearing on 
the safety and security of spent nuclear fuel transportation:
---------------------------------------------------------------------------
    \1\ The National Research Council is the operating arm of the 
National Academy of Sciences, National Academy of Engineering, and the 
Institute of Medicine of the National Academies, chartered by Congress 
in 1863 to advise the government on matters of science and technology. 
The Nuclear and Radiation Studies Board is responsible for oversight of 
National Research Council studies on safety and security of nuclear 
materials and waste.

  <bullet> Going the Distance? The Safe Transport of Spent Nuclear Fuel 
        and High-Level Radioactive Waste in the United States \2\
---------------------------------------------------------------------------
    \2\ This report is available online at http://www.nap.edu/
catalog.php?record_id=11538.

  <bullet> Safety and Security of Commercial Spent Nuclear Fuel Storage 
        \3\
---------------------------------------------------------------------------
    \3\ The unclassified report is available online at http://
www.nap.edu/catalog.php?record
_id=11263.

Both of these reports were published in 2006. The latter report, which 
has classified and unclassified versions, was the product of a 
congressionally mandated study. That study examined the safety and 
security of dry storage of spent nuclear fuel at civilian nuclear power 
plants. Some of the results of that study have informed my comments on 
transportation security.
    My testimony is provided in three parts: transportation safety 
challenges, transportation security challenges, and the challenges 
associated with transportation of spent fuel to the proposed repository 
at Yucca Mountain, Nevada.
Transportation Safety Challenges
    My comments on the safety \4\ challenges associated with 
transporting nuclear waste will focus specifically on the 
transportation of spent nuclear fuel generated by civilian nuclear 
power plants. Spent fuel is highly radioactive and can cause severe 
harm to humans and the environment, if not properly managed. 
Immediately after its discharge from a power reactor, for example, the 
radiation emitted from a single spent fuel assembly would be lethal to 
a nearby unshielded person for exposure periods on the order of 
minutes. Spent fuel becomes less radioactive with time, but even after 
several years of storage it is still highly radioactive and can cause 
both immediate (i.e., radiation sickness and death) and delayed (e.g., 
cancer) effects in exposed populations if not properly managed.
---------------------------------------------------------------------------
    \4\ Safety refers to measures taken to protect spent fuel and high-
level waste during transport operations from failure, damage, human 
error, and other inadvertent acts.
---------------------------------------------------------------------------
    There are at least three factors that promote the safety of spent 
fuel transportation in the United States:

  <bullet> Storage before shipping: Civilian spent fuel must be stored 
        for at least a year before it can be transported, and current 
        industry practice is to store this fuel for at least 5 years 
        before transporting it. This provides time for radioactive 
        decay in the spent fuel, which helps to reduce its hazard.

  <bullet> Transport packages: Spent fuel is transported in packages 
        (also referred to as shipping casks) that are designed to 
        shield the radiation that is emitted by the fuel and also to 
        prevent the release of radioactive material, even in severe 
        accidents.

  <bullet> Conduct of transport operations: There are strict regulatory 
        requirements for selection of shipping routes, advance 
        notification of state authorities before shipments are made, 
        and for shipping operations.
    The National Research Council's Going the Distance report provides 
a detailed discussion and analysis of the safety of spent fuel 
transportation, focusing on the design and testing of packages used to 
transport spent fuel and on the historical record of spent fuel 
shipments. Based on this analysis, the expert committee \5\ that 
conducted this study found that it
---------------------------------------------------------------------------
    \5\ Committee on Transportation of Radioactive Waste. Dr. Neal 
Lane, a physicist at Rice University and former director of the 
National Science Foundation and Presidential science advisor, chaired 
this study.

        ``. . . could identify no fundamental technical barriers to the 
        safe transport of spent nuclear fuel and high-level radioactive 
        waste in the United States. Transport by highway (for small-
        quantity shipments \6\) and by rail (for large-quantity 
        shipments) is, from a technical viewpoint, a low-radiological-
        risk activity with manageable safety, health, and environmental 
        consequences when conducted in strict adherence to existing 
        regulations. However, there are a number of social and 
        institutional challenges to the successful initial 
        implementation of large-quantity shipping programs that will 
        require expeditious resolution. . . . Moreover, the challenges 
        of sustained implementation should not be underestimated.''
---------------------------------------------------------------------------
    \6\ The Going the Distance report identified two general types of 
transportation programs, small-quantity shipping programs and large-
quantity shipping programs. The former involve shipment on the order of 
tens of metric tons of spent fuel or high-level waste, while the latter 
involve shipment on the order of hundreds to thousands of metric tons. 
The program to transport spent fuel to the proposed repository at Yucca 
Mountain would be an example of a large-quantity shipping program.

    I want to emphasize that this finding focused on the technical 
aspects of spent fuel and high-level waste transportation--for example, 
the design, fabrication, and maintenance of the packages and 
conveyances used for transporting spent fuel and the conduct of 
transportation operations. This finding is predicated on the assumption 
that these technical tasks are being carried out with a high degree of 
care and in strict adherence to regulations. The finding also is based 
on an assessment of past and present transportation programs and would 
apply to future programs only to the extent that they continue to 
exercise appropriate care and adherence to applicable regulations. 
Continued vigilance by all parties involved in these transportation 
programs, including planners, shippers, and regulators, will be 
required to ensure that transportation operations in the United States 
continue to be conducted in a safe manner, especially if and when the 
large-quantity shipping program to Yucca Mountain is initiated.
    The packages that are used to transport spent fuel play a crucial 
role in transportation safety by providing a robust barrier to the 
release of radiation and radioactive material. In fact, the robust 
design of these packages helps to minimize the impacts of human error 
on transport safety. The committee that conducted the Going the 
Distance study found that current international standards and U.S. 
regulations are adequate to ensure package containment effectiveness 
\7\ during both routine transport and in severe accidents. However, the 
study committee noted that recently published work suggests that there 
may be a very small number of extreme accident conditions involving 
very long duration fires \8\ that could compromise package containment 
effectiveness. The study committee recommended that the U.S. Nuclear 
Regulatory Commission (USNRC) undertake additional analyses of very 
long duration fire scenarios that bound expected real-world accident 
conditions. Based on the results of these investigations, the study 
committee also recommended that the USNRC implement operational 
controls and restrictions on spent fuel and high-level waste shipments 
as necessary to reduce the chances that such conditions might be 
encountered in service. The study committee further recommended that 
transportation planners and managers undertake detailed surveys of 
transportation routes to identify and mitigate the potential hazards 
that could lead to or exacerbate extreme accidents involving such 
fires.
---------------------------------------------------------------------------
    \7\ That is, the ability of a transportation package to contain its 
radioactive contents and maintain its radiation shielding effectiveness 
during routine use and under severe accident conditions.
    \8\ The USNRC requires that packages be designed to maintain 
containment effectiveness in a 30-minute fire that is fully engulfing. 
A very long duration fire is a fire that burns for much longer periods, 
for example, hours to days.
---------------------------------------------------------------------------
Transportation Security Challenges
    Let me now turn to the security \9\ of spent fuel transportation. 
Many of the regulatory requirements that are in place to promote the 
safety of spent fuel transport also help to promote security. For 
example, the robust shipping packages that are used to protect spent 
fuel in the event of a severe accident would also help to protect spent 
fuel against some types of sabotage and terrorist attacks. There are 
additional regulatory requirements that also help to promote security 
of spent fuel shipments: for example, the USNRC conducts route 
inspections to identify potential security vulnerabilities as part of 
its route approval process; it has established requirements for armed 
escorts when shipments pass through highly populated regions; and it 
has established other requirements for equipment security and 
communications. Some of these regulatory requirements were revised 
after the September 11, 2001, terrorist attacks, and some specific 
requirements have not been disclosed to the public to protect national 
security.
---------------------------------------------------------------------------
    \9\ Security involves measures taken to protect spent fuel and 
high-level waste against sabotage, attacks, and theft while it is in 
transport.
---------------------------------------------------------------------------
    However, transportation security differs from transportation safety 
in at least one important respect: safety problems arise from human 
error and equipment malfunctions that are amenable to quantitative 
analysis, whereas security problems arise from intentional malevolent 
acts that generally do not lend themselves to such analysis. 
Transportation safety analyses, for example, rely heavily on the 
historical record for shipping other types of hazardous materials. This 
record allows analysts to identify severe accident scenarios that might 
be a concern for spent fuel transport--for example, train collisions or 
derailments that expose shipping packages to large impact forces or 
severe fires--and also provides analysts with reliable data on the 
frequency of occurrence of such accidents. These accident scenario and 
accident frequency data can be used to quantitatively model the safety 
consequences of severe accidents involving spent fuel.
    There is no comparable historical record that can be used to 
develop quantitative estimates of sabotage or attack scenarios or their 
frequency of occurrence. Instead, analysts must rely on expert 
judgments about the threat environment and terrorists' access to 
technical means and opportunity for attacking or sabotaging spent fuel 
shipments. I should note that this security challenge is not unique to 
spent fuel transportation, but is also faced by owners and operators of 
other critical infrastructure.
    A great deal of work has been carried out in the United States and 
in some other countries to understand the potential consequences of 
sabotage and terrorist attacks on spent fuel shipments. Most of this 
work is classified or otherwise restricted from public release. The 
National Research Council study on Safety and Security of Commercial 
Spent Nuclear Fuel Storage examined some of the relevant work that has 
been carried out by Sandia National Laboratories and others to estimate 
the consequences of sabotage or terrorist attacks on spent fuel being 
stored at civilian nuclear plants.\10\ This work is relevant to spent 
fuel transport security because some of the packages that are used to 
store spent fuel at civilian nuclear plants can also be used for 
transportation. The study committee's \11\ detailed analyses of the 
consequences of various terrorist attack scenarios are classified; 
however, the study committee's unclassified report notes that all 
storage cask designs are vulnerable to some types of terrorist attacks 
for which releases of radioactive material would be possible, although 
the magnitudes of such releases are predicted to be small. However, it 
is important to recognize that storage casks at fixed sites such as 
nuclear plants are in principle easier to protect from certain kinds of 
terrorist attacks than spent fuel packages in transport on the Nation's 
highways and railways.
---------------------------------------------------------------------------
    \10\ This study examined both wet storage of spent fuel in pools 
and dry storage in casks. My comments in this testimony are focused 
only on dry storage.
    \11\ Committee on Safety and Security of Commercial Spent Nuclear 
Fuel Storage. The committee was chaired by Dr. Louis Lanzerotti, a 
geophysicist and member of the National Academy of Engineering.
---------------------------------------------------------------------------
    The National Research Council's Going the Distance study was 
organized before the September 11, 2001, terrorist attacks on the 
United States. It was focused primarily on the safety of spent fuel and 
high-level waste transport because this issue was receiving the most 
public attention when the study was organized. Once the study was 
begun, however, it soon became clear that transportation security had 
established itself in the public's consciousness as a top concern along 
with transportation safety. The study committee was not able to conduct 
an in-depth review of transportation security because of information 
access constraints. However, the study committee found that 
``malevolent acts against spent fuel and high-level waste shipments are 
a major technical and societal concern, especially following the 
September 11, 2001, terrorist attacks on the United States.'' The study 
committee also recommended that

        ``An independent examination of the security of spent fuel and 
        high-level waste transportation should be carried out prior to 
        the commencement of large-quantity shipments to a Federal 
        repository or to interim storage. This examination should 
        provide an integrated evaluation of the threat environment, the 
        response of packages to credible malevolent acts, and 
        operational security requirements for protecting spent fuel and 
        high-level waste while in transport. This examination should be 
        carried out by a technically knowledgeable group that is 
        independent of the government and free from institutional and 
        financial conflicts of interest. This group should be given 
        full access to the necessary classified documents and 
        Safeguards Information to carry out this task. The findings and 
        recommendations from this examination should be made available 
        to the public to the fullest extent possible.''

    I want to emphasize that this recommendation was not made because 
the study committee had specific knowledge of vulnerabilities of spent 
fuel shipments to sabotage or terrorist attacks. Instead, it was 
motivated primarily by concerns that were expressed to the study 
committee about whether such shipments could be made in a secure 
fashion in spite of reassurances from Federal agencies. The study 
committee recognized that the Federal agencies were in a difficult 
position on this issue because as much as they might like to share 
security-related information that might help to inform the public, 
there were legitimate national security reasons for not doing so. The 
study committee judged that an independent review would help to improve 
the technical soundness of the agencies' security programs for spent 
fuel transportation and also help to reassure the public that the 
agencies' programs were proceeding on a sound technical basis.
Transportation Challenges for Yucca Mountain
    The primary challenges for the Yucca Mountain transportation 
program arise from at least three factors: the large number of 
shipments that are planned; the two-decade-plus-time period over which 
the transportation program must be operated in a safe and secure 
manner; and the long lead times and large expenditures that will be 
required to put the necessary transportation infrastructure in place. 
The National Research Council's Going the Distance report noted that 
the planned number of rail shipments to a repository at Yucca Mountain 
under the Department of Energy's (DOE's) ``mostly rail'' scenario is 
approximately 18 times the number of rail shipments that have occurred 
in the United States between 1964 and 2004.\12\ In other words, 
previous spent fuel transport experience in the United States is small 
compared with the numbers of shipments that will be needed to move 
spent fuel and high-level waste to a Yucca Mountain repository.
---------------------------------------------------------------------------
    \12\ The Yucca Mountain EIS noted that DOE plans to make up to 9600 
rail shipments of spent fuel and high-level waste to the repository. 
The Going the Distance study estimates that about 540 rail shipments of 
spent fuel were made in the United States between 1964 and 2004. The 
actual number of rail shipments to Yucca Mountain would depend on how 
DOE conducts its transport operations.
---------------------------------------------------------------------------
    The National Research Council committee that authored the Going the 
Distance report provided several findings and recommendations for 
improving the Yucca Mountain transportation program; these are 
summarized below:

  <bullet> The study committee strongly endorsed DOE's decisions to 
        ship spent fuel and high-level waste to the Federal repository 
        by ``mostly rail'' using dedicated trains. This approach would 
        reduce routine radiological exposures; provide for greater 
        physical separation from other vehicular traffic and reduced 
        interactions with people along transportation routes; and 
        simplify operational logistics. It is also the approach that is 
        preferred by the public. The study committee recommended that 
        DOE fully implement this approach by completing construction of 
        the Nevada rail spur and making other necessary arrangements 
        before commencing large-quantity shipments to the repository. 
        The study committee also recommended that DOE examine the 
        feasibility of further reducing its needs for cross-country 
        truck shipments \13\ of spent fuel.
---------------------------------------------------------------------------
    \13\ Even under the ``mostly rail'' scenario, DOE estimated in its 
Yucca Mountain EIS that about 1100 truck shipments would be made to the 
repository.

  <bullet> DOE should identify and make public its suite of preferred 
        highway and rail routes for transporting spent fuel and high-
        level waste to a Federal repository as soon as practicable to 
        support state, tribal, and local planning, especially for 
        emergency responder preparedness. DOE should follow the 
        practices of its foreign research reactor spent fuel transport 
        program of involving states and tribes in these route 
        selections.\14\
---------------------------------------------------------------------------
    \14\ The Going the Distance report contains a detailed discussion 
of routing regulations for spent fuel shipments.

  <bullet> DOE should negotiate with commercial spent fuel owners to 
        ship older fuel first to a Federal repository or to Federal 
        interim storage.\15\ Should these negotiations prove to be 
        ineffective, Congress should consider legislative remedies. 
        Within the context of its current contracts with commercial 
        spent fuel owners, DOE should initiate transport to the Federal 
        repository through a pilot program involving relatively short, 
        logistically simple movements of older fuel from closed 
        reactors to demonstrate its ability to carry out its 
        responsibilities in a safe and operationally effective manner.
---------------------------------------------------------------------------
    \15\ Shipping older fuel first would help to reduce transportation 
worker exposures to radiation from the spent fuel and high-level waste 
shipments.

  <bullet> DOE should begin immediately to execute its emergency 
        responder preparedness responsibilities defined in Section 
        180(c) of the Nuclear Waste Policy Act. The study committee 
        recommended several approaches for carrying out this 
---------------------------------------------------------------------------
        recommendation.

  <bullet> DOE, the Department of Homeland Security, Department of 
        Transportation, and USNRC should promptly complete the job of 
        developing, applying, and disclosing consistent, reasonable, 
        and understandable criteria for protecting sensitive 
        information about spent fuel and high-level waste shipments. 
        They should also commit to the open sharing of information that 
        does not require such protection and should facilitate timely 
        access to such information, for example, by posting it on 
        readily accessible websites.

  <bullet> DOE should take early and proactive steps to establish 
        formal mechanisms for gathering high-quality and diverse advice 
        about social risks \16\ and their management on an ongoing 
        basis.
---------------------------------------------------------------------------
    \16\ Social risks arise from social processes and human 
perceptions. Social processes shape the communities in which people 
live by, for example, influencing choices about where to purchase or 
rent a home, where to work, and where to send children to school. 
Social perceptions can have a strong influence on peoples' behavior, 
whether or not such perceptions are an accurate picture of reality.

  <bullet> The Secretary of Energy and the U.S. Congress should examine 
        options for changing the organizational structure of DOE's 
        program for transporting spent fuel and high-level waste to a 
        Federal repository to increase its chances for success. The 
        following three alternative organizational structures, which 
        are representative of progressively greater organizational 
        change, should be examined: (1) a quasi-independent DOE office 
        reporting directly to upper-level DOE management; (2) a quasi-
        government corporation; or (3) a fully private organization 
---------------------------------------------------------------------------
        operated by the commercial nuclear industry.

    The study committee found that successful execution of DOE's 
program to transport spent fuel and high-level waste to a Federal 
repository will be difficult given the organizational structure in 
which it is embedded, despite the high quality of many program staff. 
As currently structured, the program has limited flexibility over 
commercial spent fuel acceptance order; it also has limited control 
over its budget and is subject to the annual Federal appropriations 
process, both of which affect the program's ability to plan for, 
procure, and construct the needed transportation infrastructure. 
Moreover, the current program may have difficulty supporting what 
appears to be an expanding future mission to transport commercial spent 
nuclear fuel for interim storage or reprocessing. In the study 
committee's judgment, changing the organizational structure of this 
program would improve its chances for success.
    This concludes my testimony to the Committee. Thank you for the 
opportunity to testify on these important issues. I would be happy to 
elaborate on any of my comments during the question and answer period.

    Senator Ensign. Thank you.
    Dr. Ballard?

       STATEMENT OF JAMES DAVID BALLARD, Ph.D., ASSOCIATE

         PROFESSOR, DEPARTMENT OF SOCIOLOGY, CALIFORNIA

      STATE UNIVERSITY, NORTHRIDGE (CSUN); DIRECTOR, CSUN

             INTELLIGENCE COMMUNITY CENTER ACADEMIC

         EXCELLENCE (IC-CAE); CONSULTANT, NUCLEAR WASTE

                PROJECT OFFICE, STATE OF NEVADA

    Dr. Ballard. Thank you, Mr. Chairman.
    I am a professor at California State University, 
Northridge. My specialty is terrorism. I am in the Sociology 
Department where I run a center funded by the ODNI, which is to 
help our students do analysis of just such projects as these. I 
have been engaged in this enterprise of looking at Yucca 
Mountain security risks for 14 years and have worked with the 
State of Nevada over that time.
    I thank you very much for allowing me to come here today.
    I do have three points that I would like to make, and these 
reflect my own personal opinions and not those of any of the 
agencies that I may have affiliation with.
    First, number one, the Yucca Mountain project as it is 
conceived presents a target-rich environment and we should 
consider the shelter-in-place option that Senator Reid 
discussed earlier. The Yucca Mountain transportation program is 
a security risk in and of itself. This is a large-scale Federal 
program that will draw attention from a wide variety of 
adversaries. Adversaries that may not exist for many of the 
other hazardous materials that are transported daily would 
possibly be interested in these shipments. Yucca Mountain will 
necessitate the movement of large numbers of shipments over an 
extended period of time. It allows the adversary to chart the 
movement of these shipments in a predictable way. It is 
exacerbated by choices that agencies like the DOE makes. For 
example, decisions to allow hotter fuel to be shipped may 
increase the radiological consequences of an attack. And it 
will entail lengthy shipment routes that average over 2,000 
miles since many of the shipment origin sites are east of the 
Mississippi.
    The safety and security program that DOE will need to 
engage in for Yucca Mountain must face one fact. The shipments 
will provide this target-rich environment, which means we need 
to consider the totality of the shipment routes as the battle 
space, the attackers as potential adversaries with their choice 
of weapons and tactics, the shipments themselves as poorly 
defended, high-value, symbolic targets, and the perpetuation of 
an attack against these shipments being a highly symbolic 
statement by the adversaries.
    Spent nuclear fuel is safe where it exists. Placing them in 
the transportation corridors increases risk from a variety of 
means, accidents, human-initiated events, and so on. And it 
would be better to shelter them in place until such time that 
we have better options.
    Point number two. There are a series of existing issues 
that many of the panelists have alluded to and I would like to 
summarize for the panel.
    First of all, shipping older fuel first is a primary 
consideration that we should insist on.
    Second, shipments should be mostly rail, but truck 
shipments are necessary to complete the task given the physical 
limitations of the origin sites and the current physical 
limitations of Yucca Mountain.
    We need to use dual-purpose casks, dedicated trains.
    We need to conduct full-scale cask testing, not just 
regulatory testing, but extra-regulatory testing.
    We need to engage in a meaningful national level 
transportation NEPA process, including the selection of a rail 
spur, if that is the decision to go ahead with for Yucca 
Mountain.
    We need to use the WEIB ``straw man'' routing process.
    We need to start the section 180(c) program rulemaking.
    We need to allow for State regulatory enhancements both for 
the safety but also public perception.
    We need to rethink the assumptions about terrorism and 
sabotage in light of 9/11.
    These issues constitute the most basic foundations for the 
development of a preferred transportation system. Since today's 
hearing is directly related to the last issue, the balance of 
this testimony will deal with that.
    So, point three, human-initiated events and systematic risk 
assessment looking at these from a different perspective. The 
sabotage-related attacks in areas evaluated in NRC and DOE 
analyses have changed little over the decades and assume a 
single spent fuel shipping cask is attacked at one location by 
one group of attackers and typically using one weapon. The 
basic analyses also assumed that the attack breaches the cask 
and releases a small fraction of the contents. The threat 
environment has changed since the start of the Yucca Mountain 
debates decades ago. Yet, DOE has failed to adopt an 
alternative perspective on the risk of these attacks.
    They can engage in a different process to identify those 
risks and perhaps bring them into the regulatory framework. 
First and foremost, we need to engage in a meta-analysis of the 
risk as defined across the world. Second, we need to develop a 
systematic, multi-level assessment process for these risks. 
That includes existing methodologies like security surveys, 
risk management techniques, the design basis threat, but most 
importantly, we need to consider the use of adversarial 
vulnerability assessments.
    One critical omission for all three of the techniques I 
just mentioned is to bring the motives, mind set, and 
creativity of the adversary into the risk equation. To 
accomplish that task, we need to do a mental coordinate 
transformation. This means that when assessing the risk for 
spent nuclear fuel transportation and the infrastructure to 
move that material, it is necessary to think like the 
perpetrators, not like security professionals, not like energy 
company officials, and not like oversight agencies. AVA is one 
proven method that can help accomplish that task.
    When we are done with this, using all four of these 
techniques, we can create a matrix of potential threats against 
these shipments. In my written testimony, there is a mock 
matrix that we can refer to.
    Take-aways from today, or a conclusion.
    Point number one, Yucca Mountain transportation is risky 
and will present a target-rich environment for our adversaries. 
The shipments are symbolically important and represent a 
radiologically significant target. The solution is to shelter 
the shipments in place at their sites of origin. As noted by 
the NRC, energy industry officials, and others, they are safe 
and secure at those facilities. Why expose these wastes to risk 
if we do not have to?
    Point number two, DOE has systematically neglected to 
address the laundry list of concerns brought forth by 
stakeholders. These actions increase the likelihood of attacks, 
the consequences of those attacks, and the resultant social 
dislocations if these attacks succeed. The solution here is to 
compel the DOE to engage in a meaningful, national level NEPA 
process that addresses these stakeholder concerns and that will 
be documented over the decades of Yucca Mountain 
transportation.
    Last point, DOE, in consultation with stakeholders, should 
engage in a systematic assessment of risk using the AVA 
process. The solution here is just to do this and will allow 
the DOE to avoid the potentially fatal flaw of being reactive 
to threats and become more proactive in relationship to human-
initiated events. In the post-9/11 world, almost all Federal 
agencies with a significant homeland security role have had to 
rethink their assumptions on how best to serve the public 
interest. The DOE must likewise abandon the engineering-based 
bureaucratic paradigm they hold dear to reconsider how to 
identify risk from the perceptions and ideas of the adversary.
    In conclusion, Yucca Mountain transport is risky, movement 
of radioactive materials potentially dangerous, and failing to 
recognize human-initiated events in a post-9/11 world can be 
deadly. Alternatives exist, alternatives like shelter-in-place, 
truly listening to the stakeholders, and using systematic risk 
analysis.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Dr. Ballard follows:]

Prepared Statement of James David Ballard, Ph.D., Associate Professor, 
   Department of Sociology, California State University, Northridge 
     (CSUN); Director, CSUN Intelligence Community Center Academic 
Excellence (IC-CAE); Consultant, Nuclear Waste Project Office, State of 
                                 Nevada
Introduction
    Mr. Chairman and distinguished Members of the Committee, thank you 
for asking me to testify at these hearings. My name is Dr. James David 
Ballard and I am currently employed as an Associate Professor of 
Sociology at California State University, Northridge (CSUN).\1\ As part 
of my academic appointment I am also the campus director for the ODNI 
funded Intelligence Community Center for Academic Excellence (IC-CAE) 
program.\2\ In an effort toward full disclosure, you should also know 
that I have had an on-going relationship as a consultant to the state 
of Nevada Agency for Nuclear Projects (NANP) since 1995.\3\
    Over the last fourteen years I have been privileged to specialize 
in studying issues associated with human initiated events, defined as 
terrorism, sabotage, etc. that may impact transportation efforts for 
the proposed Yucca Mountain shipments of spent nuclear fuel (SNF) and 
high level radioactive wastes (HLRW). The statements made today reflect 
my own individual opinions and are not necessarily those of any of 
these institutions I am associated with, nor do my comments necessarily 
reflect the opinions of my co-authors, research teams and/or 
colleagues.
    The foundations of my testimony arise from fourteen years of study 
on the issues surrounding potential terrorist attacks against 
shipments. During that time I have been privileged to be part of 
several multi-disciplinary teams of researchers that have studied the 
risk of terrorism attacks on nuclear waste shipments to the proposed 
Yucca Mountain storage facility.\4\ In particular, we as a body of 
scholars, study the changing nature of terrorism and the terrorist 
tactics that could be employed against radioactive waste shipments. As 
part of this on-going effort we have identified a range of risks 
associated with transportation of these materials. On two previous 
occasions I have testified before the House/Senate on the issues we 
discuss today.\5\
    I appreciate the opportunity to brief this body on our work 
regarding the potential of terrorism attacks against the shipments of 
spent nuclear fuel (SNF) and high-level radioactive wastes (HLRW) that 
may be sent to the proposed Yucca Mountain facility. I hope the 
following discussion will help you and the agencies involved in 
regulating the potential shipments to better understand the value of a 
social scientific perspective on SNF transportation. I will begin by 
discussing an issue that has been neglected in the debates since it was 
introduced nearly 10 years ago--the target rich environment that these 
shipments represent. Second, I will concentrating on several other 
pressing issues not yet addressed in any adequate form by the DOE 
relative to the Yucca Mountain project. Following this summary of 
neglected issues, this testimony will offer a systematic risk 
assessment protocol that can help overcome some of the deficiencies 
that the DOE has in their DEIS, EIS and SEIS documents, one critical 
basis of their planning efforts to date on Yucca Mountain shipments. 
Last, this presentation will suggest several ways that you may wish to 
review the transportation planning from an alternative perspective than 
that presented by the DOE. These alternatives are a way you may gain 
insightful evidence into the terrorism related threats these shipments 
face.
Target Rich Environment
    The DOE has for decades tried to find a way to manage the terrorism 
risks associated with the proposed Yucca Mountain project with little 
overall programmatic success. Over that extended time-frame the 
expenditures of rate payer and taxpayer funding for this agency and its 
efforts have produced some less than stellar social scientific results 
with respect to the risks of human initiated events. Make no mistake, 
what we take about when discussing the transport of SNF and HLRW 
shipments are potentially very dangerous cargos and highly symbolic 
targets. They are a danger to the transportation infrastructure, to the 
public health and to the long term economic viability of the 
location(s) where an accident and/or terrorist attack may transpire. 
This is a social fact, no matter the rhetoric used by the industry and/
or DOE to obscure this reality. Listen carefully to what is said and 
ask yourselves if it designed to obscure the issues from law makers, 
the public and the many stakeholders who are concerned about the 
shipment campaign necessary to stock the proposed Yucca repository.
    In contrast to the DOE and nuclear industry perspectives, what the 
critics say is typically designed to see any Yucca Mountain 
transportation program conducted in a manner consistent with NEPA 
requirements. That is, the suggestions made by these critics compel the 
DOE to follow the spirit and letter of this law when looking at the 
transportation planning for this particular large scale Federal 
program.
    One critical issue typically neglected by the DOE is the 
recognition of this shipment campaign as a danger to the public. In 
other words, any Yucca Mountain transportation program that becomes 
necessary to transport the Nation's stockpiles of highly radioactive 
waste is a security risk in and of itself. What DOE seemingly fails to 
understand is that this large scale Federal program will draw the 
attention of a wide variety of adversaries because of its symbolic 
value--briefly it is nuclear, it is Federal and it is controversial. 
The choice of a geographic location far distant from the production 
sites where SNF and HLRW are generated assists the adversaries since 
it:

  <bullet> Necessitates the movement of large numbers of shipments.

  <bullet> Allows for the adversary to chart movement of these 
        shipments in a predictable way.

  <bullet> Is exacerbated by choices the DOE makes. For example, 
        decisions that allow for hotter fuel, thus higher potential 
        harm, to be sent along these predictable corridors.

  <bullet> Will entail lengthy shipment routes that average over 2,000 
        miles of open, unprotected terrain where an adversary can pick 
        and choose the attack site.

    Collectively these and other avoidable/manageable risks can be 
discussed as constituting a target rich environment.\6\ The idea of a 
target rich environment is derived from military parlance. In this case 
we should consider:

  <bullet> The totality of the shipment routes as the battle space.

  <bullet> The attackers as potential adversaries with their choice of 
        weapons and tactics.

  <bullet> The shipments themselves as poorly defended, high value, 
        symbolic targets.

  <bullet> The perpetration of an attack against these shipments being 
        a highly symbolic statement by the adversaries.

    Under this definitional schema the DOE's transportation choices 
become increasingly important. This issue alone may suggest that 
sheltering the wastes in place,\7\ at their point of origin, may be a 
more optimal safety and security strategy since the highly radioactive 
wastes will be protected from entering the target rich environmental 
battle space. The next section of this testimony reviews ten more 
critical issues that should prompt reconsideration by this body when 
deliberating the logic of the Yucca Mountain project and its potential 
to present a target rich environment to adversaries, both foreign and 
domestic.
Pressing Issues
    Recently Nevada summarized a top ten list of issues of concern 
during a presentation at the foremost nuclear industry conference, 
Waste Management 2008.\8\ Since enactment of the NWPAA, and adoption of 
Assembly Concurrent Resolution 8 by the Nevada Legislature in 1987, 
NANP has consistently made recommendations to DOE regarding 
transportation safety and security, including many in this listing. The 
top ten measures are summarized below.

        1. Ship the Oldest Fuel First. Nevada has recommended that DOE 
        ship the oldest SNF first. This recommendation is supported by 
        NAS and GAO since they also recommend shipping older fuel 
        first. For example, shipping SNF that has been ``aged'' 50 
        years out of reactor, compared to shipping 5-year-cooled SNF, 
        could reduce radiological hazards significantly and assist in 
        lowering the risks of human initiated events.

        2. Shipments should be by Rail. Nevada has recommended that DOE 
        utilize rail as the preferred mode of transportation, while 
        acknowledging the serious impediments to developing rail access 
        to Yucca Mountain and from 24 of the 76 shipping sites. Based 
        on shipping site current capabilities, the share of SNF that 
        could realistically be shipped by rail may be 65-75 percent, 
        not the 90 percent projected by DOE. Thus, DOE must first admit 
        to the realities of the proposed shipment campaign and start 
        planning for large numbers of truck shipments under the 
        ``mostly rail'' shipment scenario. This would entail a serious 
        reconsideration of the safety and security requirements 
        necessary to protect shipments.

        3. Use Dual-Purpose Casks. Nevada has recommended that DOE base 
        its transportation system on use of dual-purpose 
        (transportable/storage) casks of a standardized design, with a 
        range of capacities resulting in loaded cask weights of about 
        125, 100, and 70 tons. In 1995, Nevada endorsed a previous DOE 
        transportation plan that would have used a multi-purpose 
        canister (MPC) system for transport and storage. DOE's current 
        proposal to use the TAD (Transport, Aging and Disposal) 
        canister system does not fully address this issue. This 
        operational choice by the DOE may actually complicate and 
        further constrain the transportation system.

        4. Use Dedicated Trains. Nevada has recommended that DOE use 
        dedicated trains for all rail shipments. Until DOE commits to 
        only using dedicated trains, DOE routing studies and risk 
        analyses must evaluate use of both dedicated and general 
        freight rail shipments. This policy choice by the DOE adds to 
        the complexity of any analysis, but more importantly without 
        the commitment of dedicated trains, the safety and security of 
        shipments may be compromised since securing SNF/HLRW shipments 
        in general freight poses significant challenges and greatly 
        increases the risk of terrorism or sabotage during transport.

        5. Commit to Meaningful Cask Testing. Nevada has recommended 
        that DOE and/or NRC conduct a meaningful full scale cask 
        testing program. DOE or NRC should conduct full-scale 
        regulatory tests on each cask design (or in cases of similar 
        designs, test one cask from each representative grouping). DOE 
        or NRC should also conduct a combination of extra-regulatory, 
        full-scale testing, scale model testing, component testing, and 
        computer simulations to determine cask failure thresholds. In 
        addition, DOE and/or NRC must ensure meaningful stakeholder 
        participation in all aspects of the cask testing program. Last, 
        DOE and/or NRC should also couple this testing with new 
        insights into the potential for human initiated events like 
        sabotage and terrorism (extra regulatory testing). 
        Understanding the potential releases from casks that could 
        result from a human initiated event rests on knowing how these 
        casks react to a variety of attack conditions.

        6. Use a meaningful NEPA process for all transportation 
        activities. Nevada has recommended that DOE use a credible 
        National Environmental Policy Act (NEPA) process to select a 
        preferred Yucca Mountain rail access corridor and rail 
        alignment in Nevada. Likewise the DOE should be compelled to 
        immediately conduct a national level transportation specific 
        NEPA document. This seems to be a necessary, sufficient, 
        logical and warranted step given the consequences of attacks 
        and the need for states input on such transportation decisions. 
        As the end point of a national transportation program, the 
        proposed Nevada rail corridor is critical in the overall 
        performance of the Yucca planning, so articulation of that plan 
        prior to consideration of the rail spur makes policy sense. The 
        safety and security challenges that arise from building an 
        extensive rail spur into the Yucca facility demand a robust 
        dialogue on the issues, one that NEPA requires and to date DOE 
        seems unwilling to offer any realistic approaches to studying.

        7. WEIB ``Straw man'' Shipment Routes. Nevada has recommended 
        that DOE select routes for the national transportation system 
        using a reasonable transportation methodology developed by 
        stakeholders. Transportation safety and security require that 
        DOE first plan what routes will be used so that meaningful 
        stakeholder input can be focused on the planning. The DOE 
        should follow a three-step process proposed by the Western 
        Interstate Energy Board (WIEB):

                a. DOE would designate ``straw man'' routes, preferably 
                in a national level transportation NEPA document.

                b. Member states would individually and collectively 
                evaluate the DOE routes, and then designate preferred 
                routes on a regional basis.

                c. DOE would then formally adopt the routes selected by 
                WIEB, and designate these routes (allowing exceptions 
                for use of designated alternative routes in emergency 
                situations) in DOE contracts with rail and highway 
                carriers.

        8. Start the Section 180(c) process. Nevada has recommended 
        that DOE implement the transportation planning and emergency 
        response training program, required under Section 180 (c) of 
        the NWPAA, through formal rulemaking. Absent rulemaking, the 
        State of Nevada believes that congressional action might be 
        needed to implement the program, as was the case with the Waste 
        Isolation Pilot Plant (WIPP) DOE-State cooperative 
        transportation planning program. The connection to safety and 
        security is especially important here, without systems of well 
        funded emergency response training the transportation program 
        is seriously flawed. One of the critical safety and security 
        issues states would be facing is this program becoming an 
        unfunded Federal mandate that requires them to provide 50 years 
        of training, protection and response capabilities for the Yucca 
        program. In terms of transportation program oversight, response 
        capabilities and organizational capacity, the proposed Yucca 
        program would entail three or perhaps four generations of 
        emergence response professionals, human capital and their 
        institutional memory, being imbued with relevant experience and 
        knowledge of the program's operational parameters.

        9. Respect State, Local, and Tribal Regulation. Nevada has 
        recommended that DOE support state regulatory enhancements to 
        manage transportation risks and address public perceptions of 
        transportation risks. These would include, but not be limited 
        to:

                a. Port-of-entry inspections and state escorts for DOE 
                shipments at DOE expense.

                b. States, in conjunction with local governments, may 
                also impose seasonal, day-of-week, and time-of-day 
                restrictions on DOE to address unique local conditions.

                c. Tribal governments may also regulate DOE shipments.

        10. Address issues associated with Terrorism and Sabotage. 
        Nevada has recommended that DOE address acts of sabotage and 
        terrorism against repository shipments. DOE has acknowledged, 
        in the Final EIS for Yucca Mountain, the potential 
        vulnerability of shipments to such attacks. Analyses by Nevada 
        contractors have concluded that the releases and consequences 
        could be many times greater than reported by the DOE, resulting 
        in catastrophic cleanup and recovery costs. NRC has likewise 
        neglected its mandate as a regulatory body with respect to this 
        issue. Specifically:

                a. DOE needs to systematically address terrorism issues 
                and risks in development of repository transportation 
                operational protocols.

                b. NRC has yet to respond to the specific terrorism 
                risks and impacts documented in Nevada's 1999 petition 
                for rulemaking (Docket PRM 73-10).

    Since today's hearing is directly related to the last issue of 
concern, the next section of this presentation will offer a methodology 
that could be used by the DOE, if it proceeds with the Yucca project, 
to assess and mitigate the risks of human initiated events like 
terrorism, sabotage, large scale protests and similar risk inducing 
events.
Human-Initiated Events and Systematic Risk Assessment
    Given stakeholder concerns and the threat of terrorism, this 
testimony recommends the development of a comprehensive human initiated 
event threat assessment process for the proposed Yucca Mountain 
transportation system.\9\ This process could be used by DOE to assess 
repository transportation impacts as part of its NEPA requirements, and 
in responding to the Western Governors Association (WGA) resolution on 
terrorism and sabotage.
    The following discussion identifies ways to improve current risk 
assessment techniques to meet the challenges of human initiated events, 
including terrorism, sabotage, induced or deliberate accidents, and 
violent protests. The recommended threat assessment process is 
presented as a series of industry standard methods and concludes with 
exemplar scenarios. The testimony is based only on open source data to 
develop these ideas, concepts and methodologies.\10\
Shipment Vulnerability Debate
    For three decades, risk analysts have debated the vulnerability of 
spent nuclear fuel shipments to acts of terrorism and sabotage. The 
details of the debates are documented in studies prepared for the State 
of Nevada in 1998 and 2005.\11\ The sabotage related attack scenarios 
evaluated in NRC and DOE analyses have changed little over the decades. 
The DOE/NRC analyses assume that a single spent fuel shipping cask is 
attacked at one location, by one group of attackers, using one weapon. 
The basic analyses assume that the attack breaches the cask and 
releases a small fraction of the contents. In general the agency 
sponsored analyses differ in estimates of the amount of radioactive 
material released, the details of the release and dispersal, the area 
contaminated, the population exposed, the resulting human casualties 
and the economic impacts.
    The first NRC regulations requiring physical protection of spent 
fuel shipments were issued in response to a 1977 draft assessment by 
Sandia National Laboratories (SNL). That assessment, and a follow-up 
study by SNL in 1980, indicated that sabotage of a shipment in an urban 
area could cause hundreds to thousands of casualties, and billions of 
dollars in economic losses and cleanup costs.\12\ The NRC issued 
interim physical protection requirements for spent fuel shipments in 
1979, and adopted the current system of regulations (10CFR73.37) by 
rulemaking in 1980.
    Subsequent studies sponsored by NRC and DOE sharply reduced the 
estimated causalities and economic losses from this original scientific 
work product. The debate over the consequences of a successful 
terrorist attack resumed in 1984, when the NRC, acting on the new 
sponsored studies, issued a proposed rule eliminating physical 
protection requirements for most spent fuel shipments. The NRC had 
concluded that the expected consequences of a successful attack in ``a 
heavily populated area such as New York City would be no early 
fatalities and less than one (0.4) latent cancer fatality.'' This NRC 
proposed rule was opposed by state governments, environmental groups 
and some nuclear industry sources. Three years later, the NRC 
terminated the proposed rule, without explanation. Throughout the 
1990s, however, the NRC continued to downplay attack consequences. At 
the same time, public discussion of vulnerability and consequences 
temporarily subsided.
    The controversy re-emerged nationally in 1995 as the DOE began the 
NEPA scoping process for the proposed Yucca Mountain geologic 
repository. State governments and other parties urged DOE to more 
directly address terrorism and sabotage in the Yucca Mountain 
environmental impact statement (EIS). In its role as a stakeholder, the 
state of Nevada filed detailed scoping comments on the impacts of 
terrorism against repository shipments during 1995, and published 
several supporting studies between 1996 and 1998. Based on these 
studies, Nevada's Attorney General filed a petition for rulemaking with 
the NRC in June 1999. The Nevada petition documented the vulnerability 
of shipping casks, and argued that shipments to a national repository 
would create greater opportunities for terrorist attacks and sabotage. 
The petition, which requested strengthening of the current regulations 
and a comprehensive reexamination of radiological sabotage, was 
endorsed by the Western Governor's Association (WGA). More than 8 years 
later, the NRC has still not officially responded to the Nevada 
petition.
    DOE acknowledged that shipping casks are vulnerable to terrorist 
attack in the 1999 Draft EIS for Yucca Mountain.\13\ In support of the 
Draft EIS, DOE sponsored a 1999 SNL study of cask sabotage, which 
demonstrated that high-energy devices (HEDs) were ``capable of 
penetrating a cask's shield wall, leading to the dispersal of 
contaminants to the environment.'' The SNL study also concluded that a 
successful attack on a truck cask could release more radioactive 
materials than an attack on a rail cask, even though rail casks would 
contain, on average, up to six times more SNF than truck casks.\14\
    In the 2002 Final EIS for Yucca Mountain, DOE updated its sabotage 
analysis, assuming more highly radioactive SNF, a larger respirable 
release, and a higher future average population density for U.S. 
cities.\15\ In this document the DOE estimated that a successful attack 
on a truck cask in an urbanized area under average weather conditions 
would result in a population dose of 96,000 person-rem and 48 latent 
cancer fatalities. For a successful attack on a large rail cask, DOE 
estimated a population dose of 17,000 person-rem and 9 latent cancer 
fatalities. In neither case did DOE evaluate any environmental impacts 
other than health effects, and ignored the social-economic impacts of a 
successful act of sabotage. While the DOE did not specifically estimate 
cleanup costs after such an attack, the FEIS states that clean-up costs 
following a worst-case transportation accident could reach $10 billion.
    Analyses prepared for the state of Nevada by Radioactive Waste 
Management Associates (RWMA) calculated that sabotage impacts could be 
considerably greater.\16\ RWMA replicated the DOE Final EIS sabotage 
consequence analyses, using the RISKIND model for health effects and 
the RADTRAN model for economic impacts, the SNL study average and 
maximum inventory release fractions, a range of credible values for the 
gap inventory of Cs-137 and considered a range of population densities 
and weather conditions.
    RWMA concluded that an attack on a truck cask using the same common 
military demolition device assumed in the DOE analysis could cause 300 
to 1,820 latent cancer fatalities, assuming 90 percent penetration of 
the cask by a single blast. For the same device used against a large 
rail cask, RWMA estimated 46 to 253 latent cancer fatalities, again 
assuming 90 percent penetration. The major radiological health impacts 
of an attack would be caused by the downwind dispersion of respirable 
material (mainly particles with a diameter less than 10 microns) that 
could be ejected from the damaged cask. Depending upon the 
meteorological conditions present at the time of an attack, the 
respirable aerosol of radioactive materials could affect an area of 10 
square kilometers (3.9 square miles) or more. RWMA estimated cleanup 
costs ranging upward from $668 million for the rail incident, and $6.1 
billion for the truck incident, to more than $10 billion. Full 
perforation of the truck cask, likely to occur in an attack involving a 
state-of-the art anti-tank weapon, could cause as many as 3,000 to 
18,000 latent cancer fatalities, and cleanup and recovery costs could 
far exceed $10 billion.
    In October 2007, DOE published the Draft Supplemental Environmental 
Impact Statement for Yucca Mountain (DSEIS) and the Draft Rail 
Alignment Environmental Impact Statement (RA DEIS).\17\ Both the DSEIS 
and the RA DEIS address the impacts of sabotage against repository 
shipments. In both volumes DOE states that it has ``analyzed plausible 
threat scenarios, required enhanced security measures to protect 
against these threats, and developed emergency planning requirements 
that would mitigate potential consequences for certain scenarios. DOE 
would continue to modify its approach to ensuring safe and secure 
shipments of spent nuclear fuel and high-level radioactive waste, as 
appropriate, between now and the time of shipments. For the reasons 
stated above, DOE believes that under general credible threat 
conditions the probability of a sabotage event that would result in a 
major radiological release would be low'' (DSEIS, p. 6-22; RA DEIS, p. 
4-314, emphasis added).
    Acknowledging ``the uncertainty inherent in the assessment of the 
likelihood of a sabotage event,'' the DSEIS and RA DEIS evaluated 
events in which ``a modern weapon (high energy density device)'' is 
used to ``penetrate a spent nuclear fuel cask.'' DOE evaluated the 
consequences of events occurring in representative urban, suburban, and 
rural areas. Based on new research by Luna (2006) \18\ and on European 
studies, the DSEIS assumed that the single weapon attack studied would 
result in a smaller release of respirable material than DOE assumed in 
the 2002 FEIS. For a sabotage event against a truck cask in an urban 
area, the DSEIS reports consequences about half what DOE estimated in 
the 2002 FEIS--a population dose of 47,000 person-rem, and 28 latent 
cancer fatalities. For an attack on a large rail cask in an urban area, 
the DSEIS reports consequences about double what DOE estimated in the 
2002 FEIS--a population dose of 32,000 person-rem, and 19 latent cancer 
fatalities.
    The DSEIS does acknowledge the aforementioned State of Nevada 
analyses under the heading ``Transportation Sabotage: An Opposing 
Viewpoint.'' Despite this note in the document, and as in earlier DOE 
analyses, the DSEIS does not provide specific information on:

  <bullet> The land area contaminated.

  <bullet> Economic losses due to disruption of normal activities.

  <bullet> The cost of cleanup.

    As of 2008, the State of Nevada is preparing its own detailed 
reassessment of transportation sabotage impacts. To date, Nevada has 
submitted comments on the DSEIS sabotage consequence analyses (January 
10, 2008). In those comments, Nevada emphasized that the DSEIS 
continues to ignore the consequences of a terrorist attack using one or 
more weapons that completely perforate the shipping cask, or a 
combination of weapons specifically designed to breach, damage, and 
disperse the cask contents. Such an attack could result in impacts more 
severe than those evaluated by DOE.
    The new DOE-sponsored research does not address such impacts. In 
fact, the Venturi effect created by full perforation of a shipping cask 
would likely negate the reduction in impacts claimed in the Luna (2006) 
study. In its key conclusion, DOE asserts that the factors identified 
by the State of Nevada ``could affect the chances of success but not 
the outcome of the sabotage event.'' \19\ DOE presents no evidence in 
the DSEIS, the RA DEIS, or any of the cited references to support that 
assertion.
    Moreover, the DSEIS ignores evidence, including terrorism studies 
funded by DOE, that this agency's activities may be particularly 
attractive symbolic targets for sabotage or terrorist attacks. The 
DSEIS also ignores past instances in which human errors in cask 
fabrication and cask loading actually occurred during NRC-licensed 
shipments, and created conditions that could have compromised cask 
performance in the event of a sabotage event. Likewise, the DSEIS 
ignores Nevada's argument that unique local conditions such as 
proximity of the existing mainline railroads to urban location like 
downtown Las Vegas and Reno-Sparks must be factored into consequence 
assessments, resulting in potential multi-billion dollar cleanup costs 
and business disruption impacts.
    In summary, all of the consequence assessments so far conducted by 
NRC, DOE and the State of Nevada assumed single-phase attack scenarios. 
None of these consequence assessments have evaluated the effects of an 
attack involving the simple impact-exacerbating tactics identified by 
the U.S. Army peer review report more than two decades ago: namely the 
combined use of a breaching device and a dispersal device, or use of 
multiple breaching devices. None of these consequence assessments have 
incorporated insights obtained from the 1998 testing sponsored by 
International Fuel Containers, Incorporated, at the U.S. Army Aberdeen 
Test Center in which a newer generation weapon, a TOW II warhead, was 
used. Most significantly, none of these consequence assessments have 
evaluated any of the impact-exacerbating tactics studied by counter-
terrorism experts in the post-9/11 threat environment. Credible hijack 
and control scenarios, specialized truck bomb scenarios, and/or 
concealed weapons like IED's (improvised roadside devices), coupled 
with insider assistance, diversionary attacks, and/or suicide tactics, 
could potentially result in radiological consequences far greater than 
those previously estimated by NRC, DOE or the State of Nevada.\20\
WGA Resolution
    The primary motivation for this suggest analytical format, prior to 
publication of the DOE's DSEIS, was the WGA resolution regarding Yucca 
Mountain transportation. The WGA represents nineteen Western states and 
three territories. The association allows state political leaders to 
address critical policy issues in a wide variety of areas. The WGA 
organization thus helps state leaders develop strategies to address 
complex issues facing western states.\21\ WGA has been actively 
involved in nuclear waste transportation planning for two decades. In 
2007, WGA renewed and revised a policy resolution (07-2) on the risks 
of terrorism and sabotage against repository shipments.\22\ The 
original resolution behind this new document had been adopted in 1998.
    WGA Resolution 07-2 notes that in the aftermath of the September 
11, 2001 terrorist attacks, the altered threat environment calls for 
new, more comprehensive terrorism assessment tools. The resolution 
calls upon the NRC to ``fully address the consequences of attacks 
against all components of the nuclear waste handling and transport 
system, to include: attacks against transportation infrastructure, the 
theft of a shipment, use of high-energy explosives against a shipment 
cask, and direct attacks against a shipment cask using antitank 
missiles or other armament that could cause a loss of containment.'' 
WGA further requests that NRC ``strengthen its efforts to share 
information with state and local governments regarding spent fuel 
shipment vulnerabilities and consequences, `` recognizing that 
``sharing of information must be conducted within the framework of 
preventing the release of sensitive or classified information to 
individuals without a need to know.''
    The WGA resolution notes that DOE has acknowledged the 
vulnerability of shipments in the 2002 Final EIS for Yucca Mountain. 
The resolution states: ``DOE should continue to address acts of 
sabotage and terrorism in its NEPA documents, and should incorporate 
terrorism/sabotage risk management and countermeasures in all DOE 
transportation plans, protocols, and practices relating to operation of 
a repository, interim storage facility, and/or intermodal transfer 
facility, including liability for costs and damages resulting from 
terrorism/sabotage against nuclear waste shipments. DOE should share 
security-related information with state and local governments to the 
maximum extent practicable.'' \23\
Comprehensive Threat Assessment
    Driven by regulations and the need to protect the public from 
catastrophic events, the nuclear industry has a continuous quality 
improvement process for security against human-initiated events. The 
two recently issued DOE NEPA documents, the Draft Supplemental EIS and 
the Draft Rail Alignment EIS, employ only some of the methods used by 
the industry to protect fixed assets like reactors, but the not 
expressly documented analytical method employed by DOE for the Yucca 
Mountain transportation effort does not use state-of-the-art assessment 
techniques, nor does the assessment effort meet industry standards for 
fixed site security.
    The problem with the DOE's approach to the NEPA documents (SEIS's) 
is two-fold: How to assess the threat of human-initiated events against 
spent fuel shipments to Yucca Mountain nationally, and second, for the 
proposed Caliente rail line in Nevada. Once again, human initiated 
events refer to the range of malevolent acts that could be perpetrated 
on the shipments--including such events as terrorism, sabotage, 
deliberate accidents and violent protest movements.\24\ Shipments refer 
to the various means that will be used to move SNF and HLRW into the 
national transportation system/proposed Caliente rail corridor from 
their current storage facilities at commercial nuclear power plants, 
DOE weapons production sites, and from other DOE serviced/regulated/
owned source facilities.
    This presentation recommends specific and detailed methodologies 
that are used in social science and industry that, that taken together, 
could constitute a comprehensive threat assessment for the proposed 
Yucca Mountain transportation system:

  <bullet> The identification of relevant human-initiated events by use 
        of Meta analysis.

  <bullet> Development of a systematic multi-level assessment of human-
        initiated event risks for the transportation modes, facilities, 
        corridors, etc.

  <bullet> A resultant matrix of human initiated events and attack 
        scenario exemplars suitable for DOE study and consideration in 
        NEPA documentation.
Human-initiated Events
    Several large categories of human-initiated events can be 
identified across the major components of the transportation system and 
relative to the known or expected characteristics of the Yucca Mountain 
transportation system. These include terrorism, sabotage, accidents and 
protests.\25\ The table below lists these four event categories and 
notes how they may apply to the four major transportation components 
derived from the DOE ``Transportation Concept of Operations'' and DOE 
``Draft National Transportation Plan''.\26\
Figure 1: Human Initiated Event and transportation Activity Matrix

----------------------------------------------------------------------------------------------------------------
                                                Origination       Transport         Transfer       Destination
              Threat Categories                    Point          Activities       Facilities       Facilities
----------------------------------------------------------------------------------------------------------------
Terrorism Attacks                                          X                X                X                X
----------------------------------------------------------------------------------------------------------------
Sabotage                                                   X                X                X                X
----------------------------------------------------------------------------------------------------------------
Deliberate Accidents                                       X                X                X                X
----------------------------------------------------------------------------------------------------------------
Violent Protests                                          --                X                X               --
----------------------------------------------------------------------------------------------------------------

    Terrorism attacks are defined here as those malevolent actions that 
are designed to cause significant symbolic events, a significant 
incident that acts as a statement in opposition to the shipments or an 
act that directly attacks the transports, casks, facilities for 
handling shipment casks or the personnel that are involved in the four 
categories of transportation infrastructure noted above. These 
terrorism acts will range on a continuum from symbolic events that are 
not intended to result in a release of radioactive materials all the 
way up to sophisticated full-scale assaults designed to release/
disperse the casks radioactive contents. These attacks may be motivated 
by a political/social/religious agenda, attacks prompted by an anti-
Federal government agenda, attacks based on the deliberate creation of 
economic dislocations in the energy sector, or attacks that are 
inspired by a social issue. These attacks may be perpetrated by foreign 
nationals, American citizens, or any combination of the two.
    Sabotage is defined herein as those malevolent activities that 
could interfere with the safe and secure loading/unloading and 
transportation of the nuclear wastes. Examples may include the use of 
insider information, employee tampering with casks, large scale labor 
problems, and/or deliberate contamination of casks/transports to delay 
shipments. Sabotage can also be defined as activities detrimental to 
the safe and secure transport of these materials. Sabotage acts will 
also exist on a continuum from attacks not intended to damage a cask up 
to an act designed to release/disperse the inventory of radionuclides. 
The motives for such attacks are considered to be the same as for the 
terrorist attacks and acts of sabotage may be perpetrated by the same 
range of adversaries.
    Deliberate Accidents are defined here as those malevolent human-
initiated events that result in endangerment of the shipments, their 
casks, or the overall shipment campaign. These may come from deliberate 
acts by an individual or small group interfering with shipment 
operations and from negligent acts of those within the transportation 
system that can create a potential, minimal or significant release of 
the highly radioactive contents. Like terrorism and sabotage, these 
acts will also exist on a continuum from attacks not intended to damage 
a cask up to an act designed to release the inventory of radionuclides. 
The motives are considered to be the same as for the terrorist attacks 
and they may be perpetrated by the range of adversaries.
    Violent Protests are defined as those potentially malevolent 
activities that could interfere with the safe and secure transportation 
of the nuclear wastes. These protests may also be used as a rouse to 
hide the intentions of malicious actors who seek to commit acts of 
terrorism or sabotage by hiding their actions in the larger protest 
group. This category is included to recognize the fact that these 
shipments will face significant opposition from protesters, based on 
the experiences of other shipment campaigns around the world. Such 
large scale protests may endanger the shipments and/or public health by 
delaying shipments and increasing routine doses to the population. 
These acts will also exist on a continuum from collective acts not 
intended to damage a cask up to an act designed to release the 
inventory of radionuclides. The motives for such attacks are considered 
to be the same as for the terrorist attacks and they may be perpetrated 
by the same range of adversaries.
Threat Assessment Process
    A range of threat assessment procedures should be conducted prior 
to commencement of shipments and continued during the shipping 
campaign, in a way that measures risk over time, and enables 
assessments to be continually updated.\27\ The longitudinal risks may 
also need to be assessed because of a rise in energy related terrorism 
acts,\28\ and as part of the on-going DOE obligation to operate under 
procedures equivalent to the NRC physical protection regulations 
(10CFR73.37), although DOE is not necessarily subject to these 
particular NRC regulations.
Meta-threat analysis
    The analysis-in-depth suggested herein starts with consideration of 
a wide range of potential threats and consequences vis-a-vis shipments. 
Such a systematic assessment would first involve an exhaustive meta-
analysis of the literature relative to attacks on shipments of 
hazardous materials, including SNF and HLRW. This process would need to 
account for emerging threats and tactics being employed by terrorists/
adversaries around the globe. It would also include IAEA (2007) 
guidance documents on the subject and documentation of threats that 
have arisen in the global theater where terrorists/adversaries operate. 
This data should then be vetted with outside stakeholders, not just 
internal DOE security personnel, to define the various challenges that 
the Yucca Mountain transportation effort could face over the five 
decade life span of the proposed project. Emerging from this effort 
would be a pro-active catalogue of transportation risks and issues that 
should inform a NEPA analysis, not just cherry-picked scenarios that 
react to the latest criticisms, from Nevada studies, government 
analysis and/or those generated by the National Academy of 
Sciences.\29\
Vulnerability Assessment Process
    Transportation security for a cargo as dangerous as the highly 
radioactive SNF and HLW should prompt planners to use the best 
available techniques to reduce threats from human-initiated events. 
Typically security professionals use four levels of vulnerability 
assessment techniques to protect nuclear facilities and other critical 
industrial applications.\30\ Each of several techniques has strengths 
and weaknesses but with the combined (triangulated) use of all of these 
techniques, taken together as a NEPA inspired research strategy, allows 
for improvements in security and better defines risks. That is, the use 
of more than one of these offers a more robust methodological approach 
to the task at hand, all of them allows for a form of defense-in-depth, 
a common principle in nuclear security.
    These four techniques offer a comprehensive risk identification and 
mitigation potential for security (and safety) issues relative to the 
proposed Yucca Mountain transportation program. In order to use these 
techniques it is first useful to identify where they may apply to the 
overall transportation effort. The following chart helps situate these 
four techniques relative to the four major components of the 
transportation infrastructure.
Figure 2: Transportation analysis-in-depth: Risk reduction strategy
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The examination of how these four identification, reduction and 
mitigation techniques can be used in the systematic assessment of risk 
for the Yucca Mountain project, the analysis-in-depth risk reduction 
concept noted above, will require some details on what each technique 
will entail in real world practice.
    First, it is critical that they should be considered an integrated 
system of analysis, albeit one with some level of analytical hierarchy. 
The following chart demonstrates their interrelationship and the 
preferred hierarchy.
Figure 3: Analysis-In-Depth Concept; Sub-Components
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Security Surveys. Security surveys are the first level in this 
overall transportation risk assessment schema. These surveys represent 
a physical examination of the transportation security arrangements and 
typically use a check list approach to the examination of risks. This 
allows for the standardization and management of the assessment 
process.\31\ These checklists aid security efforts and provides for a 
consistent, albeit unimaginative examination of risks.\32\ This form of 
security management is typical for any number of industrial 
applications and has a long tradition in security. At a minimum this 
survey technique needs to be performed at various levels of the 
proposed Yucca Mountain transportation effort (for example at 
origination sites, for transportation efforts, at in-transit transfer 
facilities, and for destination conveyance infrastructures).
    The problem with this technique is that it is typically not focused 
on the adversaries and does not necessarily encourage thought relative 
to new countermeasures as risks change over time. In fact surveys 
become reified and represent a binary (good/bad, black/white) approach 
to security and risk mitigation. They seem to imply that risks will 
somehow emerge from the world and show themselves during such surveys. 
Checklists are also fixed lists of observations to be conducted and 
typically closed to emerging risks that have heretofore not been known 
or overlooked. The list becomes what human assets are fixated on, not 
focusing security personnel on the creative protection of the cargoes, 
rather making them focus on paperwork. These surveys are often misused, 
especially when they come to represent ways to manage people and ensure 
compliance to a security regime or regulations.\33\
    Security surveys have a place in the overall transportation efforts 
but they are not in and of themselves a cure for the risks that 
transportation efforts to Yucca Mountain will face. They represent a 
tool that should be employed by those involved in the transportation 
effort and at all levels of the transportation infrastructure. They are 
the first line of defense since they are carried out traditionally by 
line staff and management. They also require periodic updates, 
monitoring and analysis as to their ability to meet current challenges 
and contemporary threats. They represent the first line of a 
transportation specific defense-in-depth concept yet to be adopted by 
DOE.
    Risk Management. The second step in the analysis-in-depth risk 
assessment process is to use well understood and common place risk 
management techniques. The process of risk management is fairly 
straightforward. In the first phase of the risk management process the 
analyst begins with identification of the assets in need of protection 
and ends with the identification of safeguards and countermeasures.\34\ 
Thus, the organization using the risk management technique should 
basically follow the flow of the following interrelated items:
Figure 4: Risk Management Process
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    After this largely abstract intellectual task is completed, the 
organization then uses an expert opinion process to rank order 
priorities and probabilities are assigned to each sub-phase noted 
above. Typically this involves predominantly quantitative outcomes and 
these outcomes are summarized in tables, charts, and the like. 
Thereafter the transportation management team would appropriate, and 
field, security resources accordingly. As implied by the chart, the 
process begins anew once this final task is completed and in practice 
should become a never ending series of assessments designed to improve 
the overall robustness of security.
    Risk management is not without critics in the nuclear field and 
elsewhere. Some argue that the traditional ways of conducting risk 
management need to be more quantitative or address more aspects than 
are traditionally used in such analysis,\35\ while others note the 
political nature of the use of risk management.\36\ A systematic 
examination of risk management also reveals some issues of concern.\37\ 
Once again this technique is typically binary and closed to outside 
input. For example, there is rarely outside input on contemporary 
threats and vulnerabilities since risk management rests on known 
(historic) security issues. This means that risk management is 
reactive, not proactive in mitigating risks. This also usually means 
that risk management is done without the creative spirit that the 
terrorists/adversaries bring to the table. If it is initiated, managed 
and used by organization staff in agencies (for example the NRC and 
DOE) and represents the collective consensus of these sometimes limited 
perspectives.
    Risk assessment is rarely the creative expression of alternatives. 
Risk management is management of risks by managers and for managers. It 
is not done from alternative perspectives (for example the 
adversaries). The assignment of probabilities in risk management is 
often based on fantasy-like numbers that are created out of thin air to 
placate internal constituencies and/or to serve political purposes. 
Once these probabilities are codified in tables, charts and the like, 
they become real in their consequences as everyone involves start to 
believe they are real and act accordingly.\38\ The process itself and 
especially the documents that emerge create overconfidence in the 
numbers, a false sense of security that is problematic in the face of 
real world creativity from adversaries.
    Risk management has its place in transportation planning for the 
potential Yucca Mountain program and the problems noted here do not 
negate its usefulness. As a technique it is not a be all and end all in 
risk assessment. The use of quantitative data helps policymakers 
believe in a program, but that is a two edged sword.
    Design Basis Threat (DBT). The third level of the analysis-in-depth 
paradigm is the DBT. In some respects the DBT is a technique not that 
unrelated to risk management.\39\ A DBT is a proxy threat, a 
hypothetical scenario based on descriptions of the threats found at the 
time of its articulation.\40\ The DBT sets the standards for security 
personnel by defining the training, weapons and tactics that a 
terrorist/adversary group could use to attack nuclear facilities. The 
best practices of DBT usage call on its proponents to design security 
to face the contemporary threats, recognizing vulnerabilities and to 
allocate resources accordingly.\41\ DBTs tend to focus on 
infrastructure and physical security hardware, more so than risk 
management.\42\
    The published DBT details for nuclear power plants serve as an 
illustration of this process and its outcomes. The DBT has been used 
since the 1970s in the United States and is not a single process. It 
has also been used in various ways by different countries as the IAEA 
seeks to standardize the process around the globe. First and foremost 
it is the basis of physical protection systems (PPS) for fixed sites. 
It also serves as the means by which an evaluation of that PPS is 
conducted. Since 2000 the IAEA has promoted the DBT and provides (in 
conjunction with Sandia National Labs) nine steps for the process of 
development, use and maintenance of a DBT system. Besides the basic 
facts noted in this paragraph certain scholars \43\ suggest that a DBT 
generally includes:

  <bullet> Identification of the roles and responsibilities within and 
        connected to the organization.

  <bullet> Development of operating assumptions for the usage of the 
        DBT.

  <bullet> Identify a range of potential generic adversary threats.

  <bullet> Identify a list of threat characteristics.

  <bullet> Identify sources of threat information.

  <bullet> Analyze and organize threat-related information. (Steps one 
        to six create a threat assessment document).

  <bullet> Develop threat assessment and gain consensus about said.

  <bullet> Create a national level DBT.

  <bullet> Introduce the DBT into the regulatory framework.

    The DBT process, and specifically its first six steps, should yield 
both motivations for attacks, intentions of the attackers and 
characteristics of the attacking force. These are then matrixed across 
a range of adversaries (protesters, activists, extremists, criminals 
and terrorists). In most cases these are created from assumptions based 
on historic data and firmly rooted in a philosophy that insists that 
all threats must be ``credible.'' This philosophy is counter intuitive 
to 9/11 threat realities and may blind the creators to new/emerging 
threats or threats that are evolving as past threats change to meet new 
circumstances. Typically the DBT philosophy does promote the 
continuation of the status quo.
    The NRC and DOE have updated their DBT in the aftermath of the 9/11 
attacks, once in 2003 and again in 2004, both times in a process 
outside the normative framework for such adjustments. Specific details 
are not known for these classified documents but the expectation is 
that they will take years to implement a new DBT and that the final 
product was diluted as a result of industry concern over costs. 
Likewise, the DBT has been criticized since it does not meet the threat 
threshold the 9/11 attacks presented.\44\
    DBTs have their critics and the criticisms run along similar lines 
to those for the risk management techniques.\45\ The DBT is a typically 
binary process and closed to outside input, primarily for security 
reasons like classification of results. Because of the closing of 
discussion for security reasons, there is rarely outside input on 
contemporary threats and vulnerabilities. Second, like risk management 
the DBT becomes a reactive device. As a proxy attack strategy it is not 
proactive in mitigating risks. Similar to risk management the DBT 
process is dominated by the organization staff. The DBT represents the 
collective consensus of these limited and sometimes self-serving 
perspectives. It does not represent a creative expression of 
alternatives and rarely addresses emerging threats. Once the DBT is 
determined it becomes real in its consequences for the agencies using 
this technique. The threat is what the DBT says it is, nothing more or 
nothing less. The DBT provides insider organizations, although not the 
public and other stakeholders, with a sense of confidence that may be 
disproportional to the risks and reality of a changing world. It allows 
an existing organization like the DOE to define what the threats are, 
and once the DBT is constructed, to maintain a faith in their 
assessments, a self fulfilling belief system that can be dangerous when 
one is protecting something as potentially dangerous as highly 
radioactive wastes.
    In some cases critics have argued for a layered approach to DBT 
implementation, a strategy that recognizes financial resource 
differentials in government's responsible for implementation.\46\ This 
criticism is primarily focused on less developed nations where the 
resources necessary to protect nuclear assets are not readily 
available. In the case of advanced industrial nations the AHARA--as 
high as reasonably achievable--principle behind such debate suggests 
that these nations should achieve the IAEA's goals of securing 
radioactive materials against human-initiated events. These less than 
reasonable security debates do not apply to the United States, a 
country rich in resources.
    Additionally, as noted DBTs are supportive of the status quo. They 
seem to say to everyone involved we are doing good, look how hard we 
worked to define the threats and our perceptions of the vulnerabilities 
we face are excellent. It ignores alternative threats since they are 
deemed too improbable or they are not perceived at all--they are deemed 
a very subjective ``uncreditable.'' The DBT seems to communicate to one 
and all that whatever terrorists/adversaries can do poses a lesser 
threat than our proxy measure (DBT), a dangerous oversimplification in 
the post-9/11 world of nuclear security.
    DBTs also take time to change, they are not assessed systematically 
but rather on an as needed basis. The DOE mandated and NRC inspired 
changes in implementation for weapons production facilities and 
commercial nuclear power plants after the 9/11 terrorist attacks 
illustrate this delay--changes in the DBT were revised in 2003, changed 
again in 2004 and are still undergoing implementation as of the seventh 
anniversary of those attacks with an expected date for completion being 
in 2008.\47\ Supporters argue that a change in the DBT is costly but 
critics point out so too would be a successful attack.
    The DBT is a step forward from past risk assessment practice and 
one that allows transportation managers to create a proxy for security 
to train against. It is different than security surveys and risk 
management, but it is not the single magic bullet to security. Rather 
the DBT is one tool in the overall toolbox for risk mitigation. The 
fourth technique, adversarial vulnerability assessment, helps with some 
of the limitations noted for DBTs.
    Adversarial Vulnerability Assessments (AVA). One critical omission 
of all three of the techniques detailed above is bringing the motives, 
mindset and creativity of the adversary into the risk equation. Those 
who would wish to perpetrate a human-initiated event are far more 
resourceful than the security surveys, risk management and DBT 
techniques seemingly give them credit for. To accomplish the task of 
recognizing such creativity Johnson (2005) \48\ advises that it is 
necessary to conduct a ``mental coordinate transformation.'' This means 
that when assessing risks for critical SNF and HLW transportation 
infrastructure it is necessary to think like the perpetrators, not like 
security professionals, not like energy company officials, and not like 
oversight agency management.
    The major barrier faced by security professionals and risk managers 
in doing this task is that they are rarely prepared for this mental 
transformation. As a result of organizational socialization they 
cannot, or will not, use the opportunity to actively look for threats, 
to engage in the alternative and/or to think like the terrorist, 
saboteur or other perpetrator of human initiated events. They have 
difficulty letting the opponent define reality, a reality that is 
securely planted in their professional lives by the very industry they 
seek to protect--one that for many reasons does not admit gleefully to 
risks, threats or terrorism as a potentiality. Altering Johnson's 
(2005) \49\ approach for the proposed Yucca Mountain transportation 
project would entail the necessary mental transformation for the NEPA 
assessment. This is best accomplished by the following steps:

  <bullet> Understand the full scope of the transportation effort. This 
        includes all aspects, parts, components and variables in the 
        transportation system. This is difficult since the totality of 
        the system is enormous and in many cases individuals are asked 
        to transform their thinking while working on small parts of the 
        overall picture. Still it is necessary since the parts are 
        integrated and the risk synergy for the total system far 
        outweighs the singular transportation component risk level.

  <bullet> Brainstorm in a creative, innovative, and multi-level manner 
        that allows you to not just identify a threat, but to focus 
        attention to a range of threats.\50\ Once the totality of the 
        program is recognized, members of a risk focus group are 
        gathered to work on the issues, share their insight into the 
        risks, and to brainstorm on threats facing this transportation 
        system. These discussions would reveal attack exemplar 
        scenarios tied to risks, not singular as is the case of a DBT, 
        but multiple threats and with multiple consequence profiles.

  <bullet> Once attack sceneries are identified, the group starts to 
        edit these down to essential elements and exemplars that 
        demonstrate vulnerabilities of the system, not just a single 
        part of this complex transportation effort. This group would 
        prioritize potential attacks which represent a range of 
        possibilities, consequences and potential responses. These 
        alternatives must be developed, articulated and vetted with a 
        wide range of constitutes/stakeholders to gain additional 
        insight and to reduce the problems of group think and 
        collective risk blindness that sometimes arise in small groups.

  <bullet> The last step is to determine the feasibility of these 
        attacks by means of a range of attack articulations, analyze 
        radiological consequences of these alternatives and devise 
        countermeasures to mitigate these risks.

    Several provisos are offered to those considering adopting AVA 
methods. First and foremost, let those involved be creative.\51\ In the 
case of terrorism threats, the changes in technology, availability of 
information and tactical knowledge of adversaries demand that those 
involved be allowed freedom to achieve this creative approach to risk 
assessment. Historical data, and historically situated risk 
perceptions, are less significant in the face of global social 
challenges like currently are transpiring, a point often missed by 
those who work in formal organizations. AVA risk measurement is 
predicated on creativity which must be combined with organizational 
experience, technological skills and bureaucratic imagination. All of 
these tasks are difficult for many formal organizations to engage in 
but the challenges they pose are important to overcome.
    Johnson (2005) \52\ advises that creativity is the domain of 
individuals, not formal organizations. Good group dynamics can enhance 
this individual creative spirit and groups need to be involved to 
prioritize and determine feasibility. One of many techniques to help 
this creative process is to reverse engineer the attacks in an effort 
to solve problems that have yet to arise. This is a particularly cogent 
piece of advice given the elongated timeline for the proposed Yucca 
Mountain project and points out the need for a systematic longitudinal 
analysis paradigm so that data can be gather to inform the processes.
    One of the most interesting advisements offered is that the system 
conducting this analysis must bring in outsiders and not use the 
typical cast of insider characters who have vested interests in the 
status quo. The use of the same old energy industry insiders and the 
same supporting industrial infrastructure insiders ensures the same old 
results. It does not offer a creative analysis of threats. Furthermore 
it is necessary to combine these outsiders with creative insiders in 
the brainstorming groups and set ground rules for all the contributors. 
These ground rules have to allow for all manner of input and treats 
each contribution as significant, be it from inside or outside the 
typical organizational patterns of thought. Johnson (2005) \53\ offers 
some AVA imperatives as guidance. These have been modified to the Yucca 
Mountain project and include:

  <bullet> Minimize the conflicts of interest and reduce wishful 
        thinking on the parts of group members.

  <bullet> To promote creativity in the group processes, the system 
        must not punish those who creatively deconstruct its 
        assumptions, bias, and working relationships.

  <bullet> The overall group and its work product need to be assessed 
        by a second group of outsiders, called assessors. These 
        assessors should be independent from the Yucca Mountain 
        project, experienced in finding problems and offering 
        solutions, and in no small measure represent the public 
        stakeholders for the project.

  <bullet> All parties involved must discard the binary way of viewing 
        risks. This means individuals need to be able to work within 
        the gray areas of life, not the rigid confines of an 
        engineering perspective or other professional paradigm that 
        promotes the status quo philosophy.

  <bullet> The group members are tasked with finding vulnerabilities 
        and risks, which is their primary purpose. As such they should 
        not be encouraged to find no vulnerabilities or no risks, a 
        philosophy that is counter-productive to the AVA process.

  <bullet> AVAs are not a pass or fail technique for the group as a 
        whole and the group participants must be encouraged to reject 
        this form of thinking. The point is to find vulnerabilities and 
        risks, not fix them per se. Thus, finding these vulnerabilities 
        and risks is a good outcome, not a negative outcome of the 
        group process.

  <bullet> The process must be done before transportation planning is 
        fixed in policy, done again when plans are finalized but before 
        transport begins, and done periodically thereafter (for example 
        bi-annually or annually).

  <bullet> AVAs are a holistic approach to vulnerability identification 
        and risk mitigation. They should not be done in isolation (for 
        example for the rail system alone).

  <bullet> The conveners, participants and/or the assessors should not 
        be restricted as to time, budget or attack possibilities. They 
        should be allowed to creatively face the social context of 
        global conditions relative to terrorism, sabotage and other 
        human initiated events.

  <bullet> The group should be encouraged to never underestimate the 
        resourcefulness, creativity or commitment of the adversary. 
        They should remember it is the adversary that defines the 
        threat, not the protectors.

  <bullet> The group should establish a hierarchy of threats, simplest 
        to most complex, least severe radiological consequences to most 
        severe radiological consequences. They need also look at 
        contingencies that would take a second tier threat and make it 
        a major radiological event. This is one area where DBTs seem to 
        fail, they are based on one threat and do not necessarily 
        account for such upgrades and modifications.

  <bullet> Everyone should assume that adversaries know what security 
        arrangements are in place, have the creativity to overcome 
        these and/or will exploit those instances where the system does 
        not meet its presumed minimum operation levels. Systems fail 
        and human security systems fail to protect even the most 
        critical of assets over time.

  <bullet> A range of attacks should be considered by this group: 
        terrorism, sabotage, probes of the security system, insider/
        outsider/insided-outsided threats, social engineering, and the 
        many other varieties of human initiated events that could 
        transpire.

  <bullet> The longer a system is in place, the higher its 
        vulnerability and risk to attack. Vigilance decreases with 
        familiarity, hence the systematic reevaluation of risks becomes 
        increasingly important over the lifespan of the program. It is 
        equally important to note that once an AVA is complete, perhaps 
        even deemed excellent by all involved, it is not the end 
        product and cannot stand alone in the face of the ever-changing 
        security threats faced. Once the AVA is complete it is then 
        systematically and periodically subject to challenges from the 
        original group, from new group participants and from new human 
        initiated events/tactics.

  <bullet> The group should avoid common nuclear industry fallacies. 
        For example, many believe that all vulnerability will be 
        discovered and thus all risk mitigated. Likewise they should be 
        cautioned to avoid mindsets that see compliance as good 
        security, layers of mediocre security equals good security, 
        and/or that high-tech security is the answer for all 
        vulnerabilities and risks.

    AVAs are not the final and best answer to the reduction of risk, 
just as security surveys, risk management and DBTs do not tell the 
whole risk story. They are also not unknown to the nuclear industry. 
For example, they have already been used in the nuclear waste field for 
low level waste and relative to interim storage.\54\ They also were 
advocated as one means to increase security after the terrorist attacks 
of September 11, 2001, and for use in critical infrastructure sectors 
like the chemical industry.\55\ These techniques have even been around 
a sufficient length of time to note development in their 
applications.\56\ Regarding their use in environmental policy debates, 
as has been the case with Yucca Mountain, Busenberg (1999) \57\ notes 
they are effective in reducing policy disputes, a quality lacking in 
many suggestions for the proposed Yucca Mountain project. Last, these 
have been used in the energy industry for security considerations 
relative to oil and gas pipelines, a similar security dilemma to that 
posed by transporting nuclear waste across country to Nevada.\58\
    The AVA is one tool in the overall risk assessment tool set 
necessary to secure the transportation of highly radioactive materials 
like SNF and HLW. Used in conjunction with the other three techniques 
it allows a different perspective on the problems the system may face, 
a valuable perspective not offered at any other time in the lifecycle 
of the transportation program.
Step Three--Scenario Exemplars
    Analysis-in-depth is a management paradigm and an analytical 
imperative necessary to accomplish the formable task of vulnerability 
and risk assessment for the complex, decades-long transportation effort 
that would be necessary for the proposed Yucca Mountain repository. The 
following sections provide a risk matrix and corresponding threat 
scenarios that could emerge from an AVA process, if applied. The 
details and threats noted therein are gleamed from the literature and 
used to represent best practices in risk assessment for the proposed 
Yucca Mountain project. They do not directly correspond to the issues 
noted above; rather they examine a subset of the overall risk of human-
initiated events for transporting nuclear wastes. The following matrix 
shows some of the potential human-initiated events identified for 
further study.
Figure 5: Potential Human Initiated Events for Further Study

------------------------------------------------------------------------
Potential Events   Origination    Transport    In-transit    Destination
                      Sites        Issues       Transfer     Facilities
------------------------------------------------------------------------
Labor                       X             X             X             X
 disruptions
 with deliberate
 tampering of
 transports and/
 or casks. (SAB)
------------------------------------------------------------------------
Deliberate                  X                           X
 contamination
 of transports
 and/or casks.
 (SAB)
------------------------------------------------------------------------
Disabling of                X             X             X
 shipment
 safeguards.
 (SAB)
------------------------------------------------------------------------
Actions meant to                          X             X
 delay the
 shipment
 process and
 creating
 significant
 media
 attention.
 (PRO)
------------------------------------------------------------------------
Actions meant to                          X             X
 delay transport
 and create
 increased
 routine
 radiological
 impacts. (PRO)
------------------------------------------------------------------------
Actions meant to                          X             X
 create a
 dislocation of
 transport, cask
 or
 transportation
 infrastructure.
 (PRO)
------------------------------------------------------------------------
Use of                                    X             X
 geographically
 disadvantageous
 features along
 the
 transportation
 routes to
 impact
 shipments.
 (ACC)
------------------------------------------------------------------------
Exploitation of                           X             X
 steep grades,
 tunnels, and
 bridges to
 create accident
 conditions
 potentially
 challenging
 cask integrity.
 (ACC)
------------------------------------------------------------------------
Inducement of               X             X             X             X
 inadvertent
 collisions
 involving
 toxic,
 explosive or
 flammable
 chemicals.
 (ACC)
------------------------------------------------------------------------
Use of man-                 X             X             X             X
 portable
 missiles to
 penetrate the
 cask and
 disperse the
 contents into
 the
 environment.
 (TER)
------------------------------------------------------------------------
Use of military             X             X             X             X
 weapons/tactics
 to penetrate
 the cask and
 disperse the
 contents into
 the
 environment.
 (TER)
------------------------------------------------------------------------
Use of adjacent                           X             X
 transportation
 infrastructure
 and cargos to
 augment an
 attack and
 increase
 consequences.
------------------------------------------------------------------------
Capture of the                            X             X
 cargo.
------------------------------------------------------------------------
Abbreviations: SAB = sabotage, PRO = protests, ACC= accident, TER =
  terrorism

The Risk Matrix
    Considering the Yucca Mountain transportation options identified by 
DOE, five modes of transportation could potentially be used for 
repository shipments over the projected 50-year operations period. 
These include:

  <bullet> Rail Casks Shipped by Rail.

  <bullet> Rail Casks Shipped by Barge.

  <bullet> Rail Casks Shipped by Heavy Haul Truck.

  <bullet> Truck Casks Shipped by Rail.

  <bullet> Truck Casks Shipped by Legal Limit Truck.

    These five transportation modes, traveling to Yucca Mountain from 
76 shipping sites in more than 30 states, with an average shipment 
distance greater than 2,000 miles, will be subject to many possible 
attack strategies over five decades. This approach uses a range of 
exemplar human-initiated event strategies as an illustration of the 
risks associated with the transportation of these materials. These 
include:

  <bullet> Theft of the Cargo.

  <bullet> Transportation Infrastructure Attacks.

  <bullet> Anti-tank and/or Stand-off Weapons Attacks.

  <bullet> Capture of Shipment and use of High-Energy Density (HED) 
        Weapons.

    These exemplars suggest that a range of consequences must be 
factored into risk assessment since they present a range of potential 
attack outcomes. These outcomes include:

  <bullet> Attacks to Disrupt Shipments (Minimum Radioactive 
        Dispersal).

  <bullet> Attacks to Disperse the Cask Contents (Moderate Radioactive 
        Release).

  <bullet> Attacks for Maximum Consequences (Catastrophic Radioactive 
        Release).

    The following chart allows for the analysis of these various 
factors simultaneously and has estimates of the consequences listed in 
italics as they relate to the scenario analysis that follows.
Figure 6: Risk Matrix

----------------------------------------------------------------------------------------------------------------
                                                                  Rail Casks                       Truck Casks
                                Rail Casks       Rail Casks       Shipped by      Truck Casks       Shipped by
   Yucca Mtn. Risk Matrix       Shipped by       Shipped by       Heavy Haul       Shipped by      Legal Limit
                                   Rail            Barge            Truck             Rail            Truck
----------------------------------------------------------------------------------------------------------------
Theft of the                        Disrupt          Disrupt          Disrupt          Disrupt          Disrupt
Cargo.                             Disperse         Disperse         Disperse         Disperse         Disperse
                                      Max. Cons.       Max. Cons.       Max. Cons.       Max. Cons.       Max. Cons.

Transportation                      Disrupt          Disrupt          Disrupt          Disrupt          Disrupt
Infrastructure                     Disperse         Disperse         Disperse         Disperse         Disperse
Attacks.                              Max. Cons.       Max. Cons.       Max. Cons.       Max. Cons.       Max. Cons.

Anti-tank                           Disrupt          Disrupt          Disrupt          Disrupt          Disrupt
and/or Stand-                      Disperse         Disperse         Disperse         Disperse         Disperse
off Weapons                           Max. Cons.       Max. Cons.       Max. Cons.       Max. Cons.       Max. Cons.
Attacks.

Capture of                          Disrupt          Disrupt          Disrupt          Disrupt          Disrupt
Shipment.                          Disperse         Disperse         Disperse         Disperse         Disperse
                                      Max. Cons.       Max. Cons.       Max. Cons.       Max. Cons.       Max. Cons.
----------------------------------------------------------------------------------------------------------------

    Taken together these modes, human initiated event strategies, and 
hypothesized consequence outcomes can be conglomerated into a risk 
matrix for simplified use by risk managers, security personnel and for 
the specific purposes of risk identification, analysis and mitigation. 
A radioactive dispersal, whether it is considered minimum, moderate or 
catastrophic for the purposes of analysis, depends on many variables, 
including the age of the fuel, the burn-up history of that fuel, the 
crud inventory in the transport cask, the degradation of the cladding, 
the number of assemblies in a given cask, and so forth. However, a 
properly constructed assessment process can address these variables, 
and recommend appropriate countermeasures and mitigation strategies.
Conclusion
    First and foremost, the materials in question, huge quantities of 
highly radioactive wastes from nuclear power plants and weapons 
production facilities, do not have to be transported across America to 
Yucca Mountain. The energy industry has assured the public that power 
plants are safe and secure, thus sheltering the wastes in place at 
these facilities seems the prudent thing to do. At these secure 
facilities they would not be subject to protests, labor unrest, 
sabotage or terrorism during transit activities, in short they are 
safer where they sit.
    Likewise, if the program does move forward, alternatives to DOE 
management exist. As the NAS has suggested, DOE could be replaced as 
the agency of responsibility for the proposed Yucca Mountain project. 
This action would help the creditability of the proposal since many 
stakeholders and members of the general public have historic reasons to 
distrust this agency and its claims regarding safety and security. This 
is another option for you to consider in your oversight role.
    If the program does proceed and DOE is left in charge, the 
testimony examined the current state of risk assessment for human-
initiated events against SNF and HLW shipments to the proposed 
repository at Yucca Mountain, Nevada. In the process this analysis 
identified a variety of potential human initiated event scenarios for 
consideration by this agency and its transportation planners. These 
represent a range of creditable threats, consequences and for a variety 
of transportation components that would be used during a transportation 
campaign.
    The necessity of this reconsideration is based on the fact that 
attack scenarios evaluated in the Draft Supplemental EIS for Yucca 
Mountain, and the Draft Nevada Rail Alignment EIS, repeat the methods 
used by DOE and NRC over the past three decades. They are not proactive 
in response to 9/11 and do not reflect state-of-the-art risk assessment 
techniques. The DOE/NRC analyses assumed single-phase attack scenarios 
and other limiting assumptions that may artificially constrain the 
results. None of these consequence assessments have evaluated impact-
exacerbating tactics, such as combined use of a breaching device and a 
dispersal device, or use of multiple breaching devices. None of these 
consequence assessments have evaluated the impact-exacerbating tactics 
studied by counter-terrorism experts in the post-9/11 environment.
    The methodology presented herein advocates use of an analysis-in-
depth method that uses current risk assessment methods, but adds the 
well known AVA as an extra layer of protection to offset the change in 
the risk environment due to terrorism. The purpose of the AVA technique 
is to harness the creatively and ingenuity of people outside the formal 
bureaucratic organization that is the DOE and in doing so improve the 
risk analysis. Such an approach would respond to the WGA resolution on 
transportation terrorism risks.
Ways to Review DOE Efforts
    In the post-9/11 world almost all Federal agencies with a 
significant homeland security role have had to rethink their 
assumptions on how best to serve the public interest. One conclusion 
suggested from the alternative scholarship on Yucca Mountain 
transportation risks is that the DOE does not get it--they are stuck in 
an engineering based bureaucratic paradigm, or if you will, an 
organizationally dysfunctional way of thinking. This DOE mindset 
prevents this agency from looking outside of their narrowly defined 
transportation risk assessment agendas.
    In the case of Yucca Mountain, the unwritten ``demand'' for 
programmatic progression after years of DOE mismanagement seemingly 
overrides a systematic and serious reconsideration of risks for the 
transportation of these radioactive materials. This committee should 
consider how to compel reform of the DOE's work on Yucca Mountain in 
light of the new threat environment. To date a systematic recognition 
of this new threat environment is not evidenced by this agencies 
continued refusal to acknowledge real and pressing issues with their 
planning for shipments to Yucca Mountain.
    The DOE is continually revising their transportation concept for 
Yucca Mountain and could readily alter their current program to adopt 
the recommended risk reduction process. Considering the currently 
delayed schedule for the repository and the proposed rail line, it 
seems unlikely that shipments to Yucca Mountain could begin earlier 
than 2020. There is ample time for another agency or if left in charge, 
for the DOE, to systematically address human-initiated events. Revision 
of such documents as the various Supplemental EIS's, Transportation 
Concept of Operations, National Transportation Plan, national routing 
studies, and in its implementation of Section 180c technical and 
financial assistance to affected states and Indian tribes would at a 
minimum be desirable.
    If this testimony could leave this committee with only three points 
to consider, they would be:

    Point One:

  <bullet> Yucca Mountain transportation is risky and will present a 
        target rich environment for adversaries. The shipments are 
        symbolically important and represent a radiological significant 
        target.

  <bullet> The solution is to shelter the shipments in place at the 
        sites of waste origin. As noted by the NRC, energy industry and 
        others, they are safe and secure faculties. Why expose wastes 
        to risks during transportation if not necessary?

    Point Two:

  <bullet> DOE has systematically neglected to address the laundry 
        lists of concerns brought forth by stakeholders. These 
        deliberate choices by the DOE increase the likelihood of 
        attacks, the consequences of those attacks and the resultant 
        social dislocations if these attacks succeed.

  <bullet> The solution is to compel the DOE its mandate to engage in a 
        meaningful national level NEPA process for transport. That 
        process should directly addresses stakeholder concerns that 
        have been documented over the decades of Yucca Mountain 
        debates.

    Point Three:

  <bullet> DOE, in consultation with stakeholders, should engage in 
        systematic risk assessment method of analysis. In particular, 
        it should use the AVA process in conjunction with other methods 
        to provide a more robust triangulated analysis.

  <bullet> The solution here is to do it and will allow the DOE to 
        avoid the potentially fatal fault of being reactive to threats 
        and become more proactive in relationship to human initiated 
        events.

    I wish to thank the Committee for allowing me to offer an 
alternative perspective on this important issue. If you have any 
questions I will be happy to answer them.
Endnotes
    \1\ My training at the University of Nevada, Las Vegas was in 
political sociology, deviance, and criminology.
    \2\ This educational center is funded by the Office of the Director 
of National Intelligence (ODNI) as part of a grant to seven CSU's in 
the southern California area. The CSUN IC-CEA assists students who are 
considering careers in the intelligence field.
    \3\ The term ``human initiated event'' comes from Ballard, J.D. 
(2002). ``Asymmetrical Sabotage Tactics: Nuclear Facilities/Materials 
and Vulnerability Analysis.'' Publication available at www.numat.at.
    \4\ In particular past projects have included Robert J. Halstead, 
Fred Dilger, Hank Collins and Marvin Resnikoff. The testimony herein 
reflects the authors interactions with, and the decades of work, these 
colleagues have contributed to the debates over Yucca Mountain. 
Likewise, research teams for the referenced NATO project herein as well 
as NUMAT conference work should be recognized.
    \5\ See ``Testimony'' before the U.S. Senate, Committee on Energy 
and Natural Resources, One-Hundredth Seventh Congress regarding S. J. 
Res. 34 Approving the Site at Yucca Mountain, Nevada, for the 
Development of a Repository for the Disposal of High-level Radioactive 
Waste and Spent Nuclear Fuel, Pursuant to the Nuclear Waste Policy Act 
of 1982. May 2002. Available at http://www.yuccamountain.org/leg/
ballard052202.html. See also ``Testimony of James David Ballard.'' U.S. 
House of Representatives, Subcommittee on Highways and the House 
Subcommittee on Transportation and Infrastructure. April 2002. 
Available at http://gopher
.house.gov/transportation/highway/04-25-02/ballard.html.
    \6\ Nevada and other scholars have for many years discussed this 
idea in a variety of forums and forms. This section briefly summarizes 
that body of literature. For more complete details see: Nuclear 
Regulatory Commission Documentation for Petition.'' Agency petition for 
Rulemaking pursuant to 5 U.S.C.  553 and 10 C.F.R.  2.800-2.804. 
Federal Register. September 1999 and Halstead, R.J., F. Dilger and J.D. 
Ballard. (2005) ``Planning for an Unpredictable Event: Response to 
Terrorist Attack against SNF Shipment.'' Waste Management conference 
proceedings. See also ``Testimony'' before the U.S. Senate, Committee 
on Energy and Natural Resources, One-Hundredth Seventh Congress 
regarding S.J. Res. 34 Approving the Site at Yucca Mountain, Nevada, 
for the Development of a Repository for the Disposal of High-level 
Radioactive Waste and Spent Nuclear Fuel, Pursuant to the Nuclear Waste 
Policy Act of 1982. May 2002. Available at http://
www.yuccamountain.org/leg/ballard052202.html and ``Testimony of James 
David Ballard.'' U.S. House of Representatives, Subcommittee on 
Highways and the House Subcommittee on Transportation and 
Infrastructure. April 2002. Available at http://gopher.house.gov/
transportation/highway/04-25-02/ballard.html for more specifics on 
symbolic attacks, target rich environments and associated issues.
    \7\ See Ballard, J.D. (2002). ``Shelter-In-Place: The Logic of 
High-Level Nuclear Waste Security.'' Agency paper. State of Nevada's 
Agency for Nuclear Projects: Carson City, NV. This agency paper was 
based on a presentation at Stanford University, January 2002.
    \8\ See Halstead, R.J., F. Dilger, J.D. Ballard and H. Collins 
(2008). ``State of Nevada Perspective on the U.S. Department of Energy 
Yucca Mountain Transportation Program.'' Paper #8154. Waste Management 
Conference 2008 proceedings. Publisher: Waste Management, Phoenix, AZ.
    \9\ Ballard, J.D., R.J. Halstead, F. Dilger, H. Collins and M. 
Resnikoff. (2008). ``Assessing the Vulnerability of Yucca Mountain 
Shipments: A Threat Matrix for Human-Initiated Events.'' Paper #8152. 
Waste Management 2008 Conference proceedings. Publisher: Waste 
Management, Phoenix, AZ.
    \10\ The use of open source documents as the basis of this 
presentation and as the means to develop this methodology should 
demonstrate to the Committee the level of publicly available materials 
that potential adversaries can access. Specific attack details and 
details on tactics have deliberately been left out of this presentation 
in consideration of safety and security.
    \11\ See Halstead, R.J. and J.D. Ballard. (1997). ``Nuclear Waste 
Transportation Security and Safety Issues: The Risk of Terrorism and 
Sabotage against Repository Shipments.'' Prepared for the state of 
Nevada, Agency for Nuclear Projects (October 1997; Revised, December 
1998). This report can no longer be accessed on the web due to security 
concerns, but can be requested in writing from Mr. Joseph Strolin, 
Administrator, Agency for Nuclear Projects, Suite 118, 1761 E. College 
Parkway, Carson City, NV 89706. Also refer to J.D. Ballard, R.J. 
Halstead, F. Dilger, H. Collins, ``Planning for an Unpredictable Event: 
Vulnerability and Consequence Reassessment of Attacks on Spent Fuel 
Shipments,'' revised version of a paper presented at Waste Management 
2005. The revised paper was not included in the proceedings, but it is 
available on line at http://www.state.nv.us/nucwaste/trans.htm. Last, 
see North Atlantic Treaty Organization (NATO). Project # 
SST.CLG.978964, ``Terrorism Attacks on Nuclear Power Plants and Nuclear 
Materials Transports.'' This large research group was led by Dr. 
Friedrich Steinhausler, Institute for International Security, Stanford 
University. October 2001 to July 2004. A final report was submitted to 
NATO but to date has note been released.
    \12\ The NRC and DOE continue to use the singular terminology of 
``sabotage'' to designate any incident related to human initiated 
events. The use of the term human initiated events herein was 
originally coined to help move forward the discussions of risks to a 
more encompassing discussion in the post-9/11 threat environment.
    \13\ DOE. (1999). ``Draft Environmental Impact Statement for a 
Geologic Repository for the Disposal of Spent Nuclear Fuel and High-
Level Radioactive Waste at Yucca Mountain, Nye County, Nevada,'' DOE/
EIS-0250D, U.S. Department of Energy, Washington, DC (July 1999).
    \14\ Luna, R. et al., (1999). ``Projected Source Terms for 
Potential Sabotage Events Related to Spent Fuel Shipments,'' SAND99-
0963.
    \15\ DOE. (2002). ``Final Environmental Impact Statement for a 
Geologic Repository for the Disposal of Spent Nuclear Fuel and High-
Level Radioactive Waste at Yucca Mountain, Nye County, Nevada,'' DOE/
EIS-0250. Available on the web at http://www.ymp/gov/documents/feis_a/
index.htm.
    \16\ Lamb, M. et al., (2002). ``Potential Consequences of a 
Successful Sabotage Attack on a Spent Fuel Shipping Container: An 
Analysis of the Yucca Mountain EIS Treatment of Sabotage.'' Prepared by 
Radioactive Waste Management Associates for the State of Nevada, Agency 
for Nuclear Projects.
    \17\ Respectively: DOE. (2007). ``Draft Supplemental Environmental 
Impact Statement for a Geologic Repository for the Disposal of Spent 
Nuclear Fuel and High-Level Radioactive Waste at Yucca Mountain, Nye 
County, Nevada'' DOE/EIS-0250F-S1D and DOE, ``Draft Supplemental 
Environmental Impact Statement for a Geologic Repository for the 
Disposal of Spent Nuclear Fuel and High-Level Radioactive Waste at 
Yucca Mountain, Nye County, Nevada--Nevada Rail Transportation 
Corridor,'' DOE/EIS-0250F-S2D and ``Draft Environmental Impact 
Statement for a Rail Alignment for the Construction and Operation of a 
Railroad in Nevada to a Geologic Repository at Yucca Mountain, Nye 
County, Nevada,'' DOE/EIS-0369D.
    \18\ Luna, R, (2006). ``Release Fractions from Multi-Element Spent 
Fuel Casks Resulting from HEDD Attack,'' Waste Management 2006 
conference. Publisher: Waste Management, Phoenix, AZ.
    \19\ DOE. (2007). See page 6-21 from ``Draft Supplemental 
Environmental Impact Statement for a Geologic Repository for the 
Disposal of Spent Nuclear Fuel and High-Level Radioactive Waste at 
Yucca Mountain, Nye County, Nevada'' DOE/EIS-0250F-S1D and DOE.
    \20\ See Ballard, J.D., R.J. Halstead, F. Dilger, H. Collins. 
(2007). ``Yucca Mountain Transportation Security Issues: Overview and 
Update.'' Waste Management 2007 conference. Publisher: Waste 
Management, Phoenix.
    \21\ WGA. ``Making the West the Best: Western Governors' 
Association 2007 Annual Report''. Available online at: http://
www.westgov.org/wga/publicat/annrpt07.pdf.
    \22\ WGA. ``Western Governors Association Policy Resolution 07-02: 
Assessing the Risks of Terrorism and Sabotage against High-Level 
Nuclear Waste Shipments to a Geologic Repository or Interim Storage 
Facility.''
    \23\ WGA. ``Western Governors Association Policy Resolution 07-02: 
Assessing the Risks of Terrorism and Sabotage against High-Level 
Nuclear Waste Shipments to a Geologic Repository or Interim Storage 
Facility.''
    \24\ Ballard, J.D. (2002). ``Asymmetrical Sabotage Tactics: Nuclear 
Facilities/Materials and Vulnerability Analysis.'' Publication 
available at www.numat.at.
    \25\ See Ballard, J.D., R.J. Halstead, F. Dilger, H. Collins. 
(2007). ``Yucca Mountain Transportation Security Issues: Overview and 
Update.'' Waste Management 2007 conference. Publisher: Waste 
Management, Phoenix. Also Ballard, J. D. (2002). ``Asymmetrical 
Sabotage Tactics: Nuclear Facilities/Materials and Vulnerability 
Analysis.'' Publication available at www.numat.at.
    \26\ DOE. (2006). ``Transportation System Concept of Operations,'' 
DOE/RW-0584 and DOE. (2007). ``National Transportation Plan,'' pre-
decisional draft dated July 16, 2007.
    \27\ Ballard, J.D. (2002). ``Asymmetrical Sabotage Tactics: Nuclear 
Facilities/Materials and Vulnerability Analysis.'' Publication 
available at www.numat.at.
    \28\ Marenko, T. (2007). ``Terrorist Threat to Energy 
Infrastructure Increases,'' Jane's Intelligence Review, Download date 
July 28, 2007. Available online at http://www.ciaonet.org/wps/mat04/
mat04.pdf.
    \29\ See Halstead, R.J. and J.D. Ballard. (1997). ``Nuclear Waste 
Transportation Security and Safety Issues: The Risk of Terrorism and 
Sabotage against Repository Shipments.'' Prepared for the state of 
Nevada, Agency for Nuclear Projects (October 1997; Revised, December 
1998). Ballard, J.D., R.J. Halstead, F. Dilger, H. Collins and M. 
Resnikoff. (2008). ``Assessing the Vulnerability of Yucca Mountain 
Shipments: A Threat Matrix for Human-Initiated Events.'' Paper #8152. 
Waste Management 2008 Conference proceedings. Publisher: Waste 
Management, Phoenix, AZ. J.D. Ballard, R.J. Halstead, F. Dilger, H. 
Collins, ``Planning for an Unpredictable Event: Vulnerability and 
Consequence Reassessment of Attacks on Spent Fuel Shipments,'' revised 
version of a paper presented at Waste Management 2005. Ballard, J.D. 
(2002). ``Asymmetrical Sabotage Tactics: Nuclear Facilities/Materials 
and Vulnerability Analysis.'' Publication available at www.numat.at. 
CRS. (2007). ``Nuclear Power Plants: Vulnerability to Terrorist 
Attack.'' RS 21131. NAS. (2006). ``Going the Distance? The Safe 
Transport of Spent Nuclear Fuel and High-Level Radioactive Waste in the 
United States.'' Washington, DC: The National Academies Press). R.J. 
Halstead, F. Dilger, J.D. Ballard. (2004). ``Beyond the Mountains: 
Nuclear Waste Transportation and the Rediscovery of Nevada.'' Waste 
Management 2004 Conference, February 25-March 1, 2004, Tucson, AZ.
    \30\ See Johnson, R.G. (2004). ``Adversarial Safety Analysis: 
Borrowing the Methods of Security Vulnerability Assessments,'' Journal 
of Safety Research 35: 244-248 and Johnson, R.G. (2005). ``Unleashing 
Your Inner Mother-in-Law: How to do an Adversarial Vulnerability 
Assessment,'' Presentation at ASIS annual conference, Orlando, FL. 
Download date: July 23, 2007. Available at: http://pearl1.lanl.gov/
external/c-adi/seals/images/AVA.ppt.
    \31\ Broder, J.F. (1999). Risk Analysis and the Security Survey. 
Boston: Butterworth-Heinemann.
    \32\ Johnson, R.G. (2005). ``Unleashing Your Inner Mother-in-Law: 
How to do an Adversarial Vulnerability Assessment,'' Presentation at 
ASIS annual conference, Orlando, FL. Download date: July 23, 2007. 
Available at: http://pearl1.lanl.gov/external/c-adi/seals/images/
AVA.ppt.
    \33\ Johnson, R.G. (2005). ``Unleashing Your Inner Mother-in-Law: 
How to do an Adversarial Vulnerability Assessment,'' Presentation at 
ASIS annual conference, Orlando, FL. Download date: July 23, 2007. 
Available at: http://pearl1.lanl.gov/external/c-adi/seals/images/
AVA.ppt.
    \34\ See Johnson, R.G. (2005). ``Unleashing Your Inner Mother-in-
Law: How to do an Adversarial Vulnerability Assessment,'' Presentation 
at ASIS annual conference, Orlando, FL. Download date: July 23, 2007. 
Available at: http://pearl1.lanl.gov/external/c-adi/seals/images/
AVA.ppt; Kumamoto, H., E. J. Henley. (2000). Probabilistic Risk 
Assessment and Management for Engineers and Scientists. Hoboken, NJ: 
Wiley; Roper, C. (1999). Risk Management for Security Professionals. 
Boston: Butterworth-Heinemann; Knief, R. (1991). Risk Management: 
Expanding the Horizons in Nuclear Power and Other Industries, Boca 
Raton, FL: CRC Press; Starr, C. ``Risk Management, Assessment, and 
Acceptability.'' Risk Analysis, Volume 5 (1985).
    \35\ Hamalainen, R.P., M.R.K. Lindstedt, and K. Sinkko. (2000). 
Multiattribute Risk Analysis in Nuclear Emergency Management. Malden, 
MA: Blackwell Publishing; Rayner, S. and R. Cantor. (1987). ``How Fair 
is Safe Enough: The Cultural Approach to Societal Technological 
Choice.'' Risk Analysis, Volume 7.
    \36\ Pidgeon, N., R.E. Kasperson, and P. Slovic. (2003). The Social 
Amplification of Risk. New York: Cambridge University Press; Slovic, P. 
(1993). ``Perceived Risk, Trust, and Democracy.'' Risk Analysis, Volume 
13.
    \37\ Johnson, R.G. (2005). ``Unleashing Your Inner Mother-in-Law: 
How to do an Adversarial Vulnerability Assessment,'' Presentation at 
ASIS annual conference, Orlando, FL. Download date: July 23, 2007. 
Available at: http://pearl1.lanl.gov/external/c-adi/seals/images/
AVA.ppt; Willis, H.H., A.R. Morral, T.K. Kelly and J.J. Medby. (2005). 
Estimating Terrorism Risk. Santa Monica: Rand Corporation (2005).
    \38\ Clarke, L. (2001). Mission Improbable: Using Fantasy Documents 
to Tame Disaster. Chicago, Illinois: University Of Chicago Press.
    \39\ NRC. ``Design Basis Threat.'' Download date August 5, 2007. 
Available online at http://www.nrc.gov/; Johnson, R.G. (2005). 
``Unleashing Your Inner Mother-in-Law: How to do an Adversarial 
Vulnerability Assessment,'' Presentation at ASIS annual conference, 
Orlando, FL. Download date: July 23, 2007. Available at: http://
pearl1.lanl.gov/external/c-adi/seals/images/AVA.ppt.
    \40\ NRC. ``Design Basis Threat.'' Download date August 5, 2007. 
Available online at http://www.nrc.gov/; Blankenship, J. (2005). 
``International Standard for Design Basis Threat (DBT).'' Paper 
presented at the NUMAT Conference, Salzburg Austria. Download Date 
August 4, 2007. Available online at http://www.numat.at/; Chetvergov, 
S. (2005). ``Evolution of Nuclear Security in the Republic of 
Kazakhstan.'' Paper presented at NUMAT Conference, Salzburg Austria. 
Download Date August 4, 2007. Available online at http://www.numat.at/; 
Ellis, D. (2005). ``Training Programs for the Systems Approach to 
Nuclear Security.'' Paper presented at NUMAT Conference, Salzburg 
Austria. Download Date August 4, 2007. Available online at http://
www.numat.at/.
    \41\ NRC. ``Design Basis Threat.'' Download date August 5, 2007. 
Available online at http://www.nrc.gov/; Khripunov, I. (2005). 
``Nuclear Security Culture: A Generic Model for Universal 
Application.'' Paper presented at NUMAT Conference, Salzburg Austria. 
Download Date August 4, 2007. Available online at http://www.numat.at/.
    \42\ Johnson, R.G. (2005). ``Unleashing Your Inner Mother-in-Law: 
How to do an Adversarial Vulnerability Assessment,'' Presentation at 
ASIS annual conference, Orlando, FL. Download date: July 23, 2007. 
Available at: http://pearl1.lanl.gov/external/c-adi/seals/images/
AVA.ppt.
    \43\ Blankenship, J. (2005). ``International Standard for Design 
Basis Threat (DBT).'' Paper presented at the NUMAT Conference, Salzburg 
Austria. Download Date August 4, 2007. Available online at http://
www.numat.at/
    \44\ IAEA. (2007). ``Requirements for Physical Protection against 
Sabotage of Nuclear Facilities and Nuclear Material during Use and 
Storage.'' Download date: August 5, 2007. Available online at http://
www.iaea.org/; NRC. (2005). ``Design Basis Threat,'' Federal Register, 
Volume 70, Number 214; Hirsch, D., D. Lochbaum, and E. Lyman, ``The 
NRC's Dirty Little Secret: The Nuclear Regulatory Commission is Still 
Unwilling to Respond to Serious Security Problems.'' Bulletin of Atomic 
Scientists, Volume 59 (May-June 2003); GAO. (July 26, 2005). ``Nuclear 
Security: Actions Needed by DOE to Improve Security of Weapons-Grade 
Nuclear Material at its Energy, Science and Environmental Sites: 
Statement of Gene Aloise, Director, Natural Resources and 
Environment.'' Testimony before the Subcommittee on National Security, 
Emerging Threats and International Relations, U.S. House of 
Representatives; GAO. (April 4, 2006). ``Nuclear Power: Plants Have 
Upgraded Security, but the Nuclear Regulatory Commission Needs to 
Improve its Process for Revising the Design Basis Threat: Statement of 
Jim Wells, Director: Natural Resources and Environment.'' Testimony 
before the Subcommittee on National Security, Emerging Threats and 
International Relations, U.S. House of Representatives.
    \45\ Johnson, R.G. (2005). ``Unleashing Your Inner Mother-in-Law: 
How to do an Adversarial Vulnerability Assessment,'' Presentation at 
ASIS annual conference, Orlando, FL. Download date: July 23, 2007. 
Available at: http://pearl1.lanl.gov/external/c-adi/seals/images/
AVA.ppt.
    \46\ S. Kondratov, F. Steinhausler. (2005). ``Why there is a need 
to Revise the Design Basis Threat Concept.'' Paper presented at NUMAT 
Conference, Salzburg Austria. Download Date August 4, 2007. Available 
online at http://www.numat.at/
    \47\ GAO. (July 26, 2005). ``Nuclear Security: Actions Needed by 
DOE to Improve Security of Weapons-Grade Nuclear Material at its 
Energy, Science and Environmental Sites: Statement of Gene Aloise, 
Director, Natural Resources and Environment.'' Testimony before the 
Subcommittee on National Security, Emerging Threats and International 
Relations, U.S. House of Representatives; GAO. (April 4, 2006). 
``Nuclear Power: Plants Have Upgraded Security, but the Nuclear 
Regulatory Commission Needs to Improve its Process for Revising the 
Design Basis Threat: Statement of Jim Wells, Director: Natural 
Resources and Environment.'' Testimony before the Subcommittee on 
National Security, Emerging Threats and International Relations, U.S. 
House of Representatives.
    \48\ Johnson, R.G. (2005). ``Unleashing Your Inner Mother-in-Law: 
How to do an Adversarial Vulnerability Assessment,'' Presentation at 
ASIS annual conference, Orlando, FL. Download date: July 23, 2007. 
Available at: http://pearl1.lanl.gov/external/c-adi/seals/images/
AVA.ppt.
    \49\ Johnson, R.G. (2005). ``Unleashing Your Inner Mother-in-Law: 
How to do an Adversarial Vulnerability Assessment,'' Presentation at 
ASIS annual conference, Orlando, FL. Download date: July 23, 2007. 
Available at: http://pearl1.lanl.gov/external/c-adi/seals/images/
AVA.ppt.
    \50\ E.G. Bitzer and R. Johnson. (2007). ``Creative Adversarial 
Vulnerability Assessments,'' Journal of Physical Security, Volume 2. 
Download date: August 7, 2007. Available on-line at http://
jps.lanl.gov/.
    \51\ Johnson, R.G. (2005). ``Unleashing Your Inner Mother-in-Law: 
How to do an Adversarial Vulnerability Assessment,'' Presentation at 
ASIS annual conference, Orlando, FL. Download date: July 23, 2007. 
Available at: http://pearl1.lanl.gov/external/c-adi/seals/images/
AVA.ppt.
    \52\ Johnson, R.G. (2005). ``Unleashing Your Inner Mother-in-Law: 
How to do an Adversarial Vulnerability Assessment,'' Presentation at 
ASIS annual conference, Orlando, FL. Download date: July 23, 2007. 
Available at: http://pearl1.lanl.gov/external/c-adi/seals/images/
AVA.ppt.
    \53\ Johnson, R.G. (2005). ``Unleashing Your Inner Mother-in-Law: 
How to do an Adversarial Vulnerability Assessment,'' Presentation at 
ASIS annual conference, Orlando, FL. Download date: July 23, 2007. 
Available at: http://pearl1.lanl.gov/external/c-adi/seals/images/
AVA.ppt.
    \54\ Lubenau, J.O. and D.J. Storm. (2002). ``Safety and Security of 
Radiation Sources in the Aftermath of 11, September 2001.'' Health 
Physics 83: 155-164 (2002).
    \55\ Moore, D.A., B. Fuller, M. Hazzan, and J.W. Jones. (2007). 
``Development of a Security Vulnerability Assessment Process for the 
RAMCAP Chemical Sector,'' Journal of Hazardous Materials 142: 689-694.
    \56\ See Johnson, R.G. (2004). ``Adversarial Safety Analysis: 
Borrowing the Methods of Security Vulnerability Assessments,'' Journal 
of Safety Research 35: 244-248 and Johnson, R.G. (2005). ``Unleashing 
Your Inner Mother-in-Law: How to do an Adversarial Vulnerability 
Assessment,'' Presentation at ASIS annual conference, Orlando, FL. 
Download date: July 23, 2007. Available at: http://pearl1.lanl.gov/
external/c-adi/seals/images/AVA.ppt.
    \57\ Busenberg, G.J. (1999). ``Collaborative and Adversarial 
Analysis in Environmental Policy,'' Policy Sciences 32. Download date: 
August 8, 2007. Available on-line at: www.springerlink.com.
    \58\ Bettie, J. (2007). ``NRC Takes Two Roads on Terror Review 
Issue.'' The Energy Daily, February 27, 2007.

    Senator Ensign. Thank you, Dr. Ballard.
    Mr. Hamberger?

     STATEMENT OF EDWARD R. HAMBERGER, PRESIDENT AND CEO, 
               ASSOCIATION OF AMERICAN RAILROADS

    Mr. Hamberger. Mr. Chairman, Senator Thune, the Association 
of American Railroads appreciates the opportunity present our 
views on the transportation of spent nuclear fuels.
    Before I address that topic, however, on behalf of the 
members of the AAR, I want to express deep condolences to the 
victims, the families, and friends of those who were hurt and 
injured in too many cases, fatally injured in the commuter rail 
accident in Chatsworth, California last Friday.
    We have been working very closely with this Committee, the 
corresponding Committee in the House, to help craft legislation 
to address certain areas of rail safety. We are very pleased 
that that has reached its final step, and I believe even as we 
meet here today, it may be being considered on the House floor. 
And I hope that it will pass the Senate before the end of the 
week because we believe that it will result in meaningful rail 
safety improvement.
    The freight industry, rail industry does have an excellent 
safety record, in general, in moving hazardous materials, 
including spent nuclear fuel in particular. Since my written 
testimony and my several appearances before this committee over 
the past year go into great detail on our safety record, I will 
only note here today that 2007 was the safest year on record in 
terms of accident rate per million train miles.
    We recognize that special measures are needed to ensure 
that the spent fuel is moved without incident. The railroads 
believe that the safest possible method of transporting spent 
nuclear fuel is in dedicated trains. We are pleased to note 
that the Department of Energy now shares that belief and wish 
that the Department of the Navy would soon join us both in that 
belief.
    We believe that dedicated trains offer important safety 
advantages.
    One, they do not require switching in rail yards as do 
trains in general freight service, thus reducing time in 
transit and potential for mishandling accidents.
    Two, dedicated trains allow the train to be equipped with 
electronically controlled pneumatic brakes and premium 
suspensions.
    Three, spent nuclear fuel cars are extremely heavy, heavier 
than any other car in service, thus increasing the potential 
for an accident because of the different handling 
characteristics.
    And finally, spent nuclear fuel dedicated trains can be 
moved with greater security. Escorts as required by DOT and the 
Nuclear Regulatory Commission would have certainly a less 
difficult time monitoring spent nuclear fuel on dedicated 
trains than in general freight service.
    We are confident that we can transport spent nuclear fuel 
extremely safely. However, despite all the precautions taken, 
there is clearly some risk in the transport of spent nuclear 
fuel. No firm in any industry and certainly not a rail industry 
that has an outdoor factory floor of some 140,000 miles in 
length can guarantee with complete certainty that no accident 
or terrorist attack will occur. Recognizing this, Congress 
enacted the Price-Anderson Act which provides limited 
protection for companies from an incident involving the release 
of nuclear material, including its transport.
    More than 25 years ago, the Interstate Commerce Commission 
ruled that railroads have a common carrier obligation to 
transport shipments of spent nuclear fuel. Partially that 
ruling came because of the liability protections offered under 
Price-Anderson.
    Freight railroads, alone of all modes, also have a common 
carrier obligation to transport toxic by inhalation hazardous 
and other highly hazardous materials. Chairman Inouye referred 
to that earlier. Chlorine is certainly one of those and 
anhydrous ammonia the other. Those two represent about 80,000 
car loads a year of 100,000 car loads of TIH materials. 
However, we do not have any comparable Price-Anderson 
protections for this transportation, nor can railroads fully 
insure against the multi-billion risks associated with these 
shipments. This places the railroads in an untenable position.
    I submit that if there is a public interest need for 
railroads to be compelled to carry TIH chemicals, just as the 
ICC determined there is for spent nuclear fuel, there is a 
corresponding public interest for limiting the railroad's 
potentially ruinous liability as in the case with Price-
Anderson. This could be achieved if policymakers enacted a 
Price-Anderson type solution for TIH shipments, and we would be 
pleased to discuss this with members of the Committee.
    We thank you for the opportunity to testify, and I, of 
course, would be pleased to answer any questions you may have.
    [The prepared statement of Mr. Hamberger follows:]

     Prepared Statement of Edward R. Hamberger, President and CEO, 
                   Association of American Railroads
    The Association of American Railroads (AAR) appreciates this 
opportunity to address the transportation of spent nuclear fuel (SNF). 
AAR members account for the vast majority of freight railroad mileage, 
employees, and traffic in Canada, Mexico, and the United States.
    Should meaningful amounts of spent nuclear fuel require 
transportation, it is likely that AAR members would be called upon to 
handle most of those movements (whether it would be to the Yucca 
Mountain repository \1\ or elsewhere), since the Department of Energy 
(DOE) has indicated that it prefers rail transportation for the 
movement of SNF.\2\ Why? Safety, predominantly. There has never been a 
release of radioactive materials in connection with the transportation 
of SNF by rail.
---------------------------------------------------------------------------
    \1\ The AAR takes no position on whether Yucca Mountain is an 
appropriate site for a repository.
    \2\ See U.S. Department of Energy, Office of Civilian Radioactive 
Waste Management, A Final Environmental Impact Statement for a Geologic 
Repository for the Disposal of Spent Nuclear Fuel and High-Level 
Radioactive Waste at Yucca Mountain, Nye County, Nevada, J-1, February 
2002.
---------------------------------------------------------------------------
Overview of Freight Rail Safety
    First of all, on behalf of the members of the AAR, I offer my deep 
condolences to the victims of the recent tragic commuter rail accident 
in California and their families. As many of you know, freight 
railroads have been working very closely with this Committee and others 
in Congress to draft and pass comprehensive legislation that will 
address critical areas of rail safety. We are confident that the 
legislation will result in meaningful rail safety improvement.
    For freight railroads, pursuing safe operations is not an option, 
it is an imperative. It makes business sense and it's the right thing 
to do. Through massive investments in safety-enhancing infrastructure, 
equipment, and technology; extensive employee training; cooperation 
with rail labor, suppliers, customers, communities, and the Federal 
Railroad Administration (FRA); cutting-edge research and development; 
and steadfast commitment to applicable laws and regulations, freight 
railroads are at the forefront of advancing safety.
    Freight railroads have an excellent and improving safety record, 
reflecting the extraor-dinary importance railroads place on the safety 
of their employees, their customers, and the communities they serve. As 
an official from the FRA noted in testimony to Congress in February 
2007, ``The railroads have an outstanding record in moving all goods 
safely.''
    In fact, 2007 was the safest year ever for railroads, according to 
FRA data, and preliminary partial year data for 2008 show continued 
improvement. In 2007, the train accident rate was the lowest ever, down 
71 percent since 1980. The grade crossing collision rate was the lowest 
ever, down 77 percent since 1980. And the employee injury rate was the 
second lowest ever, down 80 percent since 1980.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Moreover, according to U.S. Department of Labor data, railroads 
today have lower employee injury rates than other modes of 
transportation and most other major industry groups, including 
agriculture, construction, manufacturing, and private industry as a 
whole--even grocery stores. Available data also indicate that U.S. 
railroads have employee injury rates well below those of most major 
foreign railroads.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Railroads are proud of their safety record, which results from 
their recognition of their responsibilities regarding safety and the 
enormous resources they devote to its advancement. At the same time, 
railroads want rail safety to continue to improve. Railroads are always 
willing to work cooperatively with Members of this Committee, other 
policymakers, the FRA, rail employees, and others to find practical, 
effective ways to make this happen.
Railroads Have an Excellent Hazmat Safety Record
    Today, U.S. railroads transport very little spent nuclear fuel. In 
2007, there were just 14 originations; in the 5-years from 2003 to 
2007, there were only 314. Railroads do, however, haul significant 
amounts of other hazardous materials. In fact, each year, 1.7 to 1.8 
million carloads of hazardous materials are transported by rail in the 
United States. Materials that present a ``toxic inhalation hazard'' 
(TIH)--i.e., gases or liquids (such as chlorine and anhydrous ammonia) 
that are especially hazardous if released--are a subset of hazardous 
materials. Railroads transport around 100,000 carloads of TIH each 
year. For perspective, DOE projects that there would be, at most, 
around 400 carloads of spent nuclear fuel transported annually.
    In 2006 (the most recent year for which data are available), 99.996 
percent of rail hazmat shipments reached their destination without a 
release caused by a train accident. That equates to one accident with a 
hazmat release for every 56,000 rail hazmat carloads.
    The overall rail hazmat accident rate is down 88 percent since 1980 
and down 39 percent since 1990. And although no firm in any industry 
can guarantee that it will never suffer an accident, the railroads' 
overall safety record should give you and the public confidence in the 
rail transport of SNF if the public interest requires its 
transportation.
How Can the Safety of SNF Transport be Maximized?
    Notwithstanding freight railroads' excellent safety record, they 
recognize that public concern over radioactive materials requires that 
all parties involved in the transport of SNF take special measures to 
ensure safe movement. In particular, the DOE and Department of Defense 
(as the shippers of SNF), the Department of Transportation (the 
regulator of the safety aspects of hazmat transport), and the railroads 
must work together to design the safest possible transportation system 
for SNF.
    For many years, the rail industry has urged the use of dedicated 
trains--i.e., trains with no other freight than SNF, traveling from one 
origin to one destination--to transport SNF. In 2005, the DOE issued a 
statement that it was DOE policy to use dedicated trains as the usual 
mode for its shipments to Yucca Mountain.\3\ The DOE identified 
important safety, security, and system cost benefits to the use of 
dedicated trains at that time. More recently, the DOE stated, in its 
application to the Surface Transportation Board (STB) to construct a 
railroad line that would serve the Yucca Mountain repository, that it 
intends to use dedicated trains on that line.
---------------------------------------------------------------------------
    \3\ Department of Energy Policy Statement for Use of Dedicated 
Trains for Waste Shipments to Yucca Mountain, ilable at p://
www.state.nv.us/nucwaste/news2005/pdf/doe050718rail.pdf.
---------------------------------------------------------------------------
    Dedicated trains in fact offer numerous key safety advantages that 
would reduce the already very small possibility of an accident 
involving SNF transport.
    First, SNF cars in dedicated trains would not have to be 
``switched'' in and out of trains at rail yards, many of which are 
located in or near major metropolitan areas. Switching would be 
required if SNF cars were transported in general freight service. 
Switching increases the amount of handling a freight car receives. All 
else equal, the more a freight car has to be handled, the greater the 
risk of an accident.
    Second, the weight of SNF cars could increase the potential for an 
accident if the cars were hauled in general freight service. The vast 
majority of loaded rail cars on the U.S. freight rail network weigh no 
more than 286,000 pounds.\4\ SNF cars, though, would weigh 
approximately 400,000 pounds. If hauled in general freight service, 
these extremely heavy SNF cars could generate high in-train forces, 
such as slack action (the force exerted throughout the train as trains 
accelerate, decelerate, and operate over undulating and curved terrain) 
that could lead to a derailment. Slack action is much easier to control 
in a short, dedicated train than in a long, general service train, 
especially in trains with extremely heavy cars mixed with other normal-
weight cars.
---------------------------------------------------------------------------
    \4\ A small minority of rail cars in general service weigh up to 
315,000 pounds. In extremely rare cases (for example, movements of 
power plant generators), railroads will haul much heavier shipments.
---------------------------------------------------------------------------
    Third, premium suspensions can be incorporated in all rail cars in 
dedicated trains. Premium suspensions are higher-quality freight car 
wheel assemblies. They reduce lateral wheel forces and vertical dynamic 
impact forces, which can result in derailments. If SNF were transported 
in general freight service, there would be no way of guaranteeing that 
the cars transporting other freight would have premium suspensions. 
More generally, dedicated trains eliminate the possibility of a 
derailment of an unrelated car having as a side effect the derailment 
of or damage to a car carrying SNF.
    Fourth, dedicated trains are essential if the newest technology 
designed to lower the possibility of a derailment is to be used for SNF 
shipments. The AAR's Performance Specification for Trains Used to Carry 
High Level Radioactive Material, also known as S-2043, calls for 
additional safety requirements and technologies, including on-board 
defect detection systems, premium suspensions, and electronically-
controlled pneumatic (ECP) brakes. ECP brakes function only when all 
cars in a train are equipped with them. In addition to providing 
superior braking performance, ECP brakes utilize a communication system 
throughout a train that can be used to transmit train health 
information to the locomotive crew and security personnel. The train 
health information, obtained from the on-board defect detection 
systems, would include monitoring for known derailment causes such as 
excessive truck hunting; \5\ rocking; \6\ wheel flats; \7\ ride 
quality; defective bearings; vertical, lateral and longitudinal 
acceleration; and, of course, braking performance.
---------------------------------------------------------------------------
    \5\ Truck hunting is an instability at high speed of a wheel set 
(the ``truck'' in railcar terminology) causing it to weave down the 
track, usually with the flange of the wheel striking the rail.
    \6\ Excessive lateral rocking of cars and locomotives can occur, 
usually at low speeds. The speed range at which this phenomenon occurs 
is determined by such factors as the wheel base, height of the center 
of gravity of each individual car or locomotive, and the spring 
dampening associated with each vehicle's suspension system.
    \7\ A wheel flat is a flat spot or loss of roundness of the tread 
of a railroad wheel.
---------------------------------------------------------------------------
    Fifth, dedicated trains minimize the time spent in transportation, 
an important factor for security and efficiency.\8\ It would take 
longer (possibly significantly longer) to transport SNF from origin to 
destination if SNF were transported in mixed-freight trains instead of 
dedicated trains, because the switching of rail cars in and out of 
trains takes time and because railroads can more readily schedule 
dedicated trains to move quickly and smoothly through sensitive areas.
---------------------------------------------------------------------------
    \8\ U.S. Department of Transportation, Identification of Factors 
for Selecting Modes and Routes for Shipping High-Level Radioactive 
Waste and Spent Nuclear Fuel, p. vi (April 1998).
---------------------------------------------------------------------------
    Finally, dedicated SNF trains can be transported with greater 
security. Escorts, which are required by the Nuclear Regulatory 
Commission (NRC) for all SNF movements, will be able to monitor SNF 
much more easily in dedicated trains than in general freight service.
    The FRA has also determined that dedicated trains for the 
transportation of SNF would reduce accident risks through avoidance of 
yards, reduced derailment potential, and reduced risk of the 
involvement of other hazardous materials in an accident.\9\ Similarly, 
the National Academy of Sciences has determined that dedicated train 
transportation of SNF has operational, safety, security, 
communications, and planning advantages over transportation in general 
merchandise trains.\10\
---------------------------------------------------------------------------
    \9\ Use of Dedicated Trains for Transportation of High-Level 
Radioactive Waste and Spent Nuclear Fuel (March 2005), available at 
www.fra.dot.gov/downloads/safety/report_dedicated
_trains.pdf.
    \10\ Committee on Transportation of Radioactive Waste, National 
Research Council of the National Academy of Sciences, Going the 
Distance: The Safe Transport of Spent Nuclear Fuel and High-Level 
Radioactive Waste in the United States (2006).
---------------------------------------------------------------------------
    DOE is planning to build the transportation equipment for the 
transportation of SNF to Yucca Mountain in conformance with S-2043. In 
addition, the U.S. Navy, which currently ships more SNF than any other 
entity, is currently designing and building a new freight car to meet 
S-2043. The prototype car is currently being tested at the 
Transportation Technology Center, Inc., an AAR-operated rail research 
and test facility in Pueblo, Colorado.
    The rail industry commends the DOE for recognizing the benefits of 
dedicated trains, and commends the U.S. Navy for agreeing to conform 
with S-2043. However, despite its 2005 policy statement in favor of the 
use of dedicated trains generally and its statement to the STB that it 
will use dedicated trains on its own Yucca Mountain line, DOE has not 
committed to use dedicated trains for SNF shipments on other rail 
lines, including shipments to Yucca Mountain.\11\ The U.S. Navy has not 
yet agreed to use dedicated trains for SNF shipments. Railroads 
respectfully suggest that policymakers should strongly encourage the 
DOE and Navy to do so.
---------------------------------------------------------------------------
    \11\ In the STB rail construction proceeding concerning the Yucca 
Mountain line proposed by DOE, it has been suggested that DOE should be 
required, as a condition to approval, to use dedicated trains for all 
transportation of SNF to the Yucca Mountain line. DOE has opposed that 
condition, saying only that it will maintain its policy (cited at 
footnote 3 above) to use dedicated trains as the ``usual mode'' for 
transportation to Yucca Mountain.
---------------------------------------------------------------------------
SNF Liability Protections Offer a Model for TIH Transport
    Railroads are confident that they could transport SNF extremely 
safely, and they are working hard every day to further enhance the 
safety of their operations.\12\ However, as indicated above, no firm in 
any industry--and certainly not a rail industry that has an outdoor 
``factory floor'' that is more than 140,000 miles long--can guarantee, 
with complete certainty, that no accident or terrorist attack will 
occur.
---------------------------------------------------------------------------
    \12\ See the AAR's Senate testimony on May 22, 2007 and July 26, 
2007 for details on the many ways that railroads are using 
technological advances, innovative operating practices, and other means 
to enhance rail safety.
---------------------------------------------------------------------------
    Despite all the precautions that might be taken, there is clearly 
some risk involved in the use and handling of nuclear fuel. Recognizing 
this, in 1957 Congress enacted the Price-Anderson Act. The Price-
Anderson Act limits the liability of a company (including railroads) 
from an incident involving the release of nuclear material (including 
in transportation). The Act provides for a fund, to which all nuclear 
power plant licensees contribute when an incident occurs, to cover any 
damages in excess of required insurance levels.
    More than 25 years ago, the Interstate Commerce Commission (ICC), 
the predecessor of today's Surface Transportation Board, held that the 
railroads' common carrier obligation requires them to transport 
shipments of SNF, whether the railroads want to handle such shipments 
or not. The ICC's decision at that time was based, in part, upon the 
liability protections that the Price-Anderson Act afforded to the 
railroads.
    I would be remiss if I did not note that, likewise, because of 
their common carrier obligation, freight railroads--alone among all 
modes of transportation--must also transport TIH and other highly-
hazardous materials in response to a reasonable request. However, the 
railroads do not have any comparable Price-Anderson Act protections for 
this transportation.
    While TIH materials are a small percentage of total rail traffic--
they constitute only about 0.3 percent of all rail carloads--the 
transportation of such materials exposes railroads to significantly 
higher costs and potentially ruinous liability due to the 
extraordinarily dangerous characteristics of the commodities 
themselves. Indeed, an accident involving TIH could cause casualties 
orders of magnitude higher than the casualties that would likely result 
from an accident involving SNF. Accidents involving TIH on railroads 
are extremely rare. However, history demonstrates that railroads could 
be subjected to multi-billion dollar claims--even for accidents where 
they do nothing wrong.\13\
---------------------------------------------------------------------------
    \13\ For example, a few years ago in New Orleans, a tank car that 
railroads did not own containing more than 30,000 gallons of liquid 
butadiene began to leak. Vapor from the butadiene tank car rolled out 
across a neighborhood until the pilot light of an outdoor gas water 
heater ignited it. More than 900 people were evacuated, though no one 
was killed or seriously injured. The National Transportation Safety 
Board found that the probable cause of the accident was an improper 
gasket that a chemical company had installed on the tank car. 
Nevertheless, a state court jury entered a punitive damages verdict 
against the railroads involved in the amount of $2.8 billion.
---------------------------------------------------------------------------
    Moreover, the revenues that highly-hazardous materials generate do 
not come close to covering the potential liability to railroads 
associated with this traffic. Nor can railroads fully insure against 
the multi-billion dollar risks associated with TIH shipments.\14\ This 
places railroads in an untenable situation.
---------------------------------------------------------------------------
    \14\ Although TIH materials account for only 0.3 percent of rail 
carloads, the absolute number of carloads--some 100,000 per year--is 
250 times higher than the number of expected SNF carloads. The use of 
dedicated trains is feasible for a commodity like SNF where very few 
carloads are involved, but is not feasible for TIH.
---------------------------------------------------------------------------
    Given these points, I respectfully submit that if there is a public 
interest need for railroads to be compelled to carry TIH materials 
similar to that requiring them to carry SNF, there is a corresponding 
public interest need for the rail industry to be able to take into 
account and protect itself against the increased risk and potentially 
ruinous liability exposure associated with transporting TIH materials--
just as railroads (and others) are protected to a limited degree from 
liabilities associated with SNF.
    This can be achieved if policymakers enact a Price-Anderson type 
solution. The AAR has a legislative proposal which would effect a 
Price-Anderson type solution for TIH transport and would be pleased to 
discuss it further with the Committee.
Conclusion
    Thank you for the opportunity to testify. Nothing is more important 
to railroads than the safety of their employees, their customers, and 
the communities they serve. The railroad industry is committed to 
working with its employees, Congress, the FRA, its customers, and 
others to ensure that rail safety continues to improve.

    Senator Ensign. I want to thank the panel and I will ask a 
few questions and let Senator Thune ask a few questions. And if 
I have other followup, I will continue with that.
    I want to follow up on some of the questions that I asked 
in the first panel about the accidents and a few of you have 
had some comments on that.
    First of all, Dr. Crowley, the National Academy of 
Sciences, can you address the full-scale models versus what DOE 
has been testing and why you think that full-scale models are 
important to do?
    Dr. Crowley. I would be happy to do that. And it is not 
testing full-scale models. It is actually testing the articles 
that are used to transport the spent fuel.
    There have been many tests carried out on full-scale 
articles around the world. They include the regulatory tests. 
For example, one of the tests that shipping packages are 
required to pass is a drop of 9 meters onto an unyielding 
surface, which actually, in terms of the impact forces on the 
canisters, is more severe than you are likely to see in any 
kind of a collision.
    In addition, in the 1970s, Sandia National Laboratory 
carried out a number of tests where they crashed casks, full-
scale casks, on trailers and trucks and trains against 
unyielding barriers, and they actually crashed a canister on a 
trailer with a train. Those canisters are designs that are no 
longer used today. So those are not really applicable to 
current-day standards.
    In addition, in the U.K., the Electricity Generating Board 
in the 1980s conducted a test where they put one of their 
canisters on a train, on a flat car, turned the flat car on its 
side, put it across the track, and crashed a very heavy 
locomotive into that canister at about 100 miles an hour.
    So those are the kinds of tests that have been carried out.
    Let me make one other comment. From an impact point of 
view, these packages are very robust, and as I said before, the 
regulatory tests that these canisters have to go through are 
more rigorous than what you are likely to see in a real-world 
accident.
    That is not necessarily the case for severe fires. There is 
a 30-minute, fully engulfing test that is required as part of 
the regulation. As you pointed out earlier, there are certainly 
fires that burn for periods on the order of much longer than 30 
minutes. In fact, I forget when exactly it was. It was in the 
1970s or 1980s in the U.K.. There was a very, very severe 
tunnel fire with petrol cars that burned for several days.
    Senator Ensign. Did we not have something in Baltimore as 
well?
    Dr. Crowley. We had a Baltimore fire as well, but that only 
burned for a few hours. So this fire was much----
    Senator Ensign. It is still longer than 30 minutes.
    Dr. Crowley. It is much longer than 30 minutes. That is 
right.
    As a consequence of that U.K. fire, the U.K. Department of 
Transport prohibited the carriage of spent fuel trains with 
flammable materials or passing other trains in tunnels.
    And I should say for the Baltimore tunnel fire, whether or 
not this package is fully engulfed is really important. If you, 
for example, just have an end of the package that goes into the 
fire, the heat can conduct away. So you really need to put the 
entire package in the fire and it needs to be maintained for a 
long period of time to see the kind of impact that you might be 
concerned about.
    Senator Ensign. And that kind of testing has not been done.
    Dr. Crowley. To my knowledge, it has not been done.
    Senator Ensign. Anybody else want to make any comments on 
that?
    [No response.]
    Senator Ensign. Maybe, Dr. Ballard, you have studied--
obviously, based on what the terrorists did on 9/11, they 
looked for weaknesses. I mean, do you not think that they would 
look--you said you have to put the mind of a terrorist on, not 
the mind of a regulator or a government oversight official. The 
mind of a terrorist is going to look for the weaknesses there. 
If they are going to try to attack one of these, do you not 
think that would be one of the things they would try to 
replicate?
    Dr. Ballard. Well, across the United States, we will see 
lots of geographic locations that would enhance an attack, a 
tunnel, a bridge, et cetera. I live in Santa Clarita, and we 
recently had a tunnel fire there that was a very significant 
incident. It was a series of trucks that on a very rainy day 
got together in the tunnel, and they melted the frames of the 
trucks. Now, was it a fully engulfing fire? If a cask had been 
in that tunnel, what would have happened? The difference 
between a rail cask and its robustness and a truck cask and its 
robustness--all of those should be tested using full-scale 
testing models, and we have not done that, as far as I know, to 
date, and I think the testimony today kind of supports that.
    Senator Ensign. Ms. Schubert, in your testimony, you have 
been able to find these transportation routes. How easy would 
it be for a terrorist to kind of get these transportation 
routes and be able to set up what they would believe an ideal 
place to attack?
    Ms. Schubert. It took us just looking at the basic maps and 
the EIS and then going in and getting some GIS data and putting 
layers on it. So it was not that difficult. It took some time 
and a little bit of effort, but these are the DOE maps just 
with additional information fleshed out so people have a better 
idea of what is going on.
    And I think it is important to point out, although we are 
talking mostly rail and probably truck, we are also talking 
barge transport, which is very slow-moving barges with large 
casks on them which are going to be very obvious to anybody who 
is looking for something like that.
    Senator Ensign. The last question has to do with on-site 
storage. You mentioned, Dr. Crowley, that onsite storage is a 
pretty proven technology today. The security--obviously, you do 
not have to worry about transportation with onsite storage. I 
do not know if you have expertise in this field, but are you 
familiar with how long is on-site storage or what are the best 
guesses for how long on-site dry cask storage would be safe?
    Dr. Crowley. Well, actually my organization has also 
published on that aspect as well, so I can talk about that.
    Senator Ensign. I knew they had. I did not know whether you 
were familiar with this.
    Dr. Crowley. Yes. I was actually also study director of 
that report.
    Senator Ensign. OK.
    Dr. Crowley. First of all, let me say that whether or not 
you store something onsite or you transport it to a repository 
is a policy choice.
    Senator Ensign. Correct.
    Dr. Crowley. We all understand that. This is not a 
technical choice. It is a policy choice.
    As far as storage onsite, you can in principle----
    Senator Ensign. By the way, some people think it is a 
technical choice.
    Dr. Crowley. It is not a technical choice.
    Senator Ensign. My colleagues do not understand that. They 
do not understand what you just said. They think it is a policy 
choice. They think you cannot store it safely onsite. That is 
the reason everybody wants to get it out of their back yards.
    Dr. Crowley. Well, let me just make a couple of comments 
about that because the answer to your question is not a simple 
answer.
    From a technical point of view, you can store that stuff 
forever onsite. From a technical point of view. What you have 
to worry about is loss of institutional control, loss of 
institutional will to continue to take care of that material. 
If you put it into dry cask storage technology, which is what 
you can do after about 5 years, you can maintain that on a 
concrete pad. You have got to keep the casks painted, and maybe 
after 100 years or so, you might actually have to bring the 
fuel out of the cask and replace the cask. You could continue 
to do that forever.
    However, those----
    Senator Ensign. But it probably good for at least 100 
years.
    Dr. Crowley. That is correct. In fact, we have said that.
    However, the nuclear plants will not operate for 100 years, 
and so after some period of time, those plants will be gone and 
that spent fuel will be stranded at the site. When you have an 
operating plant, the owner of the plant has an economic 
imperative to take care of that fuel. Once the plant is gone, 
that economic imperative is gone.
    Senator Ensign. Unless the Federal Government takes title 
to that onsite. That is a policy question, not a technical 
question.
    Dr. Crowley. That would be a policy choice. That is right, 
yes.
    Senator Ensign. Anybody else want to comment on that?
    Dr. Ballard. Senator Ensign, one of the things that we have 
talked here today about is that transporting the material 
induces or increases the risk. We actually have examples of 
this. On February 4th, 1985, there was a threat against a 
shipment campaign, and that threat was that they would crash a 
plane into a shipment container. That was called in to a 
corporate headquarters for the power plant. It is reported in 
the NRC's SSEL document. So we have at least an incident of 
somebody threatening one of these shipments.
    What is not in the SSEL is another significant incident, 
and that was in Golden Valley, Minnesota on October 27, 1986, 
where a 39-foot section of track was removed ahead of a train 
that was carrying SNF. Fortunately, I should say, the shipment 
was routed--a different train was routed ahead of it. It 
derailed. It was carrying lumber, and so we did not have a 
significant incident at that time.
    We do think that this is related because right on the wall 
near where this track was removed was the slogan: ``Stop rad 
waste shipments.'' This incident is not in the NRC's official 
SSEL. It is not documented as a potential threat.
    So the point here is transporting materials adds new 
threats. It brings out new adversaries with that creative 
capability of trying to stop whatever they wish to.
    Senator Ensign. Thank you.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and thank you, 
panel, for your insights and your input.
    I am very interested in the energy issues. I have been 
involved with those since arriving here. And I think it is 
probably one of the big challenges our country faces. It 
strikes me that there are lots of things that we should 
probably be doing more of to help address the issue of energy 
independence. We get about 19 percent of our power from 
nuclear, about 50 percent from coal.
    And if you consider the various policy goals that are sort 
of laid out as we head into the future, one is increasing the 
use of electric hybrid cars, which means we are going to have 
additional demand for electricity, which is going to stretch 
the supply that we currently have, and it gets into whole other 
issues of transmission capability and whatnot. But there is 
also the goal of limiting carbon emissions, and that too is 
something that nuclear energy could help address, being a clean 
fuel.
    So I guess the question I have is we have seen in other 
parts of the world--France, for example, I am told 80 percent 
of their electric power comes from nuclear. Why is it that it 
has not taken off more in this country? And I think many of the 
issues that are being discussed today are perhaps part of that.
    But tell me, if you can, whoever would care to answer this 
question who has any experience or knowledge with the issues of 
transporting spent fuel in other countries of the world where 
nuclear is a much bigger part of the energy supply than it is 
here in the United States and have they experienced some of the 
same issues and how do they address those.
    My number here says 1,500 commercial shipments of spent 
fuel since 1979--I guess, Director Weber had testified to 
this--without incident. How do you compare the logistical and 
technical challenges that we face with these shipments here in 
this country with those in other places around the world where 
nuclear is a bigger in terms of the power supply?
    Dr. Crowley. Well, I will take an initial crack at that. As 
part of our Going the Distance study, we actually went to 
Europe and we talked to officials who were involved with and 
citizens who were concerned about transportation of spent fuel.
    As it turns out, in Europe, at least until recently, there 
has been a great deal more spent fuel transportation. The 
Honorable Edward Sproat talked about 3,000 shipments. There 
have been on the order of tens of thousands of shipments in 
Europe. And the reason for that is that until recently, fuel 
was not stored very long in the spent fuel pools at the 
powerplants. Rather, that fuel was sent to be reprocessed both 
in the U.K. and in France. And so they have very routine 
shipments of fuel. Those routine shipments go through very 
large cities. And there are citizens over there who are 
concerned about that, but the consensus in those countries 
seemed to be that that is OK.
    Recently the number of shipments have decreased as the 
reprocessing activity has gone down, and now more plants are 
storing the fuel on their sites rather than sending it for 
reprocessing.
    Senator Ensign. Why has the reprocessing activity gone 
down?
    Dr. Crowley. Well, there have been a number of reasons. In 
the U.K., one of the plants, the Thor plant which is used to 
reprocess oxide fuel, sprung a leak, and so it has been shut 
down.
    Germany has encountered a lot of resistance in transporting 
spent fuel actually. At one point, they had to call out 30,000 
police to protect a spent fuel shipment against protesters. So 
they have made a policy decision to store that material at the 
powerplant sites, and all of the powerplants have been required 
to build storage buildings for that material.
    Other countries in Europe have just decided that it is too 
expensive to send the fuel for reprocessing, and they have 
stopped. Not all countries, but some countries have just 
stopped.
    Senator Ensign. What is Japan doing now? Did they not just 
build a reprocessing plant?
    Dr. Crowley. Japan has been sending its spent fuel to 
Europe to be reprocessed, but they did just recently build a 
reprocessing facility and they will reprocess their fuel 
domestically.
    Senator Thune. Could you answer the question as to--one of 
the issues, of course, with transportation and basically the 
whole Yucca Mountain thing of getting rid of nuclear waste as 
opposed to storing, all those things we have debated here for a 
long time--and Senator Ensign and his colleagues from Nevada 
have some strong views about the whole Yucca Mountain issue.
    But one of the things that we--I have been working with a 
bipartisan group of Senators who are trying to develop a 
comprehensive energy policy which includes more incentives for 
nuclear power in this country. And one of the things that we 
addressed was the Carter era ban on reprocessing spent fuel. 
And basically what we called for was a demonstration facility 
to develop spent fuel reprocessing.
    And I guess my question in that regard is, why is that not 
something in this country that we have been more acceptant of? 
That is clearly something that in the countries that you just 
mentioned they have supported. Why is it that we cannot be 
developing more nuclear power in this country instead of 
dealing with it and disposing of it at a place like Yucca 
Mountain, which is very controversial? And I realize the ban is 
very controversial too. But I would be interested in your 
thoughts on that, Dr. Crowley, about why that is not something 
that would not be now, it seems to me at least, more acceptable 
in this country.
    Dr. Crowley. Well, as it turns out, when the first 
generation of commercial nuclear plants were built in this 
country, the concept was to reprocess the spent fuel, and that 
is one of the reasons that those plants have such small spent 
fuel pools. The idea was to store that fuel in the pools for 
just some matter of months and then send it off to be 
reprocessed. And there were two or three reprocessing plants 
that were built or planned to be built in the country. They ran 
into a number of technical problems and none of those plants--
well, one plant in West Valley was operated for a short period 
of time, but none of the other plants were operated.
    Carter did in, I think it was, 1977, ban reprocessing. On 
the other hand, Reagan overturned that ban in the early 1980s, 
and yet no reprocessing plants were built. And I think at that 
point it was a matter of economics.
    Right now the price of uranium is fairly inexpensive, and 
if you are an operator of a nuclear plant, it is much cheaper 
for you to buy fresh spent fuel and to store that fuel with the 
idea that you would eventually send it off to be disposed of 
than it is to reprocess that fuel. And I think that is the 
reason that you are not seeing a lot of activity for 
reprocessing in the United States.
    Now, as you know, there has been recent interest in 
reprocessing, and I know that one of the French companies has 
asserted that, in fact, it is economical to reprocess. But I 
have not reviewed that material, and so I do not really have an 
opinion on that.
    But historically it has been false starts early on and now 
economics.
    Senator Thune. Well, that is good to know. I did not 
realize that economics played that big of a role in that. It 
just seems like if that is something that we could open up a 
little bit, but if it is, in fact, not going to be economical 
for companies to do that--it seems to me that it bears on the 
whole issue of transportation too because my assumption is if 
you have reprocessing plants different places, it probably 
limits the amount of transportation that is necessary to get 
everything out to Yucca or someplace for disposal like that. I 
would assume those would be all around the country and would 
minimize the distance that some of the spent fuel would have to 
be transported.
    Dr. Crowley. Well, let me make a couple of comments about 
that. Right now, as you know, the owners of nuclear power 
plants are spending a tenth of a penny per kilowatt hour to get 
their fuel disposed of, and it is the Government's 
responsibility to dispose of that fuel. So I think from the 
perspective of the commercial spent fuel owners, they would 
say, hey, we have already paid for this. Why should we pay 
twice?
    Reprocessing plants are very expensive. Japan spent over 
$20 billion on its reprocessing plant. I forget what its 
capacity is. Several hundred or a couple of thousand of metric 
tons per year. So it would be very expensive to build a lot of 
reprocessing plants.
    Senator Thune. You do not see then multiple reprocessing 
plants.
    Dr. Crowley. Certainly not initially, no.
    And then also, reprocessing does not eliminate the need for 
disposal. You are going to reprocess the fuel. You are going to 
recover its useful components, but the waste still has to go 
somewhere. You could store it onsite at the reprocessing plant. 
Some of the shorter-lived radioactivity would decay away, but 
there would be a longer-lived component that would have to be 
disposed of eventually.
    Senator Ensign. The volume is tremendously less, though. Is 
it not?
    Dr. Crowley. Not necessarily. It depends on the 
reprocessing approach that you use. The current approach, which 
is based on PUREX, would not reduce the volume. The Department 
of Energy is trying to develop advanced reprocessing 
technologies. They claim it would reduce the volume. And the 
other thing that that would do for you would be to allow you to 
separate out the different kinds of radioactivity. So a lot of 
it you could just store for a couple of hundred years to decay.
    Senator Ensign. Is that the accelerator technology that 
they are talking about?
    Dr. Crowley. Well, they are talking about--instead of 
PUREX, it is called UREX. It is just an advanced reprocessing 
that allows you to take the spent fuel, dissolve it, and 
separate out its components.
    Now, there is another option when you can take some of the 
long-lived components of the fuel, put it into a reactor or an 
accelerator, and transmute it to reduce its long-term toxicity.
    Senator Ensign. That is more theoretical still. Right?
    Dr. Crowley. Exactly. That is not ready for deployment at 
this point.
    Senator Ensign. Right. That is what I understand.
    I want to thank the panel.
    Also, just one last comment. Also, it had to do with 
weapons-grade plutonium was the reason I think Carter stopped 
the reprocessing as well, although it looks like Europe and 
Japan have answered that. From what I understand vitrification 
takes care of that problem. It makes it unusable to ever have 
weapons-grade plutonium.
    Dr. Crowley. That is not actually true. What they are doing 
is separating out the fission products, and that material has 
no use other than to a terrorist who might want to build a 
dirty bomb. But the plutonium is actually being separated out 
and it is being stored. And that is a real concern. We are not 
so concerned when countries like France and the UK and Japan do 
that because they are allies, but we would be very concerned if 
other countries that were not allies started to do that.
    Senator Ensign. In this issue, we are just talking about it 
here in this country.
    So, listen, it has been a fascinating couple of panels. I 
want to thank both panels for your expert testimony, and we 
will see where this leads. Hopefully, it will not lead to Yucca 
Mountain. Thank you.
    [Whereupon, at 3:50 p.m., the hearing was adjourned.]
                            A P P E N D I X

  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                       Hon. Edward F. Sproat III
    Question. The DOE will have the authority to begin shipments to 
Yucca Mountain if the NRC approves the license application for 
construction authorization, which could very quickly lead to the large 
quantities of nuclear waste being shipped to Yucca Mountain. What steps 
has the DOE taken to prepare the public for the increase in these 
shipments? Has the DOE been actively addressing public concerns over 
these shipments?
    Answer. Since passage of the Nuclear Waste Policy Act (NWPA) in 
1982, DOE has been working with its stakeholders to identify, address, 
and resolve issues of concern related to the transport of spent nuclear 
fuel and high-level radioactive waste. DOE has worked with law 
enforcement, emergency response, and public safety officials from 
potentially impacted States, Tribes, and local governments to 
communicate information about spent nuclear fuel transportation. As 
specific concerns arc identified, DOE has addressed them through 
outreach programs and in discussions at Transportation External 
Coordination Working Group conferences. DOE has also maintained 
cooperative agreements with State Regional Groups (e.g., the Western 
Interstate Energy Board), public safety organizations (e.g., the 
Commercial Vehicle Safety Alliance), and legislative organizations 
(e.g., the National Conference of State Legislatures), all specifically 
for the purpose of addressing concerns and helping corridor communities 
prepare for the planned shipments. DOE additionally has 
responsibilities under Section 180(c) of the NWPA to provide funding 
and technical assistance for training to states and tribes and will 
make such funding available.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                       Hon. Edward F. Sproat III
    Question 1. When will routes and shipment schedules be established? 
Will the public have access to the route information? If not, why not?
    Answer. The selection of truck routes will be made in accordance 
with DOT routing regulations set forth in Title 49 of the Code of 
Federal Regulations. The selection of railroad routes will be the 
responsibility of the carriers, as specified in Title 49 of the Code of 
Federal Regulations. DOE is working with stakeholders to establish 
routing criteria and will work in close cooperation with the carriers 
to ensure that routes selected will be safe, secure, and efficient. 
Authorized officials will be provided specific routes and shipping 
schedules as part of the NRC required pre-notifications that will be 
made before each shipment. Specific routes and shipping schedules will 
not he available to the general public for security reasons.

    Question 2. How much of the spent nuclear fuel are you expecting to 
be transported over highways rather than rail? Are TAD canisters being 
developed that can be transported by tractor trailers?
    Answer. DOE estimates about 10 percent of the spent nuclear fuel to 
Yucca Mountain will be shipped by truck. The TAD canisters currently 
being designed will be shipped to the repository using rail.

    Question 3. How will the Department of Energy ensure the security 
of shipments to Yucca Mountain?
    Answer. The Department is committed to ensuring the security of 
shipments to Yucca Mountain and will meet or exceed the level of 
security provided by following the current regulations and additional 
measures put in place by the Nuclear Regulatory Commission, the 
Department of Transportation (DOT), and the Department of Homeland 
Security.
    DOE coordinates with these entities to continually assess potential 
developments that could affect security. In addition, DOE will work 
with Federal, State, Tribal and local law enforcement, as appropriate, 
to fulfill our shared responsibilities for spent nuclear fuel 
transportation safety.

    Question 4. Why has DOE not analyzed which specific rail and truck 
routes to Yucca Mountain have the least risk of accident and/or 
sabotage and the least risk of environmental, economic, and human 
health impacts in the event of accident and/or sabotage?
    Answer. Under applicable regulations specific routing selections 
cannot be made until nearer to he time of shipments. Nevertheless, in 
its NEPA documentation relating to the Yucca Mountain repository, DOE 
has analyzed representative routes and has also analyzed the risk of 
accidents, transportation sabotage considerations, and consequences of 
potential sabotage events.

    Question 5. Why shouldn't the analysis of the relative risks of 
specific rail routes be done now, prior to licensing, instead of after 
licensing? When will DOE complete such an analysis?
    Answer. Under applicable DOT regulations, specific trucking and 
rail routing decisions cannot be made until nearer the time of 
shipments. Under those regulations, specific rail routing decisions 
will be made by the rail carriers pursuant to the regulations in effect 
at the time of the shipments.
    As a general matter, however, the DOT's Pipeline and Hazardous 
Materials Safety Administration. in coordination with the Federal 
Railroad Administration and the Transportation Security Administration, 
has recently issued a final rule revising requirements in the Hazardous 
Materials Regulations applicable to the safe and secure transportation 
of certain hazardous materials transported in commerce by rail. The 
final rule requires rail carriers to compile annual data on these 
shipments, use the data to analyze safety and security risks along rail 
routes where those materials are transported, assess alternative 
routing options, and make routing decisions based on those assessments 
to select the safest and most secure practicable route. Under the new 
rule, the railroad carriers are developing their processes for 
conducting these assessments, on a national scale, taking into account 
the many thousands of shipments of toxic gases, explosives, and poisons 
that must be handled safely and securely every day. DOE is monitoring 
how rail shippers and carriers of such toxic materials are implementing 
this new rule. DOE is also working with DOT and the railroads to better 
understand how such assessments arc to be conducted, and how spent 
nuclear fuel shipments need to be considered in such analyses.

    Question 6. Will DOE contractually bind carriers it contracts with 
to use those rail routes that DOE has determined to be safest? If not, 
why not?
    Answer. DOT's new rail routing rules require the carriers to use 
the routes the carriers consider safest and most secure, subject to 
DOT's review. DOE contract incorporate DOE Directives that require DOE 
contractors to follow these and all other applicable DOT regulations 
when transporting material on behalf of DOE.

    Question 7. When does DOE plan to perform an environmental review 
under the National Environmental Policy Act for its National 
Transportation Plan and National Operational Plan?
    Answer. In 2002, DOE issued its Final Environmental Impact 
Statement for a Geologic Repository for the Disposal of Spent Nuclear 
Fuel and High-Level Radioactive Waste at Yucca Mountain, Nye County, 
Nevada, DOE/EIS-0250F, and in 2008 issued its final Supplemental 
Environmental Impact Statement for a Geologic Repository for the 
Disposal of Spent Nuclear Fuel and High-Level Radioactive Waste at 
Yucca Mountain, Nye County, Nevada--Nevada Rail Transportation 
Corridor, DOE/EIS-0250F-S-2 and its final Environmental Impact 
Statement for a Rail Alignment for the Construction and Operation of a 
Railroad in Nevada to a Geologic Repository at Yucca Mountain, Nye 
County, Nevada, DOE/EIS-0369. These documents analyze the potential 
impacts associated with the transportation of spent nuclear fuel and 
high-level radioactive waste to the Yucca Mountain repository. The 
National Transportation Plan and National Operation Plan that will be 
developed are planning documents that implement the proposed action 
which was already analyzed in these National Environmental Policy Act 
(NEPA) documents. DOE would conduct supplemental NEPA review if DOE 
makes substantial changes in the proposed action or there are 
significant new circumstances or information relevant to environmental 
concerns and bearing on the proposed action or its impact.

    Question 8. Will DOE require that all nuclear waste shipped by rail 
to Yucca Mountain be carried in dedicated trains, or will it allow some 
nuclear waste to be shipped in general freight service? Will DOE 
analyze and compare the risk between a dedicated train and general 
freight service, particularly as to railroad route segments that 
present particular challenges to longer trains?
    Answer. In July 2005, DOE adopted a policy to use dedicated trains 
as its usual mode of rail transportation for shipments of commercial 
spent nuclear fuel and high-level radioactive waste to the Yucca 
Mountain repository. In adopting this policy, however, DOE has 
recognized that such materials can be shipped safely regardless of mode 
and regardless of type of service due primarily to the stringent 
regulations in place and the robust nature of the transport packages 
involved. In adopting the policy, DOE has additionally identified the 
primary benefit of using dedicated trains to be the significant costs 
savings over the lifetime of the Yucca Mountain Program. However, there 
may also be circumstances where general freight service would be more 
appropriate to promote costs savings, operational flexibility and/or 
efficiency for shipments to the Yucca Mountain repository.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Harry Reid to 
                       Hon. Edward F. Sproat III
    Question 1. If the Department of Energy (DOE) is able to maintain 
its current schedule for licensing and building the Yucca Mountain 
nuclear waste repository, when is the soonest you could begin 
transporting nuclear waste? Would the DOE consider shipping nuclear 
waste prior to completing construction at Yucca?
    Answer. Under the Nuclear Waste Policy Act, the Department of 
Energy (DOE) could not begin transporting spent nuclear fuel and high-
level radioactive waste to the Yucca Mountain repository until the 
Nuclear Regulatory Commission (NRC) issues a construction authorization 
license and a repository license to receive and possess spent nuclear 
fuel and high-level radioactive waste for disposal. Under current 
planning, the earliest date that DOE anticipates that it would begin 
transporting waste to the Yucca Mountain repository is 2020.

    Question 2. In 2007, the DOE officially gave Congress draft 
legislation that would abolish Department of Transportation (DOT), 
Nuclear Regulatory Commission (NRC), Surface Transportation Board, and 
state authority over transportation of nuclear waste. Does the DOE 
still support this legislation? Will the DOE be able to ship waste if 
Congress does not eliminate these other agencies' authorities over 
nuclear waste shipments?
    Answer. The Department supports the proposed legislation which 
would not abolish or otherwise change the existing authority of DOT, 
NRC, the Surface Transportation Board, states and other entities over 
transportation of nuclear waste by or on behalf of DOE. Rather, Section 
7 of the proposed legislation would clarify the manner in which the 
Department may exercise its existing authority to regulate the safety 
and security of transportation of radioactive materials to Yucca 
Mountain. DOE has broad authority under the Atomic Energy Act of 1954, 
as amended (AEA), to regulate all aspects of activities involving 
radioactive materials that are undertaken by DOE or on its behalf, 
including the transportation of radioactive materials. DOE exercises 
this authority to regulate certain DOE shipments, such as shipments 
undertaken by governmental employees or shipments involving national 
security. In most cases where DOE utilizes commercial carriers, 
however, DOE does not exercise its AEA authority but rather relies on 
regulation of these shipments by DOT, NRC and other entities as 
appropriate. With respect to shipments to Yucca Mountain, DOE currently 
plans to use commercial carriers regulated by DOT.
    As a policy matter and without regard to which agency exercises 
regulatory authority, DOE requires shipments by it or on its behalf to 
be undertaken in accordance with the requirements and standards that 
apply to comparable commercial shipments, except where there is a 
determination that national security or another critical interest 
requires different action. This policy is set forth in DOE Orders 
460.1B, Packaging and Transportation Safety, 460.2A, Departmental 
Materials Transportation and Packaging Management, and 470.4A, 
Safeguards and Security Program, as well as DOE Manual 460.2-IA, 
Radioactive Material Transportation Practices Manual. In implementing 
this policy, DOE will cooperate with Federal, State, local and Tribal 
entities and utilize existing expertise and resources to the extent 
practicable. In all cases, DOE is committed to achieving a level of 
protection that meets or exceeds the level of protection associated 
with comparable commercial shipments regulated by DOT and NRC.

    Question 3. CSX Transportation recently expressed concern that the 
DOE could be reversing its plan to use dedicated railcars for shipping 
spent nuclear fuel. CSX stated that the DOE is now stressing the need 
for ``flexibility'' so they can reserve the option of shipping spent 
fuel together with other commercial items. Is the DOE reversing its 
position and if so, why does the DOE now think it is safe to transport 
commercial and nuclear shipments together?
    Answer. In July 2005, DOE adopted a policy to use dedicated trains 
as its usual service mode of rail transportation for shipments of 
commercial spent nuclear fuel and high-level radioactive waste to the 
Yucca Mountain repository, and that policy has not changed. In adopting 
the policy, DOE has recognized that such materials can be shipped 
safely regardless of mode and regardless of type of service due 
primarily to the stringent regulations in place and the robust nature 
of the transport packages involved. In adopting the policy, DOE has 
additionally identified the primary benefit of using dedicated trains 
to be the significant costs savings over the lifetime of the Yucca 
Mountain Program. However, there may also be circumstances where 
general freight service would be more appropriate to promote costs 
savings, operational flexibility and/or efficiency for shipments to the 
Yucca Mountain repository.

    Question 4. The National Academy of Sciences, the Government 
Accountability Office and even the state of Nevada have recommended 
that the oldest spent nuclear fuel should be shipped first. They claim 
that storing nuclear waste at the reactor for 50 years or more before 
shipping it can reduce public health risks from radiation by up to 85 
percent. The Academy also notes that this will reduce the consequences 
of a terrorist attack. So why hasn't the DOE considered shipping older 
fuel first in its environmental impact statements (EIS)?
    Answer. In developing the impact analyses in its environmental 
impact statements. DOE used conservative, ``bounding'' assumptions. 
This is a standard risk assessment practice to ensure the actual 
impacts likely to occur will be less than--in some cases, much less 
than--the calculated estimate of impacts. The age and radioactivity 
level of the fuel is one example. In DOE's analyses, the Department has 
assumed that every shipment of spent nuclear fuel would have the very 
highest level of radioactivity permissible by Federal regulation, every 
single time, which in reality is not possible (older fuel already 
exists). DOE's analysis showed that, even if every shipment had the 
very highest levels permissible, the shipments would still pose a very 
low risk. The fuel in any particular shipment, regardless of age, does 
not present a safety or security issue so long as the material is 
packaged and transported in accordance with the strict regulations that 
apply to such shipments.

    Question 5. In May, Holtec International--a firm that submitted a 
bid to design the transportation canisters for the DOE--said that an 
earthquake at Yucca Mountain would send the casks into a ``chaotic 
melee of bouncing and rolling juggernauts'' if it were to rely on the 
DOE's specifications. The firm said that ``pigs will fly before the 
cask will stay put.'' Has the DOE taken any steps to respond to 
Holtec's concerns?
    Answer. In June 2008, DOE submitted its license application for 
authorization to construct the repository, and in September 2008, NRC 
docketed and commenced its detailed review of the application. The NRC 
will conduct a thorough and rigorous review, pursuant to NRC's 
applicable regulations, of DOE's license application and will determine 
the adequacy and safety of the repository. The NRC will similarly 
conduct a rigorous and thorough review of the applications that will be 
submitted for certificates of compliance for the casks used to 
transport and age spent nuclear fuel onsite.

    Question 6. Why hasn't the DOE requested an independent assessment 
of nuclear waste transportation security, as was recommended by the 
National Academy of Sciences in their 2006 report?
    Answer. DOE agrees with NRC's position that security measures for 
future shipments must defend against the threat that exists at the time 
of that shipment, and take advantage of enhancements in technology then 
available. Since these factors may change over time and shipments to 
the Yucca Mountain repository are not expected to begin until 2020 at 
the earliest, it would be more appropriate to conduct an independent 
security assessment closer to the time of actual shipments. DOE, 
nevertheless, is currently a participant in a Multilateral Agreement 
with Great Britain, France and Germany to conduct classified laboratory 
tests that would accurately measure the impacts of sabotage events on 
spent fuel. These tests will inform future security assessments.

    Question 7. Has the DOE made public its plan for selecting national 
rail and truck routes, as recommended by the National Academy of 
Sciences?
    Answer. DOE has addressed routing in its National Environmental 
Policy Act (NEPA) documentation relating to transportation, both 
nationally and in Nevada, of spent nuclear fuel and high-level 
radioactive waste to Yucca Mountain. Truck shipments will be shipped in 
accordance with DOT regulations, using preferred routes that reduce 
time in transit. A preferred route is an Interstate system highway 
selected by a State or Tribal routing agency in accordance with 
applicable DOT regulations. Under those regulations, substantive 
consultation with affected jurisdictions would be required prior to 
designating an alternative route to ensure consideration of all impacts 
and continuity of designated route.
    Rail shipments would be shipped using routes selected by the rail 
carriers, which have responsibility for selection of rail routes. 
Railroads are privately owned and operated, and shippers and rail 
carriers determine routes based on a variety of factors. Route 
selection for shipments to Yucca Mountain would involve discussions 
between DOE and the chosen rail carriers, with consideration of input 
from other stakeholders. While Federal rules do not prescribe specific 
routes for spent nuclear fuel and high-level radioactive waste 
shipments by rail, certain factors must be considered in route 
selection.
    DOE anticipates that it will identify a preliminary suite of 
national routes 5 years prior to shipments in order to identify states 
and tribes that will be eligible for technical assistance and funds for 
training under Section 180(c) of the Nuclear Waste Policy Act. Over the 
past several years, the DOE has engaged in discussions with rail 
carriers and other stakeholders on issues related to routing.

    Question 8. Has the DOE established a social risk advisory group, 
as recommended by the National Academy of Sciences?
    Answer. As the National Academy of Sciences recommended, DOE has 
engaged stakeholders on methods to communicate about transportation 
safety, and is currently exploring the formation of an advisory group 
chartered under the Federal Advisory Committee Act to provide input on 
a range of transportation issues, including the public perception of 
risk.

    Question 9. What is the DOE's contingency plan for transporting 
waste to Yucca Mountain in the event that rail access to Yucca is not 
available by the time Yucca is opened? Was this considered in the DOE's 
Rail Alignment EIS?
    Answer. In order to operate efficiently and meet its obligations 
under the Nuclear Waste Policy Act, DOE needs to have direct rail 
access to the Yucca Mountain repository. The facility will be able to 
accept truck shipments of spent nuclear fuel, but rail access will be 
required to efficiently ship larger transportation, aging and disposal 
(TAD) canisters that are the basis of the repository design. DOE plans 
for the railroad to be available before commencement of shipments of 
spent nuclear fuel and high-level radioactive waste. If the railroad 
were not initially available, however, DOE anticipates that it would 
consider shipments of spent fuel in small truck casks that are included 
in the scenarios analyzed in the Department's NEPA documentation 
relating to the Yucca Mountain repository.

    Question 10. Out of 72 commercial sites with nuclear waste, 24 of 
them do not have railroad access. That means the DOE will have to haul 
waste by truck from at least one third of nuclear reactors. Does the 
DOE plan to truck the waste to the railroad? Has the DOT approved this 
approach, given that they are highly concerned about unnecessary stops 
during transport?
    Answer. Sites without direct rail access will be serviced by heavy-
haul trucks to transport rail casks to a nearby railhead. If a site 
were unable to accommodate a rail cask. a smaller, truck cask would be 
used on standard size semi-truck trailers. Intermodal transfers are 
common in the transportation industry, and the logistical challenges 
are well-understood. At this time, more than 10 years before shipments, 
potential site-specific transportation infrastructure issues cannot be 
known with any degree of certainty. DOE also evaluated the use of barge 
transportation for transporting rail casks to nearby railheads from 
generator sites near navigable waterways but not served by railheads.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                             Michael Weber
    Question. The National Academy of Sciences has recommended an 
independent examination of the security of spent nuclear fuel and high-
level radioactive waste transportation prior to the commencement of 
large-quantity shipments to an interim or final repository. Has the NRC 
had difficulties working with the DOE to request this type of 
examination? Why hasn't the NRC requested an independent assessment of 
nuclear waste transportation security? What is the NRC currently doing 
to expand the knowledge base for the secure transportation of nuclear 
waste?
    Answer. The DOE, the U.S. Department of Transportation (DOT) and 
NRC have a long history of working together cooperatively on 
transportation safety and security issues, including their joint 
sponsorship of the National Academy of Sciences' (NAS) recent study on 
the transportation of spent fuel. The principal finding of the NAS 
study was:

        The Committee could identify no fundamental technical barriers 
        to the safe transport of SNF and HLW in the United States. 
        Transport by highway (for small-quantity shipments), and by 
        rail (for large-quantity shipments) is, from a technical 
        viewpoint, a low-radiological-risk activity, with manageable 
        safety, health, and environmental consequences, when conducted 
        with strict adherence to existing regulations.

    The NRC takes this study's recommendations very seriously and 
addressed them in our program, including preparations for full-scale 
testing in the U.S. and additional analyses of long-duration, fully 
engulfing fires. The NAS study also recommended that, ``. . . an 
independent examination of the security of spent fuel and high-level 
waste transportation should be carried out prior to the commencement of 
large-quantity shipments to a Federal repository or to interim 
storage.'' At present, the NRC is not planning to conduct an 
independent security assessment with DOE that would cover both 
shipments to Yucca Mountain and to an interim storage facility because 
NRC security assessments have shown that current security measures and 
standards put in place since September 11, 2001, are adequate for the 
protection of spent fuel and high level waste transportation even in 
the event of increased shipping campaigns. Specifically, in light of 
the elevated threat that the U.S. experienced following the terrorist 
attacks on September 11, the NRC issued safeguards advisories and 
orders to enhance transportation security of spent nuclear fuel and 
other large quantities of radioactive material. The NRC issued these 
security enhancements in coordination with DOT, the Department of 
Homeland Security, State agencies, and other Federal agencies. The NRC 
security assessments of transportation, which were completed after the 
publication of the NAS report, evaluated a number of representative 
transportation package designs against a variety of credible land-based 
threats and a deliberate plane crash. The results of these security 
assessments, which we have shared with DOT, DOE, and other 
organizations that have a ``need to know,'' demonstrate that the 
current requirements, combined with the security enhancements put in 
place after September 11, provide adequate protection of public health 
and safety, and the environment, and common defense and security. These 
safeguards advisories and orders are only an interim solution and will 
not be relied on indefinitely. In late 2009, the NRC intends to issue a 
proposed rule for public comment that would revise the requirements for 
secure transport of spent nuclear fuel; the proposed rule would include 
additional measures to address the current threat environment.
    Physical protection measures for future shipments must match the 
threat in place at the time of shipment. In addition, shipment tracking 
and monitoring technologies are constantly improving. The NRC would be 
responsible for overseeing the security requirements for commercial 
shipments to an interim storage facility and DOE would be responsible 
for implementing and overseeing the security requirements for Yucca 
Mountain shipments. Shipments to Yucca Mountain would not begin, at the 
earliest, until 2020, based on current DOE estimates. This estimate is 
tentative, given that NRC staff continue to review the DOE license 
application to construct and operate the repository. Therefore, it 
would be more appropriate to consider whether an independent 
examination of shipment security is needed closer to the time of actual 
shipments. To expand the knowledge base for the secure transportation 
of nuclear waste, the NRC has recently completed, through contract with 
Sandia National Laboratories, a number of security assessments on 
representative spent fuel transportation package designs. The NRC 
believes that these spent fuel transportation package assessments 
demonstrate that the stringent safety standards applied to the design 
of spent fuel packages provide substantial protection from security 
threats. NRC is considering the merits of releasing non-sensitive 
summaries of current spent fuel transportation package security 
assessments in partial response to the NAS study recommendation.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                             Michael Weber
    Question 1. If the Department of Energy is responsible for 
shipments of waste to Yucca Mountain, what will be the role the Nuclear 
Regulatory Commission?
    Answer. Because the Department of Energy (DOE) plans to take 
custody of the spent fuel at the licensee's site (i.e., at a nuclear 
power plant), the NRC's role in the transportation of spent fuel to a 
repository would be limited to certification of the designs for 
shipping casks used for transport and, in the event of a transportation 
incident, providing technical expertise, if requested. Section 180(a) 
of the Nuclear Waste Policy Act of 1982 prohibits the Secretary of 
Energy from transporting spent nuclear fuel or high level waste to a 
repository or monitored retrievable storage facility except in packages 
certified for such purpose by the NRC. Physical security and 
transportation safety for these shipments would be addressed under DOE 
and the Department of Transportation's requirements.

    Question 2. Is the NRC planning to do an independent security 
assessment with DOE that would cover both shipments to Yucca Mountain 
and to an interim storage facility?
    Answer. At the current time, NRC is not planning to conduct an 
independent security assessment with DOE that would cover both 
shipments to Yucca Mountain and to an interim storage facility. Current 
security measures and standards put in place since September 11, 2001, 
are adequate for the protection of spent fuel and high-level waste 
transportation even in the event of increased shipping campaigns. 
Physical protection measures for future shipments must match the threat 
in place at the time of shipment. In addition, shipment tracking and 
monitoring technologies are constantly improving. Shipments to Yucca 
Mountain could not begin, at the earliest, until 2020, based on current 
DOE estimates. This estimate is tentative given that NRC staff continue 
to review the DOE license application to construct and operate the 
repository. Therefore, it would be more appropriate to consider whether 
an independent examination of shipment security is needed closer to the 
time of actual shipments.

    Question 3. Please explain the NRC's physical protection 
requirements for the transportation of spent nuclear fuel as they would 
relate to the transport of spent nuclear fuel to Yucca Mountain. What 
is the process for advance notification of State Governors prior to a 
shipment?
    Answer. As DOE plans to take custody of the spent fuel at the NRC 
licensee's site, DOE requirements would control the physical security 
of spent fuel shipments. NRC's physical protection requirements would 
not apply.
    However, Section180(b) of the Nuclear Waste Policy Act requires 
that the Secretary of Energy abide by the Commission's regulations 
regarding advanced notification of State and local governments prior to 
transportation of spent fuel or high-level waste to Yucca Mountain. 
NRC's advanced notification requirements in 10 CFR 73.37(f) require an 
NRC licensee to notify the Governor or Governor's designee at least 4 
days prior to a spent fuel shipment within or through a state. 
Notifications delivered by mail must be postmarked at least 7 days 
prior to shipment.

    Question 4. You mention in your testimony that you are examining 
the MacArthur Maze accident in Oakland and the I-5/14 interchange 
tunnel fire in Northern Los Angeles County as part of your efforts to 
improve the security of commercial shipments of spent nuclear fuel. 
Will you share a copy of the results when your studies are completed?
    Answer. Yes. The MacArthur Maze accident and 1-5/14 interchange 
tunnel fire studies are focused on how spent fuel casks would perform 
under real world accident conditions involving severe fires. The 
studies are not specifically focused on security-related scenarios, 
although the studies could be used to inform the assessment of sabotage 
or security scenarios involving severe fires. NRC is planning to 
publish the draft reports for the MacArthur Maze accident in Oakland 
and the 1-5/14 interchange tunnel fire in Northern Los Angeles County 
for public comment. We anticipate that the draft reports on both 
accidents will be published in mid-calendar year 2009. The NRC's Office 
of Congressional Affairs will provide your office a copy of the draft 
reports as soon as they are published. The NRC will also notify the 
public of the reports' availability and seek public comments by Federal 
Register notice and by making the reports available on the NRC's public 
website. The final reports will be issued after public comments are 
considered. The NRC's Office of Congressional Affairs will provide your 
office a copy of the final reports
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Harry Reid to 
                             Michael Weber
    Question 1. The U.S. Nuclear Regulatory Commission (NRC) has 
recorded at least four accidents involving spent nuclear fuel shipments 
over the past 30 years. Please tell the Committee about those accidents 
and how the NRC responded.
    Answer. The NRC is aware of four transportation accidents since 
1971 that have involved loaded spent fuel casks in transit. These 
accidents are summarized in the table below. When accidents involving 
spent fuel shipments occur, State and local governments have the 
primary responsibility to respond. Therefore, these accidents were 
handled at the State and local level, with assistance from the carriers 
and shippers.

  Transportation Accidents involving Commercial Spent Fuel Casks (1971-
                                Present)
------------------------------------------------------------------------
      Mode            Date            Location           Description
------------------------------------------------------------------------
Truck            December 8,     Tennessee          Cask thrown free of
                  1971                               trailer following
                                                     head-on collision
                                                     with automobile.
                                                     Minor cask damage
                                                     and no release.
                                                     Driver killed.
Truck            February 2,     Illinois           Trailer collapsed
                  1978                               while crossing
                                                     railroad tracks. No
                                                     cask damage or
                                                     release.
Truck            December 9,     Indiana            Trailer separated
                  1983                               from its axles. No
                                                     cask damage or
                                                     release.
Rail             March 24, 1987  Missouri           Train-auto collision
                                                     at grade crossing.
                                                     Train carrying two
                                                     casks of Three Mile
                                                     Island core debris.
                                                     No cask damage or
                                                     release.
------------------------------------------------------------------------


    Question 2. While the risk for a major accident involving a nuclear 
waste shipment is not great, it still exists and one major accident 
after thousands of successful shipments would mean this entire program 
is a failure. How is the NRC prepared to respond to a worst-case 
scenario situation, in which there is a major radioactive release on a 
railway or a highway?
    Answer. The likelihood of highway or rail accident occurring that 
results in a major release of radioactive material is extremely low. 
This assessment is based on the outstanding safety record of spent fuel 
shipments during the past thirty years, numerous transportation 
shipment risk assessments completed by both the NRC and other Federal 
Agencies, an independent assessment of spent fuel transportation safety 
published by the National Academy of Sciences in 2006, and the 
technical knowledge gained from the actual physical testing of spent 
fuel casks conducted both within the United States and abroad.
    In the event that an accident involving a spent fuel shipment 
occurs, State and local governments have the primary responsibility to 
respond. The NRC is prepared to respond by providing technical 
expertise if requested, to support State and local governments in their 
response. In an extremely unlikely accident scenario involving a major 
release of radioactive material on a railway or a highway, NRC would 
support a coordinated Federal response under the Nuclear/Radiological 
Incident Annex of the National Response Framework.
    In accordance with the Nuclear/Radiological Incident Annex, the 
Federal Department or Agency responsible for the material involved in 
the accident would coordinate the response of other Federal Departments 
and Agencies, including the deployment of specialized equipment and 
personnel. The Department of Energy (DOE) is the coordinating agency 
for transportation incidents involving DOE materials. Therefore, if DOE 
takes custody of spent fuel prior to shipment to Yucca Mountain, DOE 
would be the coordinating agency for transportation incidents. In this 
case, NRC is prepared to provide technical expertise. For shipments to 
sites other than Yucca Mountain, the NRC is prepared to act as the 
coordinating agency for transportation incidents that involve the 
shipment of radiological material by NRC or Agreement State licensees.
    The NRC is also prepared to support the Department of Homeland 
Security in those circumstances under which they take a lead role in 
coordinating the Federal response under the National Response 
Framework.

    Question 3. The NRC reports prepared in the late 1970s estimated 
that sabotage of a spent fuel shipment in an urban area could cause 
hundreds of early fatalities, thousands of latent cancer fatalities and 
economic losses in the billions. In 1979, the NRC promulgated 
regulations to safeguard shipments from sabotage and terrorism. Has the 
NRC reconsidered these regulations or made any significant changes to 
them over the past 30 years?
    Answer. Yes, the NRC continually evaluates its regulations based on 
new information.
    With regard to the reports, the NRC published two reports in the 
mid-1970s: Calculations of Radiological Consequences from Sabotage of 
Shipping Casks for Spent Fuel and High Level Waste, NUREG-0194, 
February 1977, and Final Environmental Statement on Transportation of 
Radioactive Material by Air and Other Modes, NUREG-0170, December 1977, 
that estimated the health effects of a radiological release in a non-
urban area and determined that the estimated risks were not considered 
substantive enough to warrant regulatory action. Sandia Laboratories 
also issued a study in 1977, Transport of Radionuclides in Urban 
Environs: A Working Draft Assessment, SAND 77-1927, suggesting that the 
sabotage of spent fuel shipments had the potential for producing 
serious radiologic consequences in areas of high population density. In 
response to the Sandia study, the NRC issued interim safeguard measures 
for spent fuel shipments in an interim rule published on June 15, 1979. 
The physical protection requirements were subsequently modified based 
on public comments in a final rule dated June 3, 1980.
    The Sandia report (SAND 77-1927) contained estimates which were 
subject to large uncertainties due to lack of technical data. As a 
result, NRC and the Department of Energy sponsored research programs to 
yield information about the potential for radiological releases from 
sabotage events. The research supported a conclusion that the potential 
releases from sabotage events were a tiny percentage of the values 
estimated in the Sandia report (e.g., no early fatalities and seven 
latent cancer fatalities). The interim safeguard measures were 
subsequently modified to reflect the research results and the modified 
measures were incorporated into NRC regulations by public rulemaking on 
June 8, 1984.
    After the attacks of September 11, 2001, the NRC determined that 
additional security measures were necessary during the transport of 
spent nuclear fuel and that the existing regulations should be enhanced 
to further protect spent fuel during transport. The NRC began issuing 
orders to licensees shipping spent nuclear fuel in October 2002. Only 
those licensees currently shipping or expecting to ship spent fuel in 
the near future received the initial order. Since 2002, the staff 
issued additional orders to licensees transporting spent fuel when 
these licensees indicated their intention to ship, The orders imposing 
additional security measures during shipments of spent nuclear fuel are 
an interim solution, pending rulemaking, as described below.
    The NRC initiated a rulemaking in September 2008 to enhance the in-
transit security requirements of 10 CFR Part 73 consistent with the 
security measures imposed by the post-9/11 orders. These measures 
include: assuring consistent physical protection along the entire 
shipping route; pre-planning and coordination of a shipment with the 
states; communications among the transporters, escorts, local law 
enforcement agencies, and movement control centers; trustworthiness and 
reliability of individuals associated with the shipment; and normal and 
contingency procedures and training of individuals associated with the 
shipment, The proposed rule is expected to be published in late 2009 
for public comment, with the final rule expected to be issued in late 
2010-early 2011.

    Question 4. Since the attacks against America on September 11, 
2001, the NRC has studied the vulnerability of nuclear waste 
transportation containers. Why haven't the results of these studies 
been made available to the applicable state and local governments? If 
states and local governments are going to be involved in the 
transportation planning process, shouldn't they have more information 
about the risks involved? What can be done to involve state and local 
governments in the transportation planning process?
    Answer. The Commission understands the importance of this 
information in enabling State and local governments to plan for the 
safety and security of spent fuel shipments, especially in their 
emergency response roles and responsibilities, and intends to ensure 
that they have the information they need to exercise these roles and 
responsibilities. In late 2006, the NRC began a dialogue with 
representatives of State Regional Transportation Groups aimed at 
sharing information from the NRC spent fuel transportation package 
security assessments with State and local governments to help them 
prepare more effectively for their emergency response and law 
enforcement responsibilities. This ongoing dialogue includes a 
discussion of what information (related to the spent fuel 
transportation package security assessments) is needed, how and by whom 
such information would be used, and how shared sensitive information 
would be protected. These groups include transportation safety task 
forces established through the Western States Energy Board, the 
Southern States Energy Board, and the Council of State Governments, 
Midwestern and Northeast States Divisions. Collectively, the state 
regional groups contain state representatives from all of the states 
that have potential transportation routes to Yucca Mountain.

    Question 5. In 2001, 11 train cars derailed while passing through 
the Howard Street Tunnel in Baltimore, Maryland, setting off a fire 
that lasted for days and was 1800 degrees Fahrenheit. Could the 
Department of Energy's (DOE) proposed multi-use transportation casks 
withstand such an accident?
    Answer. The NRC staff has extensively evaluated the Baltimore 
Tunnel fire of 2001, along with other severe accidents as part of its 
efforts to ensure the safety of radioactive material transportation. In 
November 2006, NRC released a study that focused on how three 
representative spent fuel cask designs would have performed if they 
were involved in the Baltimore Tunnel fire (Spent Fuel Transportation 
Package Response to the Baltimore Tunnel Fire Scenario, NUREG/CR6886, 
Rev.1., November 2006). The cask designs analyzed included the NAC-LWT 
truck cask, and the HOLTEC HI-STAR 100 and TN-68 rail casks. The study 
concluded that the fire, if it had involved spent fuel casks, would not 
have caused a release of radioactive material from the spent fuel for 
any of these three cask designs.
    The Baltimore Tunnel fire study did not specifically consider DOE's 
proposed multi-use transportation casks, as the designs for these casks 
are still being finalized and have not yet been submitted to the NRC 
for review. Therefore, it would be premature to make a definitive 
judgment as to how DOE's proposed multi-use transportation cask designs 
would perform. However, we believe that DOE's proposed multi-use 
transportation rail cask designs would be similar in size, weight, and 
configuration to the rail casks we analyzed in our 2006 Baltimore 
Tunnel fire study.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                            Edward Pritchard
    Question. The DOE is advocating for legislation that would give the 
DOE authority to preempt the Department of Transportation's (DOT) 
regulation of the transportation of nuclear waste. Is this something 
you support? Do you think it is necessary to preempt DOT regulations to 
facilitate a massive nuclear waste shipping campaign? How would that 
affect the safety of such shipments?
    Answer. SNF/HLRW has been successfully shipped by rail for the past 
50 years. The exemplary safety record associated with these shipments 
over this time-frame leads FRA to firmly believe that SNF/HLRW can be 
safely and securely transported by rail from its current locations 
throughout the country to Yucca Mountain. FRA strongly believes, 
however, that the cornerstone of this exemplary safety record is 
application of the comprehensive regulatory framework and effective 
oversight by DOT and the Nuclear Regulatory Commission and that the 
true strength of the transportation safety program lies in the shared 
responsibility and cooperation among Federal, State, and local 
partners. Although in the Nuclear Fuel Management and Disposal Act 
submitted to Congress in 2006 DOE proposed to preempt DOT's regulation 
of the transportation of radioactive materials in certain 
circumstances, FRA understands that DOE is not currently advocating for 
such legislation. Given the success of the current Federal regulatory 
system governing the transport of SNF/HLRW and the safety-critical 
aspects of such transportation, FRA would not support preemption of the 
comprehensive Federal regulatory process currently governing the 
transport of SNF/HLRW.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Harry Reid to 
                            Edward Pritchard
    Question 1. In comments to the Surface Transportation Board, CSX 
recently expressed concern that the Department of Energy (DOE) is 
retreating from its commitment to use dedicated train service for 
shipping nuclear waste. The DOE apparently hasn't decided whether it 
will share its trains or its Nevada rail line with commercial carriers. 
Does the Federal Railroad Administration take a position about whether 
nuclear waste should be transported in dedicated train service? What 
are the risks of putting nuclear waste on the same trains as commercial 
freight?
    Answer. In response to Congress's mandate in the Hazardous 
Materials Transportation Uniform Safety Act of 1990, the Federal 
Railroad Administration (FRA) studied the safety of using dedicated 
trains for the transportation of spent nuclear fuel (SNF) and high 
level radioactive waste (HLRW) as compared to other methods of rail 
transportation (i.e., general consist trains transporting benign 
freight and/or other hazardous materials or ``key trains'' operating at 
maximum authorized speeds of 50 mph). A dedicated train is a train that 
consists only of equipment and lading associated with the 
transportation of SNF/HLRW. FRA's research concluded that given the 
comprehensive regulatory scheme applicable to the transportation of SNF 
and HLRW, the risk to employees and the public from such transportation 
is low to begin with, but on a comparative basis, use of dedicated 
trains would offer several advantages over general consist trains in 
the rail operating environment. For example, because by definition 
dedicated trains will be routed more directly to a destination, the 
trains will have shorter transit times than general consist trains. 
This shorter transit time reduces the probability of an SNF/HLRW cask 
being involved in a train accident and the potential hazards that can 
be associated with frequent yard stops (e.g., increased dwell time and 
increased handling and switching of the cars carrying the casks). The 
probability of a dedicated train being involved in an accident is 
further reduced by the decreased stopping distance of the shorter 
consist, as compared to general consist trains. In addition, use of 
dedicated trains would reduce the potential radiation exposure in any 
accident, as accident clearing can be expedited since the consist would 
be shorter than a general consist train, and since there are no other 
hazardous materials in the consist, there would be little chance of a 
fire that would prolong the response and accident clearing duration. 
Use of dedicated trains would also allow more flexibility to avoid 
higher-risk locations and to more easily impose operating restrictions 
such as lower operating speeds, as well as making it possible to 
further enhance the security of shipments of SNF/HLRW.
    The risks of transporting SNF/HLRW in a general consist train are 
directly opposite to the advantages cited above. For example, a general 
consist train will generally be longer than a dedicated train and will 
not be routed to its end destination as directly and expeditiously as a 
dedicated train. Accordingly, the stopping distance of a general 
consist train will generally be longer than a dedicated train, the 
transit times will be increased, and a rail car transporting a cask in 
a general consist train will be more likely to be subject to additional 
handling and dwell time in railroad yards. If other hazardous materials 
are present in the train consist, there is an increased risk that in 
the event of an accident or incident that results in the breach of a 
hazardous materials packaging in the train (e.g., a tank car containing 
a hazardous material), that other hazardous material could interact 
with or have an impact on the SNF/HLRW.
    Given the clear advantages of utilizing dedicated trains as 
compared to general consist trains to transport SNF/HLRW by rail, FRA 
is currently conducting research to identify the train dynamics 
applicable to the configuration of dedicated train consists, as well as 
whether any additional specialized operational or mechanical measures 
should be implemented to ensure the safety of such operations. Based on 
the results of this research, FRA plans to initiate a rulemaking 
proceeding amending the Federal railroad safety regulations as 
necessary.
    In a March 2005 report to Congress titled ``Use of Dedicated Trains 
for Transportation of High-Level Radioactive Waste and Spent Nuclear 
Fuel,'' FRA examined in further detail the relative safety of rail 
shipment alternatives for the transport of SNF and HLRW. A copy of that 
report can be accessed at: http://www.fra.dot.gov/downloads/safety/
report_dedicated_trains.pdf.

    Question 2. The DOE is not in the railroad business today. Do you 
believe that the DOE is prepared to not only build and operate the 
largest new rail line since the 1930s, but to launch a nationwide 
campaign to make thousands of shipments of nuclear waste?
    Answer. Over the past 16 years, FRA has actively coordinated with 
the relevant offices of DOE on the infrastructure and planning issues 
that will need to be addressed to ensure the safe rail transportation 
of SNF/HLRW to Yucca Mountain. Most recently, DOE's Office of Logistics 
Management requested FRA's assistance in planning the proposed Nevada 
rail line. FRA has and will continue to work with that office, and 
other relevant DOE offices, to provide the necessary railroad-specific 
expertise and assistance to ensure that transportation of SNF/HLRW to 
Yucca Mountain will occur safely and securely. In addition, because as 
currently contemplated, SNF/HLRW will be transported to Yucca Mountain 
by commercial rail lines under contract to the Department of Energy 
(DOE), these operations will be required to comply with the DOT's 
comprehensive set of hazardous materials and rail safety regulations 
(49 CFR Parts 107, 171-180 and 49 CFR Parts 209-244). FRA will continue 
working with the DOE, all interested stakeholders, and when 
appropriate, the carriers responsible for transportation of the SNF/
HLRW to Yucca Mountain to ensure that such transportation is conducted 
in the safest and most secure manner possible and in compliance with 
all applicable regulations.
    Spent nuclear fuel shipments are a very minor portion of hazardous 
cargo movements by the rail industry. In 2006, all radioactive contents 
shipped by rail were only 0.5 percent of the overall hazardous material 
transported (AAR data). Spent nuclear fuel is a minor subset of the 
radioactive cargo. In this context, the challenge presented by these 
shipments is manageable.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Harry Reid to 
                               Ted Willke
    Question 1. How prepared are states today to deal with thousands of 
rail and truck shipments of nuclear waste? What additional steps must 
be taken to make emergency responders prepared to deal with a potential 
accident involving a radioactive release?
    Answer. PHMSA recognizes the challenges the emergency response 
community faces in dealing with transport accidents involving spent 
nuclear fuel. In fact, one of our core goals is reaching out to 
emergency responders and hazardous materials stakeholders to ensure the 
preparedness and response communities are fully primed to deal with any 
type of hazardous material incident. PHMSA is prepared to provide its 
technical expertise to its Federal partners, the nuclear industry and 
State and local governments to ensure the transportation system remains 
safe.
    While successful hazardous materials emergency preparedness 
programs exist, Congress has recognized additional effort will be 
needed when spent nuclear fuel is transported to a geologic repository. 
Accordingly, Section 180(c) of the Nuclear Waste Policy Act directs the 
Department of Energy (DOE) to provide technical and financial 
assistance to states and Indian tribes for training public safety 
officials in procedures for safe, routine transportation and emergency 
response situations. As transportation planning progresses, PHMSA will 
be prepared to work with DOE to apply its experience with existing 
emergency preparedness programs in developing a Yucca Mountain 
preparedness program. PHMSA also encourages DOE to conduct exercise 
programs to test and validate State, Tribal, and local officials' 
transportation emergency response plans.

    Question 2. Given that Nevada will undergo shipments of nuclear 
waste from 43 other states if the Yucca Mountain project moves forward, 
why has Nevada received less Hazardous Materials Emergency Preparedness 
grant funding than all except for 9 states?
    Answer. Hazardous Materials Emergency Preparedness (HMEP) planning 
and training grant funds are apportioned by formula. The grant 
allocation formula was developed by an interagency workgroup (which is 
now the National Response Team's training subcommittee) to distribute 
HMEP grants funds fairly and consistently to states, territories, and 
Indian tribes for addressing all hazardous material shipments. Spent 
nuclear fuel shipments are as very minor portion of the overall 
hazardous material shipment workload. To ensure a sufficient minimum 
level of planning funds for all grantees, a base amount is divided 
equally among all states and territories, and 3 percent of total 
planning funds are designated for Indian tribes. The remaining planning 
grant funds are apportioned according to the following risk related 
factors:

  <bullet> One-fifth of the remaining funds are allocated to states and 
        territories on the basis of their percentage of total 
        population, with this measure serving as surrogate for risk to 
        the general public.

  <bullet> Two-fifths are allocated on the basis of a State's or 
        Territory's percentage of total hazardous materials truck 
        miles, a surrogate for highway hazmat risk.

  <bullet> The final two-fifths are allocated on the basis of a State's 
        or Territory's percentage of SARA 302 chemical facilities, a 
        surrogate for fixed facility risk.

    The base amounts plus the risk-related apportionments comprise the 
total training grant allocations to states and territories. As with 
planning funds, all but 3 percent of total training funds (the total 
training funds designated for Indian tribes) are apportioned on the 
basis of these risk-related factors:

  <bullet> One-half on the basis of population.

  <bullet> Three-tenths on the basis of total highway miles.

  <bullet> Two-tenths on the basis of the number of fixed hazardous 
        materials facilities that are identified by Census Bureau data.

    In 2007, $12,800,000 was available for HMEP planning and training 
grants. Of this, Nevada received $123,592 using the allocation formula; 
an additional $98,130 was awarded to Indian tribes in Nevada. Taking 
this into account, Nevada ranked 21st out of 50 states for HMEP grant 
awards.
    In 2008, $21,300,000 was available for HMEP planning and training 
grants. Of this, Nevada received $210,193, and $109,097 was awarded to 
Indian tribes in Nevada. In 2008, Nevada ranked 27th out of 50 states 
for HMEP grant awards.

    Question 3. In 2007, the Department of Energy (DOE) officially gave 
Congress draft legislation that would abolish Department of 
Transportation's (DOT) authority over transportation of nuclear waste 
under the Hazardous Materials Authorization Act. It would also preempt 
state and Indian tribes' transportation requirements. While there is no 
chance Congress will pass such sweeping authority to the DOE anytime 
soon, do you think DOT regulations and state regulations need to be 
preempted to facilitate a massive nuclear waste shipping campaign?
    Answer. PHMSA believes that spent nuclear fuel can be safely and 
securely transported to a permanent repository under current law and 
PHMSA's existing hazardous materials transport safety program. The 
current regulatory program--based on uniform, federally-mandated safety 
controls and strong Federal-State partnerships for oversight and 
enforcement--has achieved an exemplary safety record for spent nuclear 
fuel movements over the past 50 years (1,500 shipments).

    Question 4. The DOT requires that nuclear waste shipments avoid 
intermediate stops to avoid potential accidents and sabotage during 
stops. What role does or would the DOT play in the routing of nuclear 
waste shipments?
    Answer. DOT has established Federal standards and guidelines for 
routing of nuclear waste shipments. Rail routes for radioactive 
materials shipments are determined by rail carriers, subject to Federal 
standards, including PHMSA's recent interim final rule requiring that 
carriers select routes posing the least overall safety and security 
risks. Under PHMSA's rule, beginning in 2009, rail carriers 
transporting highway route-controlled quantities of radioactive 
materials must analyze the safety and security risks along rail routes 
where such materials are transported, assess alternative routing 
options for those materials, and make routing decisions based on those 
assessments. Highway routing guidelines have been developed jointly by 
PHMSA and the Federal Motor Carrier Safety Administration. These 
guidelines are issued in DOT's publication ``Guidelines for Selecting 
Preferred Highway Routes for Highway Route Controlled Quantity 
Shipments of Radioactive Materials.'' Briefly, these guidelines require 
carriers to follow ``preferred'' routes; prepare and file route plans; 
provide driver training; provide emergency response training and 
information; and follow security requirements. They also establish a 
methodology for determining how a ``preferred'' route is selected. The 
methodology includes the following: route identification and comparison 
criteria; criteria to evaluate radiation exposure to personnel and the 
environment; guidelines for assessing economic risk; emergency response 
evaluation methods; and general highway safety criteria.

    Question 5. How would the DOT ensure that trucks hauling nuclear 
waste are safe during required stops, such as refueling?
    Answer. The same robust design and construction features that make 
transportation casks safe across transport accident scenarios also 
limit their vulnerability to sabotage, theft, and diversion during 
transport. In addition to coordinating all shipments with states, 
Indian tribes, and Federal law enforcement agencies, DOE will have in 
place the following standards:

  <bullet> Satellite tracking of shipments, with access to tracking 
        information by appropriate Federal, State, and Tribal 
        officials;

  <bullet> Notification to relevant Governors and Tribal leaders before 
        transport begins;

  <bullet> Special safeguard procedures for the shipper to follow in 
        emergencies;

  <bullet> Escort training on threat recognition, response, and 
        management;

  <bullet> Advance arrangements with law enforcement agencies along the 
        route;

  <bullet> Armed escorts to accompany the shipment;

  <bullet> Escorts to maintain visual surveillance of the shipment at 
        all times;

  <bullet> Status reporting by the escorts every 2 hours;

  <bullet> The capability to immobilize the cab or cargo-carrying 
        portion of the vehicle (for highway shipments); and

  <bullet> Protection of specific information about any shipment.

    Question 6. Out of 72 commercial sites with nuclear waste, one 
third of them do not have rail access. That means the DOE will have to 
haul waste by truck from these nuclear reactors either all the way to 
Nevada or to a railway. Does adding steps to the transportation process 
raise security or safety risks? Has the DOT approved this approach?
    Answer. Coordination between the Federal Government and nuclear 
utilities will play an integral role in the planning and implementation 
of the transportation system. Transporting waste to the repository will 
begin at the utilities when they prepare transportation casks for DOE-
managed shipment. As current owners of the fuel, the utilities have the 
responsibility of training their personnel appropriately to ensure the 
safe transfer of the waste to DOE, pursuant to DOT and NRC regulations.
    It is our understanding that DOE will update both the nuclear site 
capability assessment data and the data on transportation 
infrastructure in the vicinity of sites that was collected in the early 
1990s three to five years before shipments start. Site capability data 
identify the various operating capabilities at and around the utility 
sites that are important to determining cask requirements and site 
servicing needs. Transport infrastructure data provide information 
concerning the local transportation infrastructure that connects the 
utility sites with the nearest mainline rail or interstate highway 
system. Both data sets will be used to develop site-specific and final 
transportation requirements.
    DOT's hazardous materials transport regulations prescribe safety 
controls providing an equivalent level of safety for all modes of 
transport and Federal security requirements apply equally across all 
modes of transport considered for spent nuclear fuel. Accordingly, 
hauling spent nuclear fuel from the reactor site to the nearest railway 
will not adversely impact its safe and secure transport. As DOE has not 
completed its transportation planning, PHMSA has not issued any 
transport or packaging approval or permit to DOE for the transport of 
commercial spent nuclear fuel.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                                Ken Cook
    Question. What outstanding questions do you think need to be 
resolved before the shipment of nuclear waste to Yucca Mountain can 
begin?
    Answer. Chairman Inouye, the crucial issues surrounding the safety 
and security of the transportation and storage of lethal, long-lived 
nuclear waste in the United States must meet the highest scientific 
standards of objective, rigorous analysis and transparency of process. 
Unfortunately, the rush to approve and build the proposed Yucca 
Mountain nuclear waste repository has not met these standards.
    Since 2002, EWG has helped educate the public about the 
implications of nuclear waste, with a particular focus on the 
implications of transporting deadly radioactive wastes from nuclear 
power plants around the United States to Yucca Mountain, should the 
proposed nuclear waste repository there become operational. The 
American public's fundamental right to understand the full implications 
of shipping thousands of tons of extremely hazardous nuclear waste 
across this country should be central to the government's process for 
licensing Yucca Mountain, for operating any other repository for this 
material, and for all decisions to relicense existing reactors or build 
new ones. The Federal Government has not respected this right to know.
    There are many examples of how government is violating people's 
right to know how the transportation of nuclear waste will affect them. 
The Department of Energy, the Nuclear Regulatory Commission and the 
Environmental Protection Agency have not implemented the safety and 
scientific recommendations of the National Academies of Sciences 1995 
report The Technical Basis for the Yucca Mountain Standard, or of its 
February 2006 report Going the Distance? The Safe Transport of Spent 
Nuclear Fuel and High-Level Radioactive Waste in the United States.

  <bullet> EPA has not proposed or set a public health radiation safety 
        standard that is protective of people at peak exposure.

  <bullet> Both the Government Accountability Office and the Nuclear 
        Waste Technical Review Board have questioned basic scientific 
        and work produced by DOE, including its characterization of the 
        physical and chemical characteristics of the proposed Yucca 
        Mountain site and the effectiveness of proposed man-made 
        barriers to the spread of lethal radiation.

  <bullet> Addressed the security threats posed by the transportation 
        of spent nuclear fuel.

  <bullet> Planned for full scale physical testing of spent fuel 
        transportation casks to determine basic safety issues, such as 
        crash failure thresholds.

    In addition, the foremost experts on Yucca Mountain have provided 
extensive detail as to why the proposed nuclear waste dump site is 
geologically unsuitable. (See Yucca Mountain and the Nation's High-
Level Nuclear Waste, edited by Allison M. Macfarlane and Rodney C. 
Ewing, 2006.)
    It makes no sense to generate tons more nuclear waste when we have 
not figured out what to do with the tens of thousands of tons already 
on hand. Our government has ignored that common sense precaution. Yet, 
the government is rushing to approve the license application for Yucca 
Mountain before rudimentary, life and death questions have been 
resolved about transportation, storage, and a truly protective 
radiation safety standard. We should not burden our children and their 
children with unacceptable risks.
    This result of the government's push to license the proposed Yucca 
Mountain nuclear waste dump and its subsidization of the nuclear 
industry while ignoring the public health, environmental and economic 
costs of these activities virtually guarantees that:

  <bullet> Nuclear power plants would be transformed into long-term 
        nuclear waste dumps. The recent surge in reactor relicensing 
        ensures that hundreds of metric tons of extremely hazardous, 
        high-level nuclear waste would remain in place at reactors 
        around the country, as more waste is produced long after the 
        proposed Yucca Mountain nuclear waste dump would be full.

  <bullet> The proposed Yucca Mountain nuclear waste dump would have to 
        be expanded or a second repository opened to accommodate the 
        additional waste. By law, Yucca Mountain is limited to 70,000 
        metric tons of nuclear waste, which is almost equal to the 
        amount of nuclear waste that will be stored on-site at reactors 
        around the country in 2010, well before any repository could be 
        opened.

  <bullet> If rail were the primary means of transporting the waste, 
        the security and health risks inherent in these shipments are 
        enormous, and preparedness is minimal.

  <bullet> The public would be unaware of, and unprepared for, the 
        implications of policy decisions regarding nuclear power and 
        nuclear waste and its transportation through its neighborhoods.

    People of every state have a right to know and fully understand the 
implications for them of shipping nuclear waste to the Yucca Mountain 
nuclear waste repository before shipping begins or the license for the 
facility goes forward. And they have the same right to know what 
expansion of nuclear waste generation will mean for transportation 
through their state if reactors around the country are relicensed for 
10 to 20 additional years of operation, or new reactors are 
constructed. They may or may not know that decisions made hundreds of 
miles away will have profound implications for the shipment of high-
level, deadly nuclear waste through their neighborhoods for decades to 
come.
    I thank you, Chairman Inouye, for the opportunity to answer your 
questions.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                             Kevin Crowley
    Question. Do you feel that the recommendations for the security and 
social challenges of transporting nuclear waste in your 2006 National 
Academy of Sciences report have been adequately addressed by the DOE, 
Department of Transportation, Department of Homeland Security, and the 
NRC?
    Answer. To my knowledge, the Federal agencies have not addressed 
the recommendation in the National Academies 2006 report that an 
independent examination of the security of spent fuel and high-level 
waste be carried out prior to the commencement of large-quantity 
shipments to a Federal repository or to interim storage. The National 
Academies committee that made this recommendation wanted this 
independent examination to be carried out well in advance of the start 
of the transportation program so that steps could be taken to address 
any deficiencies that were identified. Otherwise, the initiation of the 
transportation program could be delayed.
    DOE is taking important first steps to address the social 
challenges identified in our 2006 report. It is seeking advice from a 
social science expert and its external advisory group (Transportation 
External Coordination Working Group) on how to address the social 
challenges. This work is still in progress and it is too soon to judge 
whether it will be successful.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Harry Reid to 
                             Kevin Crowley
    Question 1. In your view, has the Department of Energy (DOE) 
adequately addressed recommendations from the Academy's 2006 report 
that they make public their ``suite of preferred highway and rail 
routes for transporting nuclear waste'' to support state, local and 
emergency responder preparedness? What would be the consequences of 
failing to engage state and local governments in routing nuclear waste 
shipments?
    Answer. In my view, DOE is making good progress in addressing this 
recommendation by working with state, tribal, and local officials to 
develop a consultative process for selecting highway and rail routes 
for transporting nuclear waste to a geologic repository. This work is 
being carried out primarily through DOE's Transportation External 
Coordination Working Group. However, to my knowledge, DOE has not yet 
announced the specific routes that will be used to ship spent fuel and 
high-level waste to the repository should it be licensed and 
constructed.
    It is important to consult with state, tribal, and local 
governments because these entities generally have better knowledge of 
local conditions, for example traffic and road conditions, that can 
affect the safety and security of shipments. Failure to consult with 
these governments could result in suboptimal route selections, loss of 
cooperation, and increased public resistance to shipping programs.

    Question 2. The Academy has recommended that the DOE should ship 
older spent fuel before they ship newer, more radioactive fuel. Please 
describe the public safety and security benefits of this approach? Has 
the DOE ever indicated that they plan to follow this recommendation?
    Answer. There are two primary benefits for shipping older fuel 
first. First, it would provide an additional margin of safety, 
especially for reducing radiation doses to transportation personnel who 
work in close proximity to the shipping casks (the casks do not shield 
all of the radiation emitted by the spent fuel contained within them). 
In the Environmental Impact Statement for Yucca Mountain, DOE estimated 
that some transportation workers would receive the maximum annual 
amount of radiation allowed by DOE occupational administrative limits 
during each of the 24 years of the transportation program. That limit 
is currently 20 millisieverts (2 rem) per year.
    Second, shipping older fuel first would reduce the amount of 
radioactive material that could be released into the environment as a 
result of a severe accident or terrorist attack that breached the 
shipping cask. The risk of such releases is understood to be very small 
for severe accidents because of the robust construction of shipping 
casks. The National Academies has not undertaken a detailed assessment 
of transportation security and therefore cannot comment on the risks.
    DOE has not indicated to the National Academies whether it intends 
to follow the recommendation to ship older fuel first. It is important 
to note, however, that under the requirements of the Nuclear Waste 
Policy Act DOE does not appear to have the legal authority to require 
spent fuel owners to offer their older fuel first for shipment. 
Consequently, if DOE decided to follow this recommendation it would 
probably have to negotiate with spent fuel owners.

    Question 3. Would transportation risks be reduced if the United 
States were to store spent nuclear fuel onsite at nuclear reactors for 
several decades before shipping it? What is the best age for nuclear 
fuel for transporting it with the least risk?
    Answer. Storing spent fuel onsite for several decades would reduce 
its radioactivity. Shipping lower-radioactivity fuel would likely 
reduce transportation risks, especially risks to transportation workers 
for the reasons noted in my response to the previous question. The 
risks would continue to decrease the longer the fuel was stored onsite. 
However, it is important to note that the risks of transporting spent 
fuel, or storing it onsite for that matter, will always be greater than 
zero.
    It is interesting to note that if DOE ships older fuel first to the 
repository using its currently planned shipping schedule of 3,000 
metric tons per year, most spent fuel will have been stored at plant 
sites for several decades before it is shipped to the repository.

    Question 4. In the Academy's 2006 report, the Academy suggested 
that the DOE, U.S. Nuclear Regulatory Commission (NRC) and other 
agencies develop clear criteria for protecting sensitive information 
while making public less-sensitive information. Has information useful 
for community and emergency responder planning been made easily 
accessible?
    Answer. The information that would be helpful to community and 
emergency responder planners include the following: the types and 
quantities of material being shipped, shipping route(s), and shipping 
schedules. Some general information on the types and quantities of 
materials to be shipped to a repository (if it is licensed and 
constructed) is publicly available in DOE's Environmental Impact 
Statement for Yucca Mountain. However, to my knowledge, DOE has not yet 
developed specific shipping plans that contain the level of detailed 
information that would be required for community and emergency 
responder planning. Some of this information is not normally released 
to the public until after shipments have been made for security 
reasons, so sharing this information with local communities could be 
problematic. Both DOE and Nuclear Regulatory Commission staff have 
expressed an interest in improving the sharing of relevant information 
with state, tribal and local governments, but I do not know what 
specific progress has been made in this regard.

    Question 5. What measures could the DOE and NRC take to improve the 
security and safety of nuclear waste transport? Has the DOE responded 
to the Academy's recommendation that an independent examination of the 
security of nuclear waste transportation be carried out?
    Answer. The National Academies report entitled ``Going the 
Distance? The Safe Transport of Spent Nuclear Fuel and High-Level 
Radioactive Waste in the United States'' made several recommendations 
for improving the safety and security of spent fuel transport. These 
were mentioned in my written testimony and include the following four 
recommendations:

        1. An independent examination of the security of spent fuel and 
        high-level waste should be carried out prior to the 
        commencement of large-quantity shipments to a Federal 
        repository or to interim storage. This examination should 
        provide an integrated evaluation of the threat environment, the 
        response of shipping packages to credible malevolent acts, and 
        operational security requirements for protecting spent fuel and 
        high-level waste while in transport. This examination should be 
        carried out by a technically knowledgeable group that is 
        independent of the government and free from institutional and 
        financial conflicts of interest. This group should be given 
        full access to the necessary classified documents and 
        Safeguards Information to carry out this task. The findings and 
        recommendations from this examination should be made available 
        to the public to the fullest extent possible.

    To my knowledge, DOE has not addressed this recommendation.

        2. The Nuclear Regulatory Commission should undertake 
        additional analyses of accident scenarios involving very long 
        duration fire scenarios that bound expected real-world accident 
        conditions and implement operational controls and restrictions 
        on spent fuel and high-level waste shipments as necessary to 
        reduce the chances that such conditions might be encountered in 
        service.

    Steps to address this recommendation have been taken by the Nuclear 
Regulatory Commission as noted in the testimony of Mr. Michael Weber.

        3. DOE should ship spent fuel and high-level waste to the 
        Federal repository by ``mostly rail'' using dedicated trains.

    DOE's current plans for shipping to the repository are consistent 
with this recommendation.

        4. DOE should negotiate with commercial spent fuel owners to 
        ship older fuel first to a Federal repository or to Federal 
        interim storage. Should these negotiations prove to be 
        ineffective, Congress should consider legislative remedies. 
        Within the context of its current contracts with commercial 
        spent fuel owners, DOE should initiate transport to the Federal 
        repository through a pilot program involving relatively short, 
        logistically simple movements of older fuel from closed 
        reactors to demonstrate its ability to carry out its 
        responsibilities in a safe and operationally effective manner.

    As described in my answer to a previous question, DOE has not 
indicated to the National Academies whether it intends to follow the 
recommendation to ship older fuel first. DOE also has not indicated 
whether it will initiate transport with the pilot program described 
above.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                        Dr. James David Ballard
    Question. Your testimony contends that too many questions remain 
regarding the security of nuclear waste shipments. What areas need to 
be researched further in order to more fully understand the national 
security risks of transporting nuclear waste?
    Answer. Thank you, Senator Inouye, I am happy to provide additional 
details on specific research projects that should be conducted prior to 
the commencement of any shipments to the proposed Yucca facility.
    Besides the ten items noted in my written and oral testimony that 
were identified by stakeholders as needing to be addressed by the DOE 
and NRC prior to Yucca shipments, the Committee should also consider 
the following:

  <bullet> First and foremost, what I believe is needed is a systematic 
        analysis of realistic worse case attack scenarios and their 
        consequences. These could emerge from the AVA process I 
        discussed in testimony. That process expertise already resides 
        in a national laboratory environment--specifically Dr. Roger 
        Johnson at Argonne National Laboratory. This analysis would 
        offer usable scenarios, examples of which I tried to illustrate 
        in my written testimony, which could be used as the basis of 
        consequence analysis. It is critical that examples are not 
        sanitized by the regulatory agencies that fail to look at such 
        alternatives in their published analysis.

  <bullet> Next I would suggest a National Academies of Science level 
        assessment of 21st century terrorist motivations, tactics and 
        weapons and their consequences/implications for radioactive 
        shipment security and planning. Agencies seem to be approaching 
        this problem from a Cold War mindset--perhaps we should 
        consider not just that what will be shipped are `waste' 
        products but rather potential radiological dispersion devices 
        that can be attacked and the contents dispersed into the 
        environment. These materials need not be captured but rather we 
        should consider how and if it can be used along the 
        transportation routes as a means to attack this country, 
        contaminate transportation infrastructure and other dire 
        consequences.

  <bullet> Once we have listed the worst cases and defined motivations 
        for adversaries then we could make more useful comparisons 
        between the proposed shelter-in-place strategy of leaving the 
        waste at reactor sites in secure dry storage facilities and 
        shipping the waste across country to a repository. This would 
        also demand a full accounting of the transportation planning--
        as it is now the DOE has not defined the transportation system 
        in enough detail to even allow for such an analysis. To meet 
        that need you should consider requiring the DOE to engage in a 
        national level transportation related NEPA process.

  <bullet> Lastly, one immediate item that could be undertaken is a 
        organizational level study of law enforcement and emergency 
        responder awareness, capabilities and needs relative to the 
        unprecedented high-level radioactive waste shipping campaign 
        required for the Yucca Mountain program. No national level 
        study exists on what these state and local agencies will need, 
        what they have currently in terms of equipment and expertise, 
        and what funding will be necessary in the future if Yucca 
        shipments commence. It seems reasonable to establish a baseline 
        now so that transportation planning and financial and technical 
        assistance can assist in offsetting any funding impacts this 
        proposed project would entail.

    Thank you again for asking for the opportunity to testify before 
the Committee. If I can be of any additional service please do not 
hesitate to ask.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                          Edward R. Hamberger
    Question. In your testimony, you expressed concern that the DOE has 
not yet committed to using dedicated train service for shipping nuclear 
waste on all routes across the Nation. Do you have any additional 
comments on why the DOE appears to be hesitating in requiring the use 
of these trains across your system?
    Answer. AAR thinks that DOE should explain why it is hesitating.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Harry Reid to 
                          Edward R. Hamberger
    Question 1. Will the AAR oppose the Department of Energy's (DOE) 
all-rail transportation plan for nuclear waste if they refuse to commit 
to dedicated train service?
    Answer. AAR recognizes that because of the safety advantages 
afforded by rail transportation, rail is likely to be the preferred 
mode for transporting spent nuclear fuel. Even though DOE has not 
committed to dedicated train service, AAR is optimistic that, 
ultimately, DOE will decide to use dedicated train service because of 
its safety advantages, as discussed in my testimony.

    Question 2. The DOE is not in the railroad business today. Do you 
believe that the DOE is prepared to not only build and operate the 
largest new rail line since the 1930s, but to launch a nationwide 
campaign to make thousands of shipments of nuclear waste?
    Answer. There is no question it takes a high degree of expertise to 
build and operate a railroad. DOE, of course, can contract with 
railroad industry experts to build and operate the rail line.

                                  <all>

</pre></body></html>
